Office of Inspector General
Semiannual Report to Congress

  April 1, 2001 - September 30, 2001
                                                  FOREWORD



I am pleased to submit the semiannual report on the activities of the Department of
Veterans Affairs (VA), Office of Inspector General (OIG) for the period ended September 30,
2001. The OIG is dedicated to help ensure that veterans and their families receive the
care, support, and recognition they have earned through service to our country. This
report is issued in accordance with the provisions of the Inspector General Act of 1978, as
amended.

OIG oversight of major VA programs resulted in systemic improvements and increased
efficiencies in areas of medical care, benefits administration, procurement, financial
management, information technology, and facilities management. Overall, OIG audits,
investigations, and other reviews identified $1.7 billion in monetary benefits, for an OIG
return on investment of $64 for every dollar expended.

Our criminal investigations division continues to place a priority on safety and security
at VA facilities by working closely with VA police on items of mutual concern. During
this semiannual reporting period, we conducted over 85 joint investigative cases with
the VA police and 39 individuals were arrested for crimes committed against VA or on
VA property. All told, we concluded over 300 criminal cases and were involved in over
180 arrests. In addition, over $26 million has been returned or saved by VA as a result
of our investigative efforts.

Following the terrorist attacks on September 11, 2001, we immediately provided
criminal investigators to assist in the recovery of evidence and to pursue other
investigative leads. We have also provided criminal investigators to support the
Federal Air Marshall program.

Our audit oversight of VA, the second largest Department in the Federal Government,
focused on determining how programs can work better, while improving service to
veterans and their families. For example, an audit presented opportunities to better use
$1.48 billion by including veterans classified as priority group 7 in the Veterans Health
Administration’s (VHA) resource allocation formula known as the Veterans Equitable
Resource Allocation or VERA. Also, an audit of VA medical center (VAMC)
management of engineering supply inventories presented opportunities to reduce
engineering supplies by over 67 percent or $168 million. Monetary benefits of this type
can be redirected to programs that can improve or increase services to veterans.
Our healthcare inspections focus on quality of care issues in VA, which operates the largest
health care system in the United States. We visited a number of facilities this period to
respond to Congressional and other special requests. We reviewed patient allegations
pertaining to quality of care issues received by the OIG Hotline. Most notably, we oversaw
VHA’s responses to 177 inquiries sent to them for action and resolution. This involved
reviewing 513 issues and assessing the appropriateness of 200 recommendations to
improve the quality of care and services provided to patients.

The OIG’s ongoing Combined Assessment Program (CAP) evaluates the quality, efficiency,
and effectiveness of VA facilities. Through this program, auditors, investigators, and
healthcare inspectors collaborate to assess key operations and programs at VAMCs
and VA regional offices (VAROs) on a cyclical basis. The CAP reviews completed
during this 6-month reporting period highlighted numerous opportunities for
improvement in quality of care, management controls, and fraud prevention. Through
increased or restructured resources, I am committed to extending this program to
enable more frequent oversight of VA activities.

I look forward to continued partnership with the Secretary and the Congress in improving
service to our Nation’s veterans.




RICHARD J. GRIFFIN
Inspector General
                                                    TABLE OF CONTENTS

                                                                                                                                                      Page


HIGHLIGHTS OF OIG OPERATIONS .................................................................................................                          i
VA AND OIG MISSION, ORGANIZATION, AND RESOURCES ..........................................................                                              1
COMBINED ASSESSMENT PROGRAM .............................................................................................                               7
OFFICE OF INVESTIGATIONS
     Mission Statement ......................................................................................................................          13
     Resources ..................................................................................................................................      13
     Criminal Investigations ...............................................................................................................           13
              Significant Investigative Activities ..................................................................................                  14
              Veterans Health Administration ......................................................................................                    15
              Veterans Benefits Administration ...................................................................................                     20
              OIG Forensic Documents Laboratory ............................................................................                           32
     Administrative Investigations ......................................................................................................              33
              Veterans Health Administration ......................................................................................                    34
              Veterans Benefits Administration ...................................................................................                     37
              Office of Human Resources Management .....................................................................                               37
OFFICE OF AUDIT
     Mission Statement ......................................................................................................................          39
     Resources ..................................................................................................................................      39
     Overall Performance ..................................................................................................................            39
              Veterans Health Administration ......................................................................................                    40
              Office of Management ...................................................................................................                 44
              Office of the Secretary ..................................................................................................               45
OFFICE OF HEALTHCARE INSPECTIONS
     Mission Statement ......................................................................................................................          47
     Resources ..................................................................................................................................      47
     Overall Performance ..................................................................................................................            47
             Veterans Health Administration .......................................................................................                    48
OFFICE OF MANAGEMENT AND ADMINISTRATION
     Mission Statement ......................................................................................................................          55
     Resources ..................................................................................................................................      55
     Hotline Division ..........................................................................................................................       56
              Veterans Health Administration ......................................................................................                    57
              Veterans Benefits Administration ...................................................................................                     63
              Office of Information and Technology ............................................................................                        63
              Outside Organization .....................................................................................................               64
     Operational Support Division ......................................................................................................               64
     Status of OIG Reports Unimplemented for Over 3 Years ............................................................                                 65
              Veterans Health Administration ......................................................................................                    66
              Veterans Benefits Administration ...................................................................................                     67
     Information Technology and Data Analysis Division ....................................................................                            68
     Resources Management Division ...............................................................................................                     73
OTHER SIGNIFICANT OIG ACTIVITIES
     President’s Council on Integrity and Efficiency ............................................................................                      75
     OIG Management Presentations ................................................................................................                     75
     Awards .......................................................................................................................................    76
     OIG Congressional Testimony ....................................................................................................                  77
     Obtaining Required Information or Assistance ............................................................................                         78
                                                                                                                                  Page

APPENDIX A -   REVIEWS BY OIG STAFF ................................................................................               79
APPENDIX B -   CONTRACT REVIEWS REPORTS FOR WHICH A CONTRACTING
               OFFICER DECISION HAS NOT BEEN MADE FOR
               OVER A SIX MONTH PERIOD .........................................................................                   87
APPENDIX C -   FOLLOW UP/RESOLUTION OF OIG REPORTS ............................................                                    89
APPENDIX D -   REPORTING REQUIREMENTS OF THE INSPECTOR GENERAL ................                                                    93
APPENDIX E -   OIG OPERATIONS PHONE LIST .....................................................................                     95
APPENDIX F -   GLOSSARY .......................................................................................................    97
               HIGHLIGHTS OF OIG OPERATIONS

This semiannual report highlights the activities and accomplishments of the Department of Veterans Affairs
(VA) Office of Inspector General (OIG) for the 6-month period ended September 30, 2001. The following
statistical data highlights OIG activities and accomplishments during the reporting period.

    DOLLAR IMPACT                                                                                 Current 6 Months               FY 2001
                                                                                                   4/1/01 – 9/30/01          10/1/00 – 9/30/01
                                                                                                                    Dollars in Millions
             Funds Put to Better Use ....................................................... $1,664.7                           $4,123.9
             Dollar Recoveries ......................................................................... $6.8                      $31.2
             Fines, Penalties, Restitutions, and Civil Judgments ................... $17.4                                         $33.7

    RETURN ON INVESTMENT
             Dollar Impact ($1,688.9) / Cost of OIG Operations ($26.2) ....... 64 : 1
             Dollar Impact ($4,188.8) / Cost of OIG Operations ($48.5) .......                                                      86 : 1

    OTHER IMPACT
             Arrests ........................................................................................ 186                   401
             Indictments ................................................................................. 175                      376
             Convictions ................................................................................. 165                      337
             Administrative Sanctions ........................................................... 291                               541

    ACTIVITIES

         Reports Issued
           Combined Assessment Program ................................................... 16                                        26
           Audits ........................................................................................... 18                     26
           Contract Reviews ......................................................................... 20                             48
           Healthcare Inspections ................................................................. 15                               22
           Administrative Investigations ....................................................... 9                                   14

         Investigative Cases
            Opened ....................................................................................... 379                      777
            Closed ......................................................................................... 329                    651

         Healthcare Inspections Activities
           Oversight Reviews...................................................................... 162                              284
           Consultations ................................................................................ 6                          12
           Technical Reviews ........................................................................ 37                             98

         Hotline Activities
           Contacts .................................................................................. 8,334                    16,658
           Cases Opened ............................................................................. 650                        1,179
           Cases Closed .............................................................................. 630                       1,160



                                                                            i
OFFICE OF INVESTIGATIONS

Overall Focus

This semiannual period the Office of Investigations achieved significant increases in the number of
investigative cases initiated and concluded. During this period, the office concluded 329 investigations
resulting in 340 judicial actions and over $26 million recovered or saved. Investigative activities resulted in
the arrests of 186 individuals who had committed crimes involving VA programs and operations or on VA
facilities. In addition, the office realized monetary benefits of over $11 returned to or saved by the
Government for each $1 spent on our investigative activities. Emphasis was placed on safety and security at
VA medical centers (VAMCs). Working hand-in-hand with VA police, we assisted in 39 arrests of individuals
who committed crimes at VAMCs. During this semiannual period, many significant cases were investigated.
Examples of these cases follow.

Veterans Health Administration

Five individuals were indicted on charges of wire fraud and false use of Social Security numbers. The charges
were filed after a VA OIG investigation determined the individuals used the identifying data, including names,
dates of birth, and Social Security numbers of VAMC patients to obtain cellular phone service and credit
cards. This investigation is ongoing and to date 18 individuals have been identified as being involved in the
scheme that includes the identity theft of over 50 veterans.

A former VAMC pharmacy employee was arrested on charges that he aided in an armed robbery of a VAMC
pharmacy. The former employee, a co-op student, was charged with aiding and abetting a robbery in which
controlled substances were taken. The former employee provided information and assistance to the individuals
who carried out the robbery, which resulted in the theft of 3,000 tablets of OxyContin, as well as varying
amounts of other narcotic drugs. Street value of the stolen drugs was estimated at over $250,000.

A former VA nurse pleaded guilty to charges of stealing and diverting various narcotics, and converting them to
her own use. This investigation determined the nurse stole liquid morphine from syringes intended for patient
use and replaced the drug with saline solution. In addition, on at least 21 occasions she falsified medical
records by stating that she had administered various controlled substances to patients when in fact she had
never administered the drugs and diverted them for her own use.

Veterans Benefits Administration

A VA employee and two former VA employees were arrested and charged with theft of Government property
and conspiracy. An ongoing investigation has disclosed the individuals defrauded VA of approximately $11
million between 1993 and August 2001. The VA employee accessed and falsified numerous files to generate
hundreds of benefit payments under the accounts of veterans who had died and had no beneficiaries.
Subsequently, large retroactive benefits checks were disbursed or electronically deposited into accounts
belonging to accomplices. Ten additional co-conspirators, who are not VA employees, have also been charged.
The investigation continues.




                                                        ii
The wife of a veteran was sentenced to 36 months’ supervised probation and ordered to pay $101,874
restitution. She had previously pleaded guilty to one count of misprision of a felony in connection with her
role in conspiring to fake her husband’s death, and cover up her husband’s identity. A joint investigation
disclosed the woman conspired with her husband’s family to enrich themselves by applying for and receiving
VA and other Government benefits totaling over $300,000. The woman’s husband was a U.S. Marine who
faced charges of child molestation in a military court. He faked his own death in order to avoid those charges,
but subsequently was apprehended and charged with additional molestation charges for which he received a
sentence of 45 years’ imprisonment.

OFFICE OF AUDIT

Audit Saved or Identified Improved Uses for $1.66 Billion

Audits and evaluations were focused on operations and performance results to improve service to veterans.
During this reporting period, 54 audits, evaluations, and reviews, including Combined Assessment Program
(CAP) reviews, identified opportunities to save or make better use of $1.66 billion. The Office of Audit
demonstrated a benefit to cost ratio of $150 for every dollar spent. Contract reviews returned $10 in monetary
benefits for every dollar spent.

Veterans Health Administration

The following are examples of major health care related audits. Our audit examining the provision of health
care services to veterans enrolled for medical care in Veterans Integrated Service Network (VISN) 8 found that
the network was unable to provide veterans with timely access to some of its clinical services because of clinic
overcrowding. The network’s efforts to improve clinic timeliness and reduce overcrowding require the
modification of the Veterans Health Administration (VHA) resource allocation strategy to include priority
group 7 veterans in the Veterans Equitable Resource Allocation (VERA) funding distributions. This change
would allow funding distributions for all networks to be based on the total number of veterans who receive
care and would be more closely aligned with the patient enrollment system. Improved network monitoring of
clinical resource utilization and equity of resource distributions among its facilities would help reduce clinic
overcrowding and excessive patient waiting times due to increasing workload. Including priority group 7
veterans in the VERA resource allocation formula could result in more effective funding distributions for care
of these veterans to all of VHA’s 22 VISNs. This funding distribution is estimated to total $1.48 billion in
fiscal year (FY) 2001. Our audit of VAMCs’ engineering supply inventories found that VA could reduce large
excess inventories by using automation, purchasing smaller quantities, and consolidating storage locations. We
reported engineering inventories could be reduced by $168 million.

Office of Management

As part of the Consolidated Financial Statements audit, we issued six management letters addressing financial
reporting and internal control issues. The letters provided Department managers additional automated data
processing security observations and advice that will enable the Department to improve accounting operations
and internal controls. None of the conditions noted had a material effect on the FY 2000 Consolidated
Financial Statements, but correction of the conditions was considered necessary for effective operations.




                                                        iii
Contract Review and Evaluation

During the period, we completed 20 contract reviews – 7 preaward and 13 postaward reviews. These reviews
identified monetary benefits of $11.7 million resulting from contractor actual or potential overcharges to VA.

OFFICE OF HEALTHCARE INSPECTIONS

The Office of Healthcare Inspections (OHI) participated with the Offices of Audit and Investigations on 16
CAP reviews and reported on specific clinical issues warranting the attention of VA managers. OHI reviewed
115 health care related issues, and made 92 recommendations to improve clinical operations and activities and
enhance the quality of care and services provided to patients.

Our inspectors visited a number of facilities this period to respond to Congressional and other special requests,
and reviewed patient allegations pertaining to quality of care issues received by the OIG Hotline. OHI
completed 15 Hotline cases, reviewed 38 issues, and developed 74 recommendations to correct conditions
identified and improve the care and services provided to patients. Findings and recommendations resulted in
managers taking action to issue new and revised procedures, administrative actions, resource realignments, and
environmental and safety improvements. OHI also oversaw 162 Hotline inquiries sent to VHA for action and
resolution. These cases involved 475 allegations which resulted in 126 recommendations for corrective action.

OFFICE OF MANAGEMENT AND ADMINISTRATION

Hotline

The Hotline provides an opportunity for employees, veterans, and other concerned citizens to report fraud,
waste, abuse, and mismanagement. The identification and reporting of issues such as these are integral to the
goal of improving the efficiency and effectiveness of the Government. During the reporting period, the Hotline
received 8,334 contacts. We opened 650 cases and closed 630 cases containing 181 substantiated allegations.
Hotline staff responded to 104 inquiries received from members of the Senate and House of Representatives.
The cases we opened led to 59 administrative sanctions against employees and 73 corrective actions taken by
management to improve VA operations and activities. Examples of some of the issues addressed by Hotline
include: (i) attending physicians who were not supervising residents; (ii) delays in responding to or
transporting patients; (iii) employees who abused time and leave and violated ethical conduct standards; (iv)
patient safety violations; (v) contracting irregularities; and (vi) instances of misconduct by VA employees.

Information Technology and Data Analysis

The OIG Data Analysis section provides automated data processing technical support to all elements of the
OIG and other Government agencies needing information from VA automated systems. One of its main tasks
is to develop proactive computer profiles that search VA computer data for patterns of inconsistent or irregular
records with a high potential for fraud and in turn refer these leads to OIG auditors and investigators for
further review. As an example, when fraud was first suspected at a VA Regional Office (VARO), the section
quickly discovered approximately $11 million in suspicious benefits payments associated with this case.




                                                       iv
During this period, the section completed 187 ad hoc requests for information and data submitted from all OIG
operational elements. They also provided 67 proactive reports using data mining to detect potential fraud in
VA systems and programs and completed 72 requests for auditors performing VA postaward and preaward
contract reviews of private vendors under contract with the VA.

This section also works closely with other VA offices. As an example, they worked with auditors from the VA
Office of Financial Policy, Financial and Systems Quality Assurance Service to test fraud detection computer
profiles. This resulted in the Service’s auditors referring 42 cases as potential fraud to OIG investigators with
potential monetary recoveries of $1.8 million. The section also worked with the Veterans Benefits
Administration (VBA) to form a collaborative effort to help identify internal and external fraud within
compensation and pension computerized systems. Examples of this collaboration include providing VBA with
the results of one-time payment reviews and a list of beneficiaries with no Social Security number or date of
birth on the VBA computer record. As a result of the reviews, VBA is considering a mailing to beneficiaries to
obtain a valid Social Security number and date of birth to repair each record. Also after raising the issue of
the fraud vulnerability of returned benefit checks with VBA officials, the VBA Philadelphia Insurance Center
was tasked to complete a study of returned mail. The section also worked with VBA representatives on data
mining activities and how VBA could use it to detect fraud in their computer systems. Examples of these
activities included providing copies of certain VBA files to the Data Management Office for testing and
working with the Philadelphia Insurance Center on methods to detect internal fraud in VA’s insurance systems.

Follow Up on OIG Reports

During the reporting period, action was taken to track implementation of OIG audits, inspections, and reviews
with over $4.1 billion of actual or potential monetary benefits. Of this amount, $2.6 billion was resolved as
VA officials agreed to implement OIG recommendations. The remaining $1.5 billion primarily relates to one
audit report on which the Under Secretary for Health deferred concurrence or non-concurrence with the
recommendation to include priority group 7 veterans in the VERA system until other options are considered.
After obtaining information that VA officials had fully implemented corrective actions, 70 reports and 376
recommendations were closed.

Status of OIG Reports Unimplemented for Over 3 Years

VA management officials are required to provide the OIG with documentation showing the completion of
corrective actions taken on OIG reports. In the majority of cases, program offices provide us with
documentation of the actions required to implement the reports in a reasonable period. However, we are
concerned about four OIG reports related to VHA and VBA management that were issued in FY 1998 and
earlier remain unimplemented. VHA has three reports (one report issued in each of FYs’ 1994, 1996, and
1997), and VBA has one report issued in FY 1997. Details about these reports can be found beginning on
page 65.




                                                        v
vi
                                                    VA and OIG Mission, Organization and Resources


VA AND OIG MISSION, ORGANIZATION, AND
RESOURCES

The Department of
Veterans Affairs (VA)
Background

In one form or another, American governments
have provided veterans benefits since before the
Revolutionary War. VA's historic predecessor
agencies demonstrate our Nation's long
commitment to veterans.

The Veterans Administration was founded in 1930,
when Public Law 71-536 consolidated the                                   VA Central Office
Veterans' Bureau, the Bureau of Pensions, and the             810 Vermont Avenue, NW, Washington, DC
National Home for Disabled Volunteer Soldiers.

The Department of Veterans Affairs was                     Organization
established on March 15, 1989, by Public Law
100-527, which elevated the Veterans                       VA has three administrations that serve veterans:
Administration, an independent agency, to                   Veterans Health Administration (VHA)
Cabinet-level status.                                      provides health care,
                                                            Veterans Benefits Administration (VBA)
Mission                                                    provides benefits, and
                                                            National Cemetery Administration (NCA)
                                                           provides interment and memorial services.
VA's motto comes from Abraham Lincoln's second
inaugural address, given March 4, 1865, "to care
                                                           To support these services and benefits, there are
for him who shall have borne the battle and for his
                                                           six Assistant Secretaries:
widow and his orphan." These words are inscribed
on large plaques on the front of the VA Central             Management (Budget, Finance, Acquisition
Office building on Vermont Avenue in Washington,           and Materiel Management),
DC.                                                         Information and Technology,
                                                            Policy and Planning,
The Department's mission is to serve America's              Human Resources and Administration
veterans and their families with dignity and               (Diversity Management and Equal Employment
compassion and to be their principal advocate in           Opportunity, Human Resources Management,
ensuring that they receive the care, support, and          Administration, Security and Law Enforcement,
recognition earned in service to this Nation.              and Resolution Management),




                                                       1
VA and OIG Mission, Organization and Resources

 Public and Intergovernmental Affairs, and               Almost 250,000 home loans were guaranteed in
 Congressional and Legislative Affairs.                  FY 2001, with a value of almost $31.3 billion.

In addition to VA's Office of Inspector General,          The National Cemetery Administration operated
other staff offices providing support to the              and maintained 119 cemeteries and employed over
Secretary include the Board of Contract Appeals,          1,400 staff in FY 2001. Operations of NCA and
the Board of Veterans' Appeals, the Office of             all of VA's burial benefits account for
General Counsel, the Office of Small and                  approximately $306 million of VA's budget.
Disadvantaged Business Utilization, the Center for        Interments in VA cemeteries continue to increase
Minority Veterans, the Center for Women                   each year, with 86,100 estimated for FY 2001.
Veterans, and the Office of Employment                    Approximately 345,000 headstones and markers
Discrimination Complaint Adjudication.                    were provided for veterans and their eligible
                                                          dependents in VA and other Federal cemeteries,
                                                          state veterans' cemeteries, and private cemeteries.
Resources

While most Americans recognize the VA as a                VA Office of Inspector
Government agency, few realize that it is the
second largest Federal employer. For FY 2001,
                                                          General (OIG)
VA employed approximately 206,200 employees
and had a $47.5 billion budget. There are an              Background
estimated 25 million living veterans. To serve our
Nation's veterans, VA maintains facilities in every       VA's OIG was administratively established on
state, the District of Columbia, the Commonwealth         January 1, 1978, to consolidate audit,
of Puerto Rico, Guam, and the Philippines.                investigation, and related operations into a
                                                          cohesive, independent organization. In October
Approximately 188,000 of VA's employees work              1978, the Inspector General Act (Public Law 95-
in VHA. Health care was funded at $20.6 billion,          452) was enacted, establishing a statutory
approximately 43 percent of VA's budget in FY             Inspector General (IG) in VA.
2001. VHA provided care to an average of 57,000
inpatients daily. During FY 2001, slightly more
                                                          Role and Authority
than 41 million episodes of care were estimated
for outpatients. There are 172 hospitals, 781
outpatient clinics, 135 nursing home units, 206           The Inspector General Act of 1978 states that the
Vietnam veterans centers, and 43 domiciliaries.           IG is responsible for: (i) conducting and
                                                          supervising audits and investigations; (ii)
Veterans benefits were funded at $25 billion,             recommending policies designed to promote
almost 53 percent of VA's budget in FY 2001.              economy and efficiency in the administration of,
Over 11,800 VBA employees provided benefits to            and to prevent and detect fraud and abuse in, the
veterans and their families. About 2.6 million            programs and operations of VA; and (iii) keeping
veterans and their beneficiaries received                 the Secretary and the Congress fully informed
compensation benefits valued at $20.4 billion.            about problems and deficiencies in VA programs
Also, over $3 billion in pension benefits are             and operations and the need for corrective action.
provided to veterans and survivors. VA life
insurance programs had 4.5 million policies in
force with a face value of over $596 billion.




                                                      2
                                                   VA and OIG Mission, Organization and Resources

The Inspector General Act Amendments of 1988              The percent of OIG resources, which have been
provided the IG with a separate appropriation             devoted during this semiannual reporting period to
account and a revised and expanded procedure for          VA's major organizational areas, are indicated in
reporting semiannual workload to Congress.                the following chart.
The IG has authority to inquire into all VA
programs and activities as well as the related
activities of persons or parties performing under
                                                                                       VBA
grants, contracts, or other agreements. The
inquiries may be in the form of audits,                       Information              30%
investigations, inspections, or other appropriate             Technology
actions.                                                          7%                         A&MM
                                                                                              10%
Organization
                                                                                             Management
Allocated full time equivalent (FTE) employees                           VHA                     8%
for the FY 2001 staffing plan was as follows:                            45%



                                 ALLOC ATED               The following chart indicates the percent of OIG
           OFFIC E
                                    FTE                   resources which have been applied to mandated,
                                                          reactive, and proactive work.
  Inspector General                        4

  C ounselor                               5

  Investi gati ons                      108                      Reactive
                                                                   44%
  Audi t                                166
                                                                                             Mandated
  Management and
                                         52                                                     9%
  Admi ni strati on
  Healthcare Inspecti ons                34

            TOTAL                       369
                                                                  Proactive
                                                                    47%
In addition, 24 FTE are reimbursed for a
Department contract review function.
                                                          Mandated work is required by law and the Office
FY 2001 funding for OIG operations is                     of Management and Budget (OMB); examples are
$48.5 million, with $46.3 million from                    our audits of VA's consolidated financial
appropriations and $2.2 million through a                 statements, oversight of VHA's quality assurance
reimbursable agreement. Approximately 75                  programs and Office of the Medical Inspector,
percent of the total funding is for salaries and          follow up activities on OIG reports, and releases
benefits, 5 percent for official travel, and the          of Freedom of Information Act information.
remaining 20 percent for all other operating
expenses such as contractual services, rent,              Reactive work is generated in response to requests
supplies, and equipment.                                  for assistance received from external sources




                                                      3
VA and OIG Mission, Organization and Resources

concerning allegations of fraud, waste, abuse, and        OIG Mission Statement
mismanagement. Most of the work performed by
the Office of Investigations is reactive.                 The OIG is dedicated to helping VA ensure that
                                                          veterans and their families receive the care,
Proactive work is self-initiated, focusing on areas       support, and recognition they have earned through
where the OIG staff determines there are                  service to their country. The OIG strives to help
significant issues; some healthcare inspections and       VA achieve its vision of becoming the best man-
most audits fall into this category.                      aged service delivery organization in Government.
                                                          The OIG continues to be responsive to the needs of
                                                          its customers by working with the VA management
                                                          team to identify and address issues that are
                                                          important to them and the veterans served.

                                                          In performing its mandated oversight function, the
                                                          OIG conducts investigations, audits, and health
                                                          care inspections to promote economy, efficiency,
                                                          and effectiveness in VA activities, and to detect
                                                          and deter fraud, waste, abuse, and mismanage-
                                                          ment. Inherent in every OIG effort are the prin-
                                                          ciples of quality management and a desire to
                                                          improve the way VA operates by helping it become
                                                          more customer driven and results oriented.

                                                          The OIG will keep the Secretary and the Congress
                                                          fully and currently informed about issues affecting
                                                          VA programs and the opportunities for improve-
                                                          ment. In doing so, the staff of the OIG will strive
                                                          to be leaders and innovators, and perform their
                                                          duties fairly, honestly, and with the highest profes-
                                                          sional integrity.



       TechWorld, home to the VA Office of
               Inspector General




                                                      4
                                                          DEPARTMENT OF VETERANS AFFAIRS
                                                            OFFICE OF INSPECTOR GENERAL


                                                                      Inspector General
                                Executive Assistant                   _______________                   Counselor to Inspector General
                                                                           Deputy


       Assistant Inspector General              Assistant Inspector General               Assistant Inspector General              Assistant Inspector General
      Management and Administration                    Investigations                               Auditing                         Healthcare Inspections
       ______________________                   _____________________                     _____________________                    ______________________
                  Deputy                                   Deputy                                    Deputy                                   Deputy


        Hotline          Operational        Administrative             Criminal      Contract Review                         Medical Advisor         Planning and
                          Support           Investigations          Investigations    and Evaluation                                to              Special Projects
                                                                                                                            Inspector General




5
      Information                                                        Benefits                                                     Regional Offices
    Technology and        Resources         Analysis and                              Financial
                                                                          Fraud                                      EDP Audit            Atlanta
                                                                                        Audit
     Data Analysis       Management          Oversight
                                                                                                                                          Chicago
                                                                       Computer
                                                                                                                                        Los Angeles
                                                                       Crimes and
                                                                        Forensics                                                       Washington
                                                                                     Audit Planning                  Operational
      Field Office                       Field Offices                                                                Support
                                                                       Healthcare
         Austin                             Chicago                      Fraud
                                          Los Angeles
                                           New York                   Procurement                 Operations Divisions
                                         St. Petersburg                  Fraud                          Atlanta
                                                                                                        Bedford
                                                                        Forensic                       Chicago
                                        Resident Agencies              Documents                         Dallas
                              Atlanta             Boston               Laboratory                    Kansas City
                              Columbia            Dallas                                             Los Angeles
                              Denver              Houston                                               Seattle
                              Kansas City         Nashville                                          Washington
                              New Orleans         Newark
                              Phoenix             Pittsburgh                                          Sub-Offices
                              San Francisco       Seattle                                               Austin
                              Washington          West Palm Beach                                     Philadelphia
                                                                                                                                                                       VA and OIG Mission, Organization and Resources
VA and OIG Mission, Organization and Resources




                                         6
                                                                         Combined Assessment Program

COMBINED ASSESSMENT PROGRAM
Combined Assessment                                          awareness briefings. The purpose of these
Program Overview - Medical                                   briefings is to provide VAMC officials with insight
                                                             into the types of fraudulent activities that can occur
                                                             in VA programs. The briefings include an overview
The Combined Assessment Program (CAP) is part
                                                             and case-specific examples of fraud affecting
of the OIG's effort to ensure that quality health care
                                                             health care procurements, false claims, conflict of
service is provided to our Nation's veterans. CAP
                                                             interest, bribery, and illegal gratuities. The Office
reviews provide cyclical oversight of VAMC
                                                             of Investigations conducted 88 fraud and integrity
operations, focusing on the quality, efficiency, and
                                                             briefings for approximately 3,900 employees.
effectiveness of service provided to veterans.
                                                             Special agents also investigate certain matters
                                                             referred to the OIG by VA employees, members of
The CAP combines the skills and abilities of the
                                                             Congress, veterans, and others.
OIG to provide collaborative assessments of VA
medical facilities. The OIG team consists of
                                                             During the period April 1 through September 30,
representatives from the Offices of Healthcare
                                                             2001, we issued 15 CAP reports for health care
Inspections, Audit, and Investigations. They
                                                             facilities. See Appendix A for the full title and
provide an independent and objective assessment of
                                                             issue date of the CAP reports issued this period.
key operations and programs at VAMCs on a 6-
                                                             The reports relate to the following VA medical
year recurring basis.
                                                             facilities:
Healthcare inspectors conduct proactive reviews to
                                                             l   Southern Arizona VA Health Care System
evaluate care provided in VA health care facilities
                                                             l   VA Northern California Health Care System
and assess the procedures for ensuring the
                                                             l   VA Northern Indiana Health Care System (Fort
appropriateness and safety of patient care. The
                                                                   Wayne and Marion)
facilities are evaluated to determine the extent to
                                                             l   Richard L. Roudebush VA Medical Center
which they are contributing to VHA's ability to
                                                                   Indianapolis, IN
accomplish its mission of providing high quality
                                                             l   VA Central Iowa Health Care System (Des
health care, improved patient access to care, and
                                                                   Moines and Knoxville)
high patient satisfaction. Their effort includes the
                                                             l   Harry S. Truman Memorial Veterans' Hospital
use of standardized survey instruments.
                                                                   Columbia, MO
                                                             l   VA Medical Center Manchester, NH
Auditors conduct reviews to ensure management
                                                             l   VA New Jersey Health Care System
controls are in place and operating effectively.
                                                             l   New Mexico VA Health Care System
Auditors assess key areas of concern which are
                                                             l   VA Medical Center Cincinnati, OH
derived from a concentrated and continuing
                                                             l   VA Medical Center Oklahoma City, OK
analysis of VHA, VISN, and VAMC databases and
                                                             l   Ralph H. Johnson VA Medical Center
management information. These areas include
                                                                   Charleston, SC
patient management, credentialing and privileging,
agent cashier activities, data integrity, and the            l   Royal C. Johnson Memorial VA Medical and
Medical Care Cost Fund.                                            Regional Office Center Sioux Falls, SD
                                                             l   VA Tennessee Valley Healthcare System
Special agents conduct fraud and integrity                   l   South Texas Veterans Health Care System




                                                         7
Combined Assessment Program

Summary of Findings                                          l Timekeeping procedures for part-time
                                                             physicians were deficient in 9 of 15 (60 percent)
Our reviews identified the following areas that              facilities visited. Controls have been established to
required the attention of VHA management:                    ensure that part-time physicians are on duty as
                                                             required and that absences were properly charged
                                                             to these employees.
Financial and Administrative
Management                                                   l   Purchase card controls were deficient in 9 of 15
                                                             (60 percent) facilities visited. The General
l   Information technology security was deficient            Services Administration instituted a decentralized
in 13 of 15 (87 percent) facilities visited. VHA             purchasing program for direct purchases under
Directive 6210 states that controlled and restricted         $2,500 using Government purchase cards. To
areas are to be protected and specifies procedures           reduce the opportunity for fraud and abuse, policy
for protecting system resources from unauthorized            and procedures have been established governing the
access, disclosure, modifications, destruction and           use of purchase cards, setting purchasing limits,
misuse.                                                      and accounting for purchases. Internal controls
                                                             over purchase card program activities help to
l Controlled substances inspections or other                 provide management with reasonable assurance
controls were deficient in 12 of 15 (80 percent)             that the program will operate efficiently and
facilities visited. VHA policy requires facilities to        effectively.
maintain accountability of all schedule II-V
controlled substances and to fully comply with all           l   Medical supply, processing, and distribution
U.S. Drug Enforcement Administration regulations             were deficient in 9 of 15 (60 percent) facilities
governing prescribing, storing, dispensing, and              visited. Inventory levels should not exceed current
disposing of controlled substances. The primary              requirements so funds are not tied up in excess
control to ensure compliance with VHA policy is              inventories.
unannounced monthly controlled substances
inspections.                                                 l   Service contract controls or contract file
                                                             documentation were deficient in 9 of 15 (60
l   Medical Care Cost Fund collections were                  percent) facilities visited. VHA facilities use
deficient in 11 of 15 (73 percent) facilities visited.       clinical services contracts with affiliated medical
With the continuing goal of generating alternative           schools, community hospitals, and physician
revenue funding, medical care that has the potential         practice groups to support patient care. VHA
to generate revenue must be reviewed for complete            facilities should establish adequate controls to meet
documentation of the care provided.                          two important goals. First, the contract negotiation
                                                             process should ensure that VA's costs are
l    Agent cashier controls were deficient in 10 of          appropriate and reasonable for the services
15 (67 percent) facilities visited. Unannounced              provided. Second, contract administration
audits of the agent cashier should be conducted by           procedures should ensure that VA receives all
at least two employees skilled in fiscal or auditing         contracted services and pays only for services
techniques, and audits should be randomly                    provided in accordance with contract terms.
scheduled at least every 90 days. The level of an
agent's cash advance should be based on actual
average monthly demand.




                                                         8
                                                                          Combined Assessment Program

l Inventory (non-medical) management was                      facilities visited. VA requires monthly reviews of
deficient in 6 of 15 (40 percent) facilities visited.         accrued services payable and undelivered orders
The OIG has identified inventory management as                that appear to have been outstanding for
one of VHA's most serious management challenges.              unreasonable lengths of time, including undelivered
Inventory levels should not exceed current                    orders that have been inactive for 90 days or more.
requirements so funds are not tied up in excess
inventories.                                                  l   Accounts receivable (other than Medical Care
                                                              Cost Fund) was deficient in 3 of 15 (20 percent)
l Medical coding was deficient in 5 of 15 (33                 facilities visited. VA policy requires facility
percent) facilities visited. It is essential that VHA         personnel to follow up aggressively on accounts
assure that appropriate and accurate claims are               receivable.
filed and that all claims are supported by medical
record documentation.                                         l Equipment accountability was deficient in 3 of
                                                              15 (20 percent) facilities visited. VHA policy
l   Pharmacy security was deficient in 5 of 15 (33            requires that nonexpendable equipment be
percent) facilities visited. Each facility must install       inventoried at least every 2 years.
electronic systems in pharmacies to monitor access
to controlled substances.
                                                              Health Care Management
l Rates and inspections at community nursing
                                                              l Pain management was deficient in 5 of 15 (33
homes were deficient in 4 of 15 (27 percent)
facilities visited. VHA requires an annual                    percent) facilities visited. VHA was progressing
certification that community nursing home                     well in implementing its pain management
contracts conform to VHA's rate policy. VHA also              initiatives. We made suggestions for improvement
requires an annual multidisciplinary team to                  to implement policy consistently, document the
conduct on-site evaluation of community nursing               extent patients and their families are educated
homes.                                                        about managing pain, and monitor and evaluate the
                                                              processes to better treat patients pain.
l Means test documentation was deficient in 4 of
                                                              l Prescribing controlled substances to mental
15 (27 percent) facilities visited. VHA requires
certain patients to report income information so              health patients was deficient in 6 of 15 (40 percent)
VHA staff can determine entitlement to free                   facilities visited. Prescriptions of narcotics for
medical care. In 1997 and again in 1999, we                   long-term maintenance use such as chronic pain
reported that VHA was computer matching                       control needed to be more consistently justified in
veterans' income information that was not                     medical records. Clinicians inconsistently
supported by signed means test forms. Because                 considered or documented referrals to alternative
these findings showed continued violations of the             treatment modalities such as pain clinics.
terms of the matching agreement, the Internal                 Additionally, clinical reasons for prescribing
Revenue Service (IRS) terminated the agreement in             narcotics and treatment contracts with patients
July 1999. The purpose of the CAP review was to               were not always documented in the records we
determine whether medical centers made progress               reviewed. Prescribing drugs to patients for long
complying with IRS requirements for income                    periods increases the risk of abuse and undesirable
verification matches.                                         side effects.

l  Undelivered orders or unobligated balances
controls were deficient in 4 of 15 (27 percent)




                                                          9
Combined Assessment Program

l Quality management program was deficient in               to provide quality patient care; however, they
6 of 15 (40 percent) facilities visited. Quality            perceived that additional emphasis is needed to
management staff collected meaningful data, but             ensure positive employee morale. Eighty-three
did not always communicate the results of their             percent of the respondents believed the quality of
analyses and findings to clinical and line managers.        care at their respective facilities was either good,
Therefore, management may have missed                       very good, or excellent. Seventy-three percent
opportunities to identify, evaluate, and correct            indicated they would recommend treatment to
actual or potentially harmful circumstances that            family members or friends. Fifty-two percent
may adversely affect patient safety and treatment.          indicated staffing was not sufficient to provide
                                                            adequate care to all patients. Feedback included
l Sanitation and cleanliness was deficient in 6 of          concerns for the safety of patients and staff, as well
15 (40 percent) facilities visited. We found                as the assertion that it was not possible to deliver
instances of peeling paint, stained or missing              comprehensive care without sufficient nursing and
ceiling tiles, cut or torn window screens, broken           specialty resources. Although 87 percent of
tiles in restrooms, poor signage, improperly stored         employees reported they were generally
cleaning supplies, and other sanitation and                 comfortable in self-reporting errors that involved
cleanliness issues.                                         patient care, only 72 percent indicated they were
                                                            comfortable reporting errors that involved
l Visits to community nursing homes were                    colleagues. Furthermore, only 56 percent believed
deficient in 5 of 15 (33 percent) facilities. VA            that constructive actions were taken when errors
patients that were hospitalized in community                were reported. The results of the surveys received
nursing homes were not always visited by a VA               after each CAP were shared with managers at that
employee at intervals required by VA policy. Also           facility.
suggested improvements were made to ensure
adequate care and safety.                                   Physical Plant Environment Surveys

Survey Results                                              We inspected clinical care areas at 10 facilities,
                                                            conducting 106 individual area inspections. We
Employee Surveys                                            performed the largest numbers of inspections in
                                                            outpatient clinic areas, followed by inpatient wards.
Employee feedback was obtained by mailing                   Other areas inspected included domiciliaries,
questionnaires to clinical employees of 11 VA               emergency rooms, nursing home care units, and
facilities between May and September 2001.                  operating rooms. In summary, facility managers
Completion of the questionnaires was optional, and          needed to improve ongoing processes to secure
employees' responses were anonymous. During                 medications, provide unobstructed hallways, ensure
this period, we mailed 3,722 surveys and received           privacy, and maintain cleanliness. In addition,
1,766 anonymous responses. This represents a 47             facility managers should post the patient
percent response rate. Since we began performing            representative name, location, and phone number in
CAP reviews, we have asked for employees'                   case patients or family members wish to voice a
perceptions on a wide range of issues. We believe           complaint or concern.
the resulting data can provide an independent,
objective indicator of employee satisfaction for            Inpatient Surveys
facility management to use in decision-making.
                                                            We interviewed 144 inpatients in 10 VAMCs,
Employees generally felt supported in their efforts         including inpatients in mental health, medical,




                                                       10
                                                                          Combined Assessment Program

surgical, long-term care, and intensive care units.           Combined Assessment Program
Unless inpatients expressed concerns that were
                                                              Overview - Benefits
consistent with other sources (i.e. outpatients,
employees, etc.), inspectors did not validate the
inpatients' perceptions, but we discussed issues              In FY 2001, we expanded our CAP program
with local management officials. Inpatients                   services to include coverage of VBA programs.
expressed general satisfaction with the quality of            These reviews focus on the delivery of monetary
                                                              benefits to veterans and their dependents.
care and services they received in VHA facilities.
                                                              In VBA CAP reviews, auditors assess whether
Outpatient Surveys                                            management controls are in place and working
                                                              effectively. Healthcare inspectors and
We surveyed 270 outpatients at 10 different health            investigators assess key areas of concern derived
care facilities to ascertain patient satisfaction with        from a concentrated and continuing analysis of
ambulatory care and related services in VHA                   VBA, VA regional office (VARO), and
facilities. The 10 facilities included 8 VAMCs and/           management information. Also, investigators
or health care systems, and 2 outpatient clinics.             conduct fraud and integrity awareness briefings.
Inspectors interviewed outpatients in various clinics
and treatment locations, including primary care,              During this period, we issued two CAP reports on
mental health, and specialty care clinics. We also            the delivery of benefits, one of which was a VA
surveyed outpatients in waiting areas of various              medical and regional office center. During these
support services such as pharmacy, radiology, and             visits, the Office of Investigations conducted 18
laboratory.                                                   fraud and integrity briefings for approximately
                                                              1,100 employees.
Ninety-three percent of the outpatients rated the
quality of their care and services as good, very
                                                              CAP Review, VA Regional Office
good, or excellent, and 90 percent said they would
recommend VA medical care to an eligible family               Phoenix, AZ
member or friend. Ninety percent of the
outpatients told us they felt involved in decisions           We concluded that the VARO's financial and
about their care. Eighty-five percent stated they             administrative activities were generally operating
received counseling by a pharmacist when they                 effectively. We found no significant deficiencies
received a new prescription.                                  in several of the activities reviewed, including
                                                              accounts reconciliation, fiscal one-time/advance
Many of the outpatients we interviewed expressed              payments, unassociated accounts, the decision
concerns about access to care and timeliness of               review officer program, large one-time benefit
services. For example, only 70 percent of the                 payments, and loan production and property
outpatients we interviewed told us they were                  management sections. While the VARO's
generally able to schedule an appointment with                balanced scorecard indicated that timeliness of
their primary care provider within 7 days of their            claims processing generally improved over the
request. Pharmacy timeliness also remains a                   period November 1999 to November 2000,
concern. Only 50 percent of the outpatients told us           additional improvement is needed. The facility
they received their prescriptions within 30 minutes.          increased its balanced scorecard ratings for 6 of
                                                              10 speed measures (timeliness) in compensation
                                                              and pension, loan guaranty, and vocational
                                                              rehabilitation and employment (VRE). However,
                                                              timeliness was below national averages for rating




                                                         11
Combined Assessment Program

                                                             CAP Review, Royal C. Johnson
                                                             Memorial VA Medical and Regional
                                                             Office Center, Sioux Falls, SD

                                                             VAMC recommendations were covered previously
                                                             in the medical overview. For regional office
                                                             operations, we made recommendations and
                                                             suggestions in the following areas: security of
                                                             claim folders, physical security for information
                                                             technology, information technology access, and
                                                             internal controls over returned mail. The Medical
                                                             and Regional Office Center Director concurred
                                                             with all recommendations and suggestions and
                                                             reported acceptable implementation actions.

                                                             "
                                                             “I would like to take this opportunity … to
                                                             state that the CAP OIG survey was a value-
                                                             added survey. In addition, as the newly
                                                             appointed Director/Chief Operating Officer,
                                                             I along with leadership viewed this
                                                             external assessment as a valuable tool to
                                                             identify areas of concern we needed to
                VA Regional Office                           address in order to provide the best
                   Phoenix, AZ                               patient care services and benefits. …The
                                                             new CAP survey process was beneficial to
related actions, appeals resolution, and fiduciary           leadership in validating needs for patient
activities in the Veterans Service Center; and days          focused process improvements. As a
to notification and days to employment in VRE.               result timely action plans were made and
We made recommendations to improve: (i)                      completed.”
timeliness of Veterans Service Center and VRE                                                     Director
claims processing, (ii) benefit debt prevention                                   Sioux Falls Medical and
procedures, (iii) coordination of health care                                      Regional Office Center
services with Arizona VA medical centers for VRE
participants and visits to incompetent veterans, (iv)
documentation of fiduciary field examination
reports and VRE veteran folders, and (v) security
of automated information systems and the benefits
delivery network. We also identified other areas
that warranted management attention. The
Regional Office Director concurred with the
findings and recommendations and provided
acceptable implementation plans.




                                                        12
                                                                                       Office of Investigations


OFFICE OF INVESTIGATIONS
Mission Statement                                               Resources

   Conduct investigations of criminal activities                The Office of Investigations has 108 FTE allocated
   and administrative matters affecting the                     to the following areas.
   programs and operations of VA in an
   independent and objective manner, and
   assist the Department in detecting and
   preventing fraud and other violations.
                                                                 Administrative
The Office of Investigations is responsible for                  Investigations
conducting criminal and administrative                                 8%                               Criminal
                                                                                                     Investigations
investigations affecting the programs and
                                                                       Analysis                           87%
operations of VA. The office consists of three                           5%
divisions.

I. Criminal Investigations Division - The Division
is primarily responsible for conducting
investigations into allegations of criminal activities
related to the programs and operations of VA.
Criminal violations are referred to the Department
of Justice for prosecution. The Division is also
                                                                I. CRIMINAL
responsible for operation of the forensic document              INVESTIGATIONS
laboratory.
                                                                DIVISION
II. Administrative Investigations Division - The
Division is responsible for investigating allegations,          Mission Statement
generally against high-ranking VA officials,
concerning misconduct and other matters of
                                                                    Conduct investigations of criminal activities
interest to the Congress and the Department.
                                                                    affecting the programs and operations of
                                                                    VA in an independent and objective
III. Analysis and Oversight Division - The Division                 manner, and assist the Department in
is responsible for the oversight responsibilities of all            detecting and preventing fraud and other
Office of Investigations operations through a
                                                                    criminal violations.
detailed, recurring inspection program. The
Division is the primary point of contact for law
enforcement communications through the National                 Resources
Crime Information Center, the National Law
Enforcement Telecommunications System, and the                  The Criminal Investigations Division has 90 FTE
Financial Crimes Criminal Enforcement Network.                  for its headquarters and 20 field locations. These
                                                                individuals are deployed in the following program
                                                                areas:




                                                           13
Office of Investigations

                                                            cell phones, identification cards, drivers' licenses,
                                                            and business records.
                                  VHA
                                  29%




          VBA                        A&MM
          62%                         9%




Overall Performance

Output
l 329 investigations were concluded during the
reporting period.

Outcome                                                     VA Investigators work with FBI and others searching
                                                              the World Trade Center wreckage following the
l Arrests - 186
                                                                   September 11, 2001, terrorist attack
l Indictments - 175
l Convictions - 165                                          Agents were required to wear protective clothing
l Monetary benefits - $26.1 million ($17.4                  as they searched through World Trade Center
million - fines, penalties, restitutions, and civil         debris that had been shipped to the Staten Island
judgements; $6.2 million - efficiencies/funds put to        site.
better use; and $2.5 million - recoveries)
l Administrative sanctions - 208                            VHA VISN 3 assisted in the recovery efforts by
                                                            making a vehicle available to the OIG personnel
                                                            working at the Staten Island site and by providing a
Significant Investigative                                   mobile treatment unit for use in treating workers
Activities                                                  who were injured on the job. Injuries, ranging from
                                                            cuts and abrasions to respiratory and other more
                                                            serious problems, are occurring at the rate of about
In the wake of the September 11, 2001, terrorist
                                                            15 a day.
attacks on the United States, the Office of
Investigations committed significant resources to
assist in the investigation. Special agents from VA
OIG's New York City and Newark, New Jersey
offices have worked on a rotating basis alongside
other Federal and local law enforcement teams
that descended on the downed buildings. Located
at the Staten Island World Trade Center debris
recovery site, agents searched for victim remains,
and collected and cataloged evidence, personal
effects, and other items from the disaster such as             VA medical van joins FBI medical complex at
                                                                    Staten Island debris recovery site



                                                       14
                                                                                     Office of Investigations

VA OIG agents have been detailed to the FBI for              Employee Integrity
an undetermined length of time to assist in
investigative activities. We are also coordinating           Theft/Diversion of Pharmaceuticals
the temporary detail of members of investigative
staff to the U.S. Air Marshall Program. Although
                                                             l   A nursing home care unit nurse entered a plea
these activities differ from the VA OIG's traditional
                                                             of guilty to possession of Oxycodone. The nurse
law enforcement mission, the office stands
                                                             was diverting 5 mg Oxycodone with
prepared to assist in any capacity to support other
                                                             Acetaminophen, a schedule II drug, from patients
law enforcement organizations in the investigative
                                                             on his ward. He also admitted removing Percocet
efforts relating to the terrorist acts perpetrated
                                                             tablets from the nursing home. He recorded the
against our nation.
                                                             Percocet tablets that he took as being administered
                                                             to patients who had an "as needed" prescription for
Veterans Health                                              the Oxycodone. The patients had not requested
                                                             the medications.
Administration
                                                             l A former VAMC pharmacy technician was
Fraud and other criminal activities committed
                                                             indicted for eight counts of possession of a
against VHA include actions such as patient
abuse, theft of Government property, drug                    controlled substance and eight counts of causing
diversion, bribery/kickback activities by                    misbranding of a drug. Investigation disclosed that
employees and contractors, false billings, and               while he packaged OxyContin and Percocet for
inferior products                                            delivery to patients via U.S. Mail, he stole some of
                                                             the drugs for his own use. This joint investigation
The Criminal Investigations Division                         was conducted by the VA OIG and VA police.
investigates those instances of criminal activity
against VHA that have the greatest impact and                l    Three former VAMC employees pleaded guilty
deterrent value. Working closely with VA                     to various charges in connection with the sale of
police, the office has placed an increased                   illegal drugs to patients at a VAMC. One subject
emphasis on crimes occurring at VA facilities                was sentenced to 33 months' incarceration and
throughout the nation to help ensure safety and              3 years' probation. A second subject received a
security for those working in or visiting VA                 sentence of 5 months' incarceration, 5 months'
medical centers.                                             home confinement, and 3 years' supervised
                                                             release. The third subject was sentenced to
Suspicious Patient Deaths/Murder                             180 days' home confinement and 3 years'
                                                             probation. Following their arrests, the trio resigned
A U.S. District Court sanctioned a former VAMC               their VA positions. This was a joint investigation
registered nurse with criminal monetary penalties            with the state drug enforcement agency group.
consisting of a $1.5 million fine and $29,933 in
restitution. The individual was previously                   l A former VAMC certified registered nurse
sentenced to four consecutive life term                      anesthetist was charged in a five count indictment
imprisonments for murdering patients at the                  for tampering with consumer products, theft of
VAMC.                                                        Government property, unlawful possession of a
                                                             controlled substance by fraud, and other related




                                                        15
Office of Investigations

charges. The investigation disclosed the individual           firearm in connection with the robbery. The
illegally diverted the controlled substance Fentanyl          former employee provided information and
while acting in his official capacity. In some                assistance to the individuals who carried out the
instances, he substituted Esmolol, a beta-blocker,            crime. The robbery resulted in the theft of 3,000
for the pain reliever Fentanyl, to conceal his illegal        tablets of OxyContin, as well as varying amounts
acts. The VA OIG, VA police, local police, and                of other narcotic drugs. Street value of the stolen
U.S. Food and Drug Administration (FDA) jointly               drugs was estimated at over $250,000. This case
conducted this investigation.                                 was investigated jointly with the FBI and VA
                                                              police.
l A VAMC pharmacist was arrested for theft of
VAMC non-controlled drugs. A joint investigation              l A former VAMC maintenance supervisor,
with VA police revealed the pharmacist was                    pleaded guilty to two counts of rape. The
stealing a large volume of drugs from the VAMC                individual had been previously charged and
pharmacy. He then sold the drugs through his own              arrested for participating in the rapes of individuals
pharmacy, or to a co-conspirator who owned a                  he rendered unconscious with drugs stolen from
pharmaceutical distributorship. Prior to the arrest,          VA. A joint investigation by the VA OIG, FBI, and
the VAMC pharmacy was placed under video                      VA police revealed the individual drugged the
surveillance and all high dollar drugs were marked            victims and videotaped the offenses. This arrest
with invisible ultraviolet ink. The video surveillance        follows his previous convictions on two counts of
revealed the pharmacist stole VAMC drugs every                manufacturing child pornography and one count of
day that he worked. The search warrant served                 theft of Government property.
on the pharmacist's store as well as a consent
search of the distributorship resulted in the                 l A former VAMC nurse was ordered to pay a
recovery of a large volume of marked drugs valued             fine of $1,000 after pleading guilty to one count of
at approximately $11,000. The monetary loss to                information charging him with possession of a
VA is expected to exceed $350,000.                            controlled substance. A joint investigation by the
                                                              VA OIG, VA police, and U.S. Drug Enforcement
l   A former VAMC pharmacist pled guilty to two               Administration determined that between 1997 and
counts of theft and was sentenced to 2 years'                 1999 the nurse had diverted controlled substances
probation, ordered to avoid contact with the                  from the VAMC intensive care unit by means of
VAMC pharmacy, and to continue in a drug                      theft and falsifying documents. He then used the
treatment program. A joint investigation with VA              drugs for his personal use. Investigation disclosed
police revealed that over a 6-month period the                that during his last year of employment, he was
pharmacist, who suffered from pain and                        able to divert 6,600 milligrams of morphine, 15,000
depression, would search packages to be shipped               milligrams of Demerol, 95 Percocet tablets, and
to patients. When he located packages containing              100 milligrams of Ativan.
Vicodin, Percocet, or Ritalin, he would remove
some or all of the drugs for personal use.                    l    A former VAMC nurse pleaded guilty to a
                                                              four count criminal information charging her with
l A former VAMC pharmacy employee was                         stealing various narcotics, including OxyContin and
arrested on charges that he aided in an armed                 morphine, and converting them to her own use.
robbery of a VAMC pharmacy. The former                        This joint investigation by the VA OIG, FDA, and
employee, a co-op student, was charged in a two-              VA police determined the nurse stole liquid
count criminal complaint with aiding and abetting a           morphine from syringes and replaced the drug with
robbery in which controlled substances were taken,            saline solution. In addition, on at least 21 occasions
and with aiding and abetting the possession of a              she falsified medical records by stating she had




                                                         16
                                                                                   Office of Investigations

administered various controlled substances to              Theft of Government Property
patients when in fact she had never administered
the drugs and diverted them for her own use. As            l A former VAMC canteen service operations
part of a plea agreement, she agreed to relinquish         clerk was arrested on a warrant after previously
her nursing license and serve 6 months'                    being indicted on five counts of theft of
incarceration.                                             Government funds. A canteen service audit
                                                           determined large cash discrepancies in bank
Theft and Embezzlement                                     deposits. A joint investigation conducted by the
                                                           VA OIG and VA police determined the clerk
l A VAMC registered nurse working on an                    falsified bank deposit slips for accounting purposes
intermediate intensive care unit was arrested after        and never actually deposited funds into the canteen
being charged with 36 counts of forgery and one            service bank account between November 2000
count of grand theft. A joint investigation by the         and March 2001. As a result of her scheme,
VA OIG and VA police was initiated when the                $8,169 was stolen from the canteen service for her
nurse came under suspicion for falsifying her              personal use.
timesheets to show overtime hours she never
worked. The investigation disclosed 36 instances           l A VAMC police officer was arrested and
during a 3-year period in which the employee               charged in a criminal complaint with theft. A joint
altered timesheets for personal gain. The loss to          investigation by the VA OIG, VA police, and a
VA is $11,000. Termination of the employee is              local police department revealed that a laptop
pending.                                                   computer valued at $2,473 was reported stolen
                                                           from the VAMC. A computer manufacturer later
l A former VAMC prosthetics service chief was              notified VA that the stolen computer had been
sentenced to 12 months in a halfway house and              located at a repair shop. Information obtained
5 years' supervised release. The individual was            from the repair shop established the identity of the
previously indicted for ordering computers,                individual that brought the computer in for repair as
computer related goods, and software using the             a VAMC police officer. The individual admitted to
VAMC's procurement system. The items were                  possessing the computer, but claimed to have
purchased for his own personal use. Loss to VA is          bought it through a street vendor. Pending the
$37,966.                                                   outcome of the investigation, the individual
                                                           forfeited his police credentials.
l A former VAMC mailroom employee and
domiciliary resident pleaded guilty to charges of          Credit Card Fraud
filing false statements to the Government. The
individual, a veteran, received his job through a          A former VA employee pleaded guilty to a 62-
compensated work therapy program. During the               count information for illegally accessing a VA
time of his employment, it was discovered that he          computer. The charges are the result of an
had been receiving mail in two names. When                 investigation that established the employee
confronted about the two names, the individual             accessed the VAMC computer system to steal
admitted to having an alias. Subsequent                    patient information and used that information to
investigation disclosed he had received Social             obtain credit cards that he used to purchase
Security account numbers in both names and had             merchandise. The former employee was
applied for supplemental security income benefits          sentenced to 3 years' probation and ordered to pay
in both names.                                             $9,095 in restitution.




                                                      17
Office of Investigations

False Statements                                              reinstatement. Per the final disposition order from
                                                              the joint investigation with the VA OIG, the
A VA employee was sentenced following a guilty                5 years' probation was to be served concurrent
plea to five counts of false claims against the               with the 10 years' probation.
Government. The individual was sentenced to
4 months' incarceration, 36 months' supervised                Abuse of Veterans by Caregivers
release, and ordered to make restitution of $7,134
to VA. During the course of a VA OIG                          A grand jury indicted a VA psychiatrist for sexual
investigation into alleged time and attendance                assault. The indictment resulted from a joint
fraud, the individual admitted in a sworn statement           investigation conducted by the VA OIG, VA police,
that he falsely claimed and was paid for 353 hours            and a local police department sex crimes division.
of overtime that he did not work.                             The VA psychiatrist is accused of sexually
                                                              assaulting a patient under his care at a VA
Other Employee Misconduct                                     outpatient clinic. Pending the outcome of the
                                                              investigation and prosecution, the psychiatrist was
l An individual pleaded guilty to a misdemeanor               removed from patient care.
charge of making threatening telephone calls. The
individual was previously arrested as a result of a           Theft/Diversion of
VA OIG investigation that disclosed he called a VA            Pharmaceuticals
mental health clinic and made threats on the voice
mail of a VA physician relative to infecting patients         l    Two brothers were indicted in sealed
with Hepatitis C. The individual, who is a veteran            indictments for their role in obtaining health care
and had been a former employee at the VA clinic,              services and pharmaceuticals by providing false
identified himself during the telephone call using his        and fictitious information to approximately 16 VA
name and last four digits of his Social Security              hospitals and over 170 private hospitals throughout
number. During a second phone call on the voice               16 states in their efforts to obtain controlled
mail of the same physician, the individual said he            substances. The brothers provided fake insurance
would share his Hepatitis C with everyone through             cards, false addresses, false employment data, and
the patients he sees.                                         fictitious medical information to the facilities. The
                                                              loss to the medical facilities exceeds $101,000.
l A former VAMC nurse pleaded guilty to drug                  The VA OIG and local police are conducting this
related charges and was sentenced to 10 years'                investigation.
probation, and ordered to pay a fine of $2,500 and
court cost of $1,560. As a condition of probation,            l   A veteran, who previously pleaded guilty to
the nurse was also ordered to submit to a drug                fraudulently obtaining Oxycodone, a controlled
evaluation and to follow the recommended                      substance, was sentenced to 9 months'
treatment. The nurse had been arrested and                    incarceration and 1 year probation. The veteran
indicted for drug related violations resulting from a         received Oxycodone from a VA outpatient clinic
joint investigation with the VA OIG, VA police,               while on a VA pain management contract. In
FDA, and a county sheriff's office task force.                violation of his agreement with the VA and federal
Prior to the VA investigation, a state investigated           law, the individual obtained an additional 720 unit
the nurse on similar charges. As a result of the              doses of Oxycodone, the narcotic for pain, from
state's investigation, the individual had been                four different outside physicians during the same
sentenced to 5 years' probation and ordered to                period. This investigation was conducted by the
surrender her nursing license and not seek                    VA OIG, VA police, and U.S. Drug Enforcement
                                                              Administration.



                                                         18
                                                                                     Office of Investigations

Possession of Illegal Drugs                                  veteran's wife and CHAMPVA and sent the check
                                                             to the veteran's wife. The veteran and his wife
A former compensated work therapy program                    then procured a "CHAMPVA" rubber stamp,
participant pleaded guilty to distribution of crack          falsely endorsed the check, and deposited the
cocaine. The indictment resulted from a joint                funds into their personal bank account. They
investigation by VA OIG and VA police involving              subsequently withdrew the money for personal
two separate controlled purchases of crack                   use.
cocaine from the individual. Evidence relative to
an additional transaction showed the individual              Theft of Other Property
purchased 400 Tylenol (labeled as Oxycodone)
tablets from an informant the day prior to his guilty        Five individuals were indicted on charges of wire
plea. This resulted in revocation of his bond and            fraud and false use of Social Security numbers.
immediate incarceration pending sentencing.                  The charges were filed after a joint VA OIG and
Further investigation has resulted in the indictment         U.S. Postal Inspection Service investigation
of a veteran who previously sold 200 VA issued               determined the individuals used the identifying data,
Percocet tablets to this individual.                         including names, dates of birth, and Social Security
                                                             numbers of VAMC patients to obtain cellular
Theft of Government Property                                 phone service and credit cards, transmitting the
                                                             information by wire.
l A former VAMC supply technician pleaded
guilty to one count of theft of Government property          Misappropriation of Union Funds
and was sentenced to 1-year probation. An
undercover operation disclosed the individual stole          A former VAMC technician and former President
Government property on several occasions. The                of a Local American Federation of Government
individual, a former VA employee, admitted to                Employees union was sentenced to 5 years'
stealing VA owned computers and computer-                    probation and ordered to pay $192,000 restitution.
related equipment.                                           The individual was also ordered to attend a
                                                             substance abuse and mental health clinic at his
l A husband and wife were sentenced to                       own expense. The individual had previously
3 years' supervised release and 6 months' home               pleaded guilty to a seven-count indictment for
confinement, and ordered to pay $20,256 in                   embezzling and misappropriating union funds,
restitution. The husband, a veteran rated with a             participating in a conspiracy to commit mail fraud,
100 percent service connected disability, and his            and making false statements to conceal the
wife previously pleaded guilty to one count of theft         embezzlement. The joint investigation by the VA
of Government funds. A VA OIG investigation                  OIG, IRS, and U.S. Department of Labor
disclosed the veteran's daughter was injured in an           determined that approximately $190,000 of union
automobile accident and had her medical bills paid           funds had been misappropriated by this individual
by the Civilian Health and Medical Program of the            and a former treasurer for the union. Also, at the
Department of Veterans Affairs (CHAMPVA).                    VAMC a third individual had prepared 31 false tax
The daughter was also covered by a private                   returns for refunds. These returns were prepared
insurance carrier who was ultimately responsible             in offices located at the VAMC morgue, hence the
for the medical bills. The veteran's wife disputed           case is referred to as "Operation Death and Taxes"
who should receive the reimbursement payment                 by the U.S. Attorneys' office. The two additional
from the private insurance company, so the                   individuals have also been sentenced separately for
company issued a $21,792 check payable to the                violating a variety of charges to include conspiracy




                                                        19
Office of Investigations

to bribe public officials, mail fraud, embezzlement,          Contract Fraud
preparing and submitting false tax returns, and
possessing a weapon on a Federal installation.                l A corporation and three individuals agreed to
                                                              pay the Government $275,000 in resolution of a
Procurement Fraud                                             pending false claims matter. The civil agreement
                                                              further provides for permanent debarment from
l A four-count felony complaint was filed                     Government contracts for the corporation and one
against an individual charging him with two counts            individual, and a 3-year debarment period for the
of perjury and two counts of burglary. These                  remaining two subjects. The four subjects had
charges resulted from a VA OIG investigation into             previously pleaded guilty to various criminal
Government purchase card fraud alleged to have                charges arising from a product substitution scheme
been undertaken by the individual and a former                involving the sale of surgical instruments to
VAMC employee. The investigation determined                   Government agencies including VA.
the individual had obtained multiple drivers' licenses
using false information, including Social Security            l    A former manager of a moving and storage
numbers. A joint investigation into false identity            company pleaded guilty to mail fraud. The
assumption was initiated with the Social Security             company became the subject of a VA investigation
Administration (SSA) OIG and a state department               after irregularities were discovered in several
of motor vehicles. In the original fraud scheme,              Government moves including that of a VAMC
the VAMC employee placed orders for goods                     director. The investigation revealed that from 1995
through three "shell" businesses established by the           to 1998, the company pioneered the use of phony
individual and then acknowledged receipt for the              weight certificates for their moves. Motivated by
items, when, in fact, none of the goods was                   greed, they generated the false weight certificates
received.                                                     for the sole purpose of defrauding Government and
                                                              non-Government customers. Total loss to VA
l The owner of a heart monitor equipment                      resulting from this scheme was $70,000. The VA
company and heart monitor laboratory was                      OIG, FBI, and National Labor Relations Board
charged in a criminal information. The individual             investigated this case jointly.
knowingly introduced into interstate commerce
transtelephonic cardiac event loop monitors that
contained false information with intent to defraud
                                                              Veterans Benefits
and mislead consumers. A joint investigation by               Administration
the VA OIG, FDA, IRS, and U.S. Department of
Health and Human Services disclosed the                       VBA provides wide-reaching benefits to
individual had marketed the monitors with labeling            veterans and their dependents including
that contained false information regarding the                pension and compensation payments, home
manufacturer of the devices and serial numbers,               loan guaranty services, and educational
and failed to list other required information. The            opportunities. Each of these benefits programs
devices were distributed to Medicare recipients               is subject to fraud by those who wish to take
and VA beneficiaries. The investigation also                  advantage of the system. For example,
disclosed the individual attempted to evade a large           individuals submit false claims for service
part of the income tax due to the IRS by                      connected disability, third parties steal pension
concealing the nature and extent of his assets and            payments issued after the unreported death of
the location thereof.                                         the veteran, individuals provide false
                                                              information so that veterans qualify for VA




                                                         20
                                                                                     Office of Investigations

guaranteed property loans, equity skimmers                   Other Employee Misconduct
dupe veterans out of their homes, and
educational benefits are obtained under false                Five VARO employees signed last chance
representations. The Office of Investigations                agreements. By signing the agreements, the
spends considerable resources in investigating               employees have agreed to waive any and all civil
and arresting those who defraud the benefits                 or administrative appeal rights and have agreed to
operations of VA.                                            a probationary period of 1 year. Four of the
                                                             employees received 30-day suspensions, and one
Death Match Project                                          employee, a supervisor, received a 40-day
                                                             suspension and a demotion from a GS-12 to a GS-
An ongoing proactive project is being conducted by           11. The five employees have also agreed to pay
the Office of Investigations in coordination with the        restitution for their total unaccounted time. The
VA OIG Information Technology and Data                       total restitution received was $3,357. The
Analysis Division. A match is being conducted to             administrative actions were the result of a VA OIG
identify individuals who may be defrauding VA by             investigation relating to the abuse of administrative
receiving VA benefits intended for veterans who              leave to donate blood to the American Red Cross.
have passed away. When indicators of fraud are               The investigation revealed the VARO employees
discovered, the matching results are transmitted to          had taken 4 hours administrative leave for blood
VA OIG investigative field offices for appropriate           donations on several occasions in the past 5 years.
action. To date, the match has identified in excess          However, the American Red Cross had no record
of 5,500 possible cases. Over 418 investigative              of their donations. All the employees stated they
cases have been opened. Investigations have                  had donated blood when they were questioned
resulted in the actual recovery of $3.1 million, with        regarding their donations. The conditions of the
an additional $8 million in anticipated recoveries.          agreement of pretrial diversion include 12 months
The 5-year projected cost savings to VA is                   of supervision, pay restitution for time missed, and
estimated at $12.7 million. To date, there have              submission to fingerprinting by the VA OIG.
been 20 arrests on these cases with several
additional cases awaiting judicial actions.                  Loan Guaranty Program Fraud

Employee Misconduct                                          Loan Origination Fraud

Theft and Embezzlement                                       l   A homebuilder pleaded guilty to one count of
                                                             making false statements to the Government. The
A former VA employee was sentenced to 3 years'               individual was involved in a scheme to submit false
probation and ordered to pay $2,417 restitution.             documents in association with home loans that
This sentence resulted from a guilty plea to one-            were insured by the Government. In numerous
count of theft of Government funds. The former               instances, fake gift letters were submitted to
employee, while employed by VA, used her                     conceal the fact that the individual was loaning the
assigned Government credit card to purchase                  homebuyer money in order to qualify them for the
electronic items, furniture, concert tickets, dental         mortgage.
services, and a vacation package to France.
                                                             l A veteran was sentenced to 8 months'
                                                             imprisonment, 3 years' supervised probation, and
                                                             ordered to pay $36,300 restitution. The veteran
                                                             previously pleaded guilty to one count of making




                                                        21
Office of Investigations

false statements on a VA home loan application. A          Beneficiary Fraud
joint VA OIG and SSA OIG investigation revealed
the veteran inflated his wages from employment in          Accounting for over 60 percent of the VA OIG
order to qualify for a VA guaranteed home loan.            investigative case inventory, fraud associated with
He also withheld information concerning 13                 the VA's benefits payments programs leads to
aliases.                                                   numerous arrests and judicial actions. The
                                                           following are some of the more significant cases
l Two individuals were sentenced for their part            conducting during this semiannual period.
in an equity-skimming scheme. One defendant
was sentenced to 30 months' imprisonment and               Dependency and Indemnity
36 months' probation upon his release. Restitution
for this defendant was set at $38,426. The second
                                                           Compensation Benefits Fraud
individual, a real estate agent, was sentenced to
10 months' imprisonment and 36 months' probation           l An individual, who was the friend of a widow
upon her release, and was ordered to pay $10,070           receiving VA Dependency and Indemnity
in restitution. A joint investigation by the VA OIG        Compensation (DIC) benefits, was indicted on
and FBI disclosed the defendants promised                  charges of theft of Government property.
homeowners facing foreclosures that they could             Investigation disclosed that following the DIC
stop the foreclosures and salvage their credit             recipient's death the individual did not report the
ratings by transferring their homes to trusts              death to VA. The individual improperly received
controlled by the defendants. The defendants               and used $39,459 in DIC benefits.
rented the properties back to the homeowners or
other people without paying the outstanding                l   The son of a widow receiving DIC benefits
mortgages. The defendants used the rent money              was indicted on charges of theft of Government
they collected for personal expenses. Five of the          property and aiding and abetting. Investigation
homeowners had loans guaranteed by VA. Losses              disclosed that following his mother's death the son
to VA in the foreclosures of these properties were         did not report the death to VA, but rather
approximately $150,000.                                    improperly received and used $54,547 in DIC
                                                           benefits.
Other Loan Guaranty Fraud                                  l The daughter of a deceased veteran was
                                                           sentenced to 3 years' probation, and ordered to pay
An individual pleaded guilty to one count of               $40,016 restitution and participate in mental health
bankruptcy fraud and one count of issuing a false          treatment. The individual previously pleaded guilty
statement. The individual was sentenced to                 to theft of Government funds. For 4 years, the
24 months' incarceration, 3 years' supervised              individual failed to report to VA the death of her
release, and 300 hours' community service, and             mother who was receiving widow's benefits under
ordered to pay restitution of $28,713. This                the DIC program. After the mother died, VA
investigation was initiated based on information           continued to directly deposit monies into a joint
received from the U.S. Coast Guard that the                bank account she held with her daughter. Each
individual and an associate were involved in a real        month the daughter would withdraw the funds
estate scheme to purchase numerous VA                      deposited by VA. By this scheme, she wrongfully
properties. The joint investigation revealed the           converted $40,016 to her own use.
individual used various Social Security numbers to
purchase properties; when the properties went into         l   An individual was charged with 44 counts of
foreclosure status, he would file bankruptcy to            theft of Government funds related to the fraudulent
impede the process.



                                                      22
                                                                                    Office of Investigations

receipt of DIC benefits for approximately                    $150,000 in VA benefits. A task force of
20 years. Investigation revealed that from January           investigators, including special agents from VA
1980 through December 1999, the individual failed            OIG, determined the widow hired another
to notify VA of her remarriage and continued to              individual to kill her husband so that she could
receive DIC benefits to which she was not                    collect his VA and other insurance benefits. Other
entitled. During the same time period, she made              individuals in this conspiracy have already been
false claims for payment to the Government by                charged.
negotiating U.S. Treasury checks that were issued                           Bangor Daily News
as payment of DIC benefits. Loss to the                                        Bangor, ME
Government exceeds $163,000.                                              Thursday, May 10, 2001

l    A veteran's widow was sentenced to 5 months'
incarceration, 5 months' home confinement and
3 years' supervised probation, and ordered to pay
$86,264 in restitution. She had previously pleaded
guilty to theft of Government funds. The case was
initiated when the SSA OIG notified the VA OIG
that the individual had applied for SSA benefits
using her deceased husband's name and that she
was also receiving SSA benefits as the spouse of
another individual. At the same time that she
applied for SSA benefits, VA received an
anonymous letter indicating the woman was also
receiving VA benefits to which she was not
entitled. Attached to the anonymous letter was a
copy of a marriage certificate indicating the
woman had remarried in March 1990. A review
of VA files determined that she was in receipt of            l A DIC recipient was indicted on one count of
DIC benefits as the surviving spouse of a                    making a false statement. A VA OIG
deceased veteran, but had failed to notify VA of             investigation revealed the individual signed and
her remarriage. VA regulations provide that DIC              submitted a false VA declaration form stating she
payments cease upon a beneficiary's remarriage.              had not remarried after the death of her veteran
                                                             husband, when in fact she had remarried. From
l The daughter of a DIC beneficiary was                      the time of her remarriage until her divorce, the
sentenced to 36 months' probation with up to                 individual received approximately $67,000 to which
90 days in a residential drug treatment facility, and        she was not entitled.
ordered to pay $55,372 restitution to VA. An
investigation by VA OIG disclosed the daughter               l The daughter of a widow receiving DIC
failed to disclose her mother's death to VA,                 benefits was sentenced to 6 months' home
continued to receive and negotiate 53 U.S.                   detention and 60 months' probation, and ordered to
Treasury checks issued to the deceased mother,               pay $86,709 restitution. The daughter had
and deposited these funds into a personal bank               previously pleaded guilty to one count of theft of
account for her own use.                                     Government funds. A joint investigation with the
                                                             FBI disclosed the individual did not report the
l  A veteran's widow was charged with the 1983               death of her mother in May 1990, and continued to
murder of her husband, and the theft of over                 negotiate the DIC benefits through September
                                                             1998.



                                                        23
Office of Investigations

l The daughter of a DIC benefits recipient                  February 2000, creating an overpayment of
pleaded guilty to a criminal information charging           $69,736. The remaining two daughters, both
her with theft of Government benefits. The DIC              adopted by the deceased beneficiary, were
benefits recipient died in October 1989. VA was             receiving VA benefits as helpless children. An
never notified of the beneficiary's death and               investigation determined that the daughters were
continued to disburse the DIC benefits until                not helpless, and the VARO terminated the
January 2001. In January 1996, the defendant                awards.
contacted VA by telephone and changed the
payment method to direct deposit into her checking                         Albuquerque Journal
account. From November 1989 through January                                 Albuquerque, NM
2001, the defendant illegally received over                                Friday, May 4, 2001
$105,000 in DIC benefits to which she was not
entitled. Sentencing is pending.

l An individual was sentenced after being found
guilty to four counts of mail fraud and one count to
theft of Government funds. The individual was
sentenced to 27 months' incarceration and 3 years'
probation, and ordered to pay $47,552 restitution to
VA. The sentencing resulted from a VA OIG
investigation that revealed the individual devised a
scheme to defraud a Brazilian widow and the
children of a Vietnam veteran of DIC benefits.
                                                            l A former DIC recipient pleaded guilty to one
l    The son of a deceased veteran was sentenced            count of mail fraud. The individual, a veteran's
to serve 2 years' probation with a special condition        widow, was previously indicted on 18 counts of
of 6 months' home detention for theft of                    mail fraud after failing to notify VA of her
Government funds. The court also ordered the                remarriage in 1980. Loss to VA is $155,027.
individual to pay VA restitution of $102,000 and to         Sentencing is pending.
undergo mental health counseling. From April
1989 to September 2000, the veterans' son failed to         l Special agents from the VA OIG and SSA OIG
report to VA the death of his mother who was                arrested the sister of a DIC and Social Security
receiving widow's benefits under the DIC                    beneficiary. The beneficiary died in June 1997 and
program. VA continued to deposit monies into a              her sister failed to inform the VA and SSA of her
joint bank account she held with her son and each           death. Subsequently, the sister endorsed and
month the son would withdraw the cash deposited             cashed the monthly benefits checks and converted
by VA. By means of this scheme, he wrongfully               the funds for her own use. The total loss to the
converted $102,000 to his own use.                          Government was approximately $37,000. The
                                                            investigation is continuing.
l   Three daughters of a DIC beneficiary were
indicted on one count each of conspiracy to                 l   The daughter of a deceased VA widow
defraud the Government and false claims.                    beneficiary was arrested on a warrant after being
Following the 1993 death of the DIC beneficiary,            previously charged with 5 counts of theft of
one daughter assumed her mother's identity and              Government funds and 33 counts of bank larceny.
continued to receive DIC benefits through                   This case was initiated based upon a death match




                                                       24
                                                                                      Office of Investigations

referral which indicated the deceased widow, a               l An individual pleaded guilty to a criminal
recipient of DIC benefits, died in December 1999.            information involving the theft of Government
A joint investigation conducted by the VA OIG and            property. The individual used DIC benefits that
U.S. Secret Service revealed that between                    were sent to his deceased aunt. An investigation
December 1999 and September 2000, the daughter               disclosed that after the aunt's death in December
withdrew VA funds that she was not entitled to               1996, the individual, a co-signor on a joint bank
from her deceased mother's bank account. Loss                account, continued to receive and spend the DIC
to the VA is $29,342.                                        funds through February 2001. The individual
                                                             agreed to pay $58,445 in restitution.
l Two daughters of a DIC beneficiary were
sentenced for theft of public money. One daughter            Pension Benefits Fraud
was sentenced to 21 months' imprisonment and
3 years' supervised release, and ordered to                  l A veteran pleaded guilty to one count of
undergo treatment for cocaine addiction and to pay           making false statements. The veteran was granted
$22,000 restitution to VA. The other daughter was            a VA pension, based on his false claims of zero
sentenced to 60 months' probation and 4 months'              assets and income. An investigation disclosed the
house arrest, and ordered to pay $14,663                     veteran earned interest on personal investments of
restitution. She will also perform community                 about $200,000. The loss to VA was $34,071.
service as determined by the court. A joint                  Sentencing is pending.
investigation by the VA OIG and U.S. Secret
Service disclosed the daughters failed to report             l    An individual previously charged with a six
their mother's death to the VA and continued to              count information for the theft/conversion of U.S.
receive DIC payments that were electronically                Treasury checks, pleaded guilty and was sentenced
deposited into a joint account they shared with their        to 1 year probation and ordered to pay $5,208 in
mother. One daughter admitted to unlawfully                  restitution. A joint investigation by the VA OIG
taking the VA benefits to support her cocaine                and U.S. Secret Service disclosed the individual
habit. The other daughter admitted to unlawfully             failed to report the death of her alleged common
taking the benefits because of her poor financial            law husband and continued to negotiate $13,744 in
condition. Loss to VA totaled $37,000.                       VA benefit payments.

l An individual was sentenced to 4 months'                   l   VA OIG agents arrested a former VA
incarceration, 4 months' home detention, and                 beneficiary as she arrived in the United States.
5 years' supervised release, and ordered to pay              The investigation determined the individual had
$50,274 to VA. The individual had previously                 been receiving VA widow pension benefits since
pleaded guilty to one count of bank fraud involving          1990 as a surviving spouse of a deceased veteran.
his deceased mother's bank account. A joint                  Investigation disclosed that in applying for the
investigation by the VA OIG and U.S. Secret                  benefits, the individual falsely certified that she had
Service disclosed that after his mother, a DIC               not remarried when in fact she had remarried
beneficiary died in 1995, he withdrew monies by              1 month after the death of the veteran. Also, the
forging his mother's name to personal checks made            VA OIG forensic laboratory determined the
payable to himself. He also forged her name on 14            individual had altered the veteran's original death
U.S. Treasury checks and on a direct deposit form,           certificate in order to have it falsely state that she
which changed the monthly payments to electronic             was his current wife. As a result, VA overpaid her
funds transfer. To continue payment by VA, he                $56,636. At the time of the indictment, the
forged his mother's name on a marital status                 individual was a fugitive and her whereabouts
questionnaire.




                                                        25
Office of Investigations

were unknown. Subsequently, the individual                  sentenced to 2 years' probation, and ordered to pay
contacted a VARO and reported that she was                  fines and fees of $1,052 and restitution of $4,256.
living in Canada, and requested that her benefits be        An investigation by the VA OIG and local police
reinstated because she had divorced her husband.            revealed the daughter failed to notify the VA of her
                                                            mother's death and cashed 32 VA checks issued
l A veteran was sentenced to 12 months'                     after her mother died. This investigation was the
incarceration and 3 years' supervised release, and          result of a death match initiated by the VA OIG.
ordered to pay VA $79,623 restitution. The
veteran had previously pleaded guilty to one count          l A veteran was indicted and charged with two
of theft of Government money and one count of               counts of theft of Government funds. The
false statements. The veteran admitted collecting           indictment resulted from a VA OIG investigation
VA pension benefits since 1993 while failing to             that revealed the veteran, who was in receipt of
report his spouse's income during that time. The            VA pension benefits, failed to report his earned
veteran submitted income verification reports to            income to VA. The loss to the Government is
VA that indicated he was married, but not living            approximately $11,708.
with his spouse. The veteran also indicated he did
not know where his spouse was living and did not            l The widow of a veteran was sentenced to
know her Social Security number. The                        6 months' home confinement and 5 years'
investigation determined the veteran has                    supervised release, and ordered to pay $20,506
continuously resided with his wife who earns                restitution. From 1993 through 1998, the defendant
substantial income. The spouse's income would               submitted eligibility questionnaires to VA stating
have disqualified the veteran from the VA pension           she was not working and was dependent on VA
program.                                                    benefits. The defendant repeatedly accused VA of
                                                            harassing her and threatened to sue VA if her
l    A veteran was indicted by a federal grand jury         benefits were terminated. The investigation
and charged with one count of theft of                      uncovered the defendant was continuously
Government monies and one count of false                    employed during this time and earned substantial
statements. The indictment resulted from a VA               income. The defendant's income would have
OIG investigation that revealed the veteran, who            disqualified her from the VA pension program.
was in receipt of VA pension benefits, submitted            The total loss to VA was $20,506.
false documents to VA on which he failed to report
his earned income. The loss to the Government is            l   A veteran who previously pleaded guilty to
approximately $52,000.                                      theft of Government benefits was sentenced to
                                                            5 years' probation and 4 months' home detention,
l    A veteran pleaded guilty to charges of making          and ordered to pay $16,288 restitution. A joint
false statements and was sentenced to 3 years               investigation between the SSA OIG and VA OIG
probation and 6 months' home detention, and                 revealed the veteran was employed using his
ordered to pay $51,000 restitution. An                      nephew's Social Security number while receiving
investigation revealed the veteran, who was                 benefits based on his unemployment status.
receiving VA pension benefits, was working from
his home brokering transportation shipments for             Education Benefits Fraud
trucking firms. The veteran failed to report his
income to VA.                                               l   A former instructor and a former teaching
                                                            assistant were sentenced as a result of a 4-year
l   The daughter of a deceased VA death pension             investigation regarding an elaborate educational
beneficiary entered a plea of nolo contendere on a          benefits fraud scheme. The scheme involved
charge of theft by deception. The daughter was              approximately 450 veterans who received



                                                       26
                                                                                    Office of Investigations

educational assistance benefits from VA while               benefits until January 2001. A joint investigation by
enrolled in college where the instructor and                the VA OIG and U.S. Postal Inspection Service
teaching assistant worked. The scheme allowed               revealed the brother assumed the veteran's identity
these veterans to obtain a VA paid stipend and              and obtained U.S. Treasury checks from postal
course credit without attending regular classes. As         officials who believed he was the veteran. From
part of the scheme, the veterans would                      June 1997 through January 2001, the defendant
occasionally attend a meeting. This meeting was             illegally received over $93,000 in VA compensation
very brief and served to "substitute" for the               benefits. Sentencing is scheduled.
veterans' attendance in class. During some of
these meetings, the veterans would provide                  l A veteran was sentenced to 30 months'
kickbacks to the participating instructors and group        imprisonment to run consecutively with a prior
leaders. The instructor originated the program that         157-month prison sentence. The veteran was also
facilitated the fraudulent scheme. The teaching             ordered to pay restitution to VA and serve a 3-year
assistant served as the head "group leader" of the          term of supervised probation upon his release from
veterans participating in this scheme. They were            prison. Previously, the veteran was ordered to
convicted after a 6-week trial on 18 counts of              serve 157 months imprisonment for possession of
conspiracy to defraud the Government, mail fraud,           explosive devices and threatening to kill former
and aiding and abetting mail fraud. The instructor          President Clinton. A joint investigation by the VA
was sentenced to 1 year home detention with                 OIG and FBI revealed for the past 15 years the
6 months' electronic monitoring, 3 years' probation,        veteran defrauded VA and received over $260,000
250 hours' community service, and a $900 special            in compensation benefits. The veteran made false
assessment fee. The teaching assistant was                  claims about his military service while in Vietnam,
sentenced to 1 year home confinement, 3 years'              including that he was wounded in combat and
probation, 150 hours' community service, and a              witnessed numerous traumatic incidents. The
$900 special assessment fee.                                investigation proved that the veteran altered his
                                                            own service medical records to show that he was
Compensation Benefits Fraud                                 wounded in combat and lied about all the events he
                                                            used to obtain a 100 percent disability rating.
l A veteran's son pleaded guilty to 16 felony
                                                            l A former U.S. Postal Service employee was
counts of forgery. He was sentenced to 4 years'
                                                            indicted on nine counts of fraud for filing false
imprisonment and ordered to pay $5,014 restitution
                                                            claims and making false statements relating to VA,
to VA. A joint investigation by the VA OIG and
                                                            SSA, and U.S. Department of Labor programs.
local authorities disclosed the son failed to report
                                                            The joint investigation by the VA OIG, SSA OIG,
his father's death to VA and continued to receive
                                                            and U.S. Postal Inspection Service disclosed the
VA compensation benefits checks that were being
                                                            former employee filed false claims and made false
mailed to his deceased father. The individual
                                                            statements to the aforementioned agencies relating
forged his father's signature on VA benefits checks
                                                            to an alleged on-the-job injury sustained during her
and then diverted the money for his own personal
                                                            employment with the U.S. Postal Service. The
use.
                                                            individual failed to inform the Government agencies
                                                            of her ability to work and medical condition. Her
l The brother of a veteran who received VA
                                                            actions caused false documents to be filed to
compensation benefits pleaded guilty to theft of
                                                            initiate new claims and increase benefit payments
Government property. The veteran died in May
                                                            she was already receiving. In January 1992, she
1997; VA was never notified of the veteran's death
                                                            made an application for compensation with VA for
and continued to disburse the compensation
                                                            a claimed back injury while on active duty and




                                                       27
Office of Investigations

received a 10 percent compensation award. In                scheme whereby, from 1995 through 2001, he
1994, this award was increased to 20 percent                circumvented the requirement to report his
based upon her claim that the condition worsened.           employment to VA and SSA by conducting
In 1998, the individual further defrauded the VA by         business through a company incorporated and
requesting another increase in her benefits based           owned by his wife. In 1994, VA rated the veteran
upon false statements regarding her physical                80 percent disabled for his service-connected
condition. Subsequently, she received over $70,000          illness and granted him individual unemployability.
in compensation benefits to which she was not               From 1995 through 2001, the veteran drove a
entitled.                                                   commercial truck on a full time basis while
                                                            submitting false statements to VA and SSA
l   The brother of a deceased veteran was                   certifying that his medical condition had not
sentenced to 10 months' incarceration and                   improved. The loss to VA and SSA is $163,663.
36 months' supervised probation, and ordered to
pay $93,601 restitution to VA. The brother had              Fiduciary Fraud
pleaded guilty to theft of Government funds. A
joint investigation by the VA OIG and U.S. Postal           l An individual was sentenced to 12 months'
Inspection Service disclosed that for almost                incarceration and 36 months' supervised release.
4 years the brother had assumed the deceased                The individual previously pleaded guilty to one
veteran's identity to obtain VA disability                  count of submitting false statements, one count of
compensation benefits. The VA OIG, based on                 Social Security fraud, and one count of failure to
surveillance at the post office, identified the             appear for trial. A joint investigation by VA OIG
subject. On the first of each month, the subject            and SSA OIG determined the individual, acting in
would present himself at the post office and                the capacity of her husband's fiduciary,
represent to the postal clerks that he was the              fraudulently claimed the dependency of two minor
veteran. The clerks would give him the check and            children and collected additional VA and SSA
he would immediately cash it at a nearby store              benefits. One child was not the husband's
using false identification. Loss to VA is $93,601.          dependent and the other child did not exist.

l An individual previously charged with a one
                                                            l    An individual was indicted and charged with
count indictment for the theft/conversion of VA             one count of misappropriation of funds by a
compensation benefit payments, was arrested by              fiduciary. The indictment was the result of a VA
VA OIG and U.S. Marshals Service agents. A                  OIG investigation that revealed the individual, while
VA OIG investigation disclosed the individual failed        appointed as his veteran brother's guardian,
to report the death of his father and continued to          misappropriated $13,974 paid by VA for the care of
negotiate over $20,000 in VA benefit payments.              the incompetent veteran.
The payments were intended as service connected
disability compensation benefit payments for the
                                                            l A fiduciary was sentenced to 4 years'
individual's father, a veteran.
                                                            probation, 6 months' home detention, and 400
                                                            hours' community service, and ordered to pay
l    A veteran in receipt of individual
                                                            $12,055 in restitution. The individual had
unemployability benefits was indicted on two
                                                            previously pleaded guilty to one count of
counts of theft of public money, two counts of false
                                                            concealing and failing to disclose with intent to
statements, and one count of failure to disclose
                                                            defraud the Government. A joint investigation by
information. A joint investigation by the VA OIG
                                                            the VA OIG and SSA OIG disclosed the fiduciary
and SSA OIG disclosed the veteran devised a
                                                            acted with knowledge when she failed to report the




                                                       28
                                                                                     Office of Investigations

death of a veteran beneficiary, her grandfather, and         the bank and asked that his account be closed and
continued to use his VA and SSA benefits for her             a payoff check be written to him. Bank
personal expenses. The loss to VA and SSA is                 authorities, suspecting wrongdoing, had been in
approximately $24,314.                                       touch with VA OIG representatives and stopped
                                                             payment on the payoff check.
l An individual was indicted and charged with
one count of misappropriation by a fiduciary. A              l An individual was indicted on charges of theft
VA OIG investigation revealed the fiduciary                  by unlawful taking. While impersonating a veteran,
fraudulently received and spent three of her                 the individual was able to transfer the veteran's
grandson's DIC checks after he was removed                   monthly VA benefit payments to his own account.
from her custody. Loss to VA is approximately                At the time of his arrest, he was in possession of
$1,119. Additionally, it appears the fiduciary               numerous fictitious identification cards. The
misappropriated $23,290 of the service members'              subject is currently incarcerated for bank robbery.
group life insurance proceeds.                               This is a joint investigation with a local police
                                                             department and prosecutor's office.
l A former attorney was sentenced to serve
12 months' incarceration, 3 years' supervised                l An individual was indicted and charged with
release, and ordered to pay $38,158 in restitution.          two counts of wire fraud. The charges were filed
The individual previously pleaded guilty to one              following a joint investigation by the VA OIG and
count of theft of funds after being named in an              SSA OIG. Investigation determined the individual,
indictment that charged him with multiple counts of          son of a deceased widow, knowingly concealed his
fiduciary fraud. The sentencing is the result of a           mother's death and withdrew funds from the
VA OIG investigation that determined the                     widow's bank account for his own personal use.
individual, a court-appointed financial guardian for         The widow was simultaneously receiving both VA
a disabled veteran, filed a false accounting with a          and Social Security benefits. VA and SSA loss
state court and with VA. The individual also                 exceeds $90,000.
diverted in excess of $13,000 of the veteran's VA
benefits for his own personal use.                           l   An individual was sentenced to 12 months'
                                                             incarceration and 36 months' probation, and
Theft of Benefits                                            ordered to pay $51,865 restitution to VA. The
                                                             individual had previously pleaded guilty to one
l An individual was sentenced to 18 months'
                                                             count of wire fraud relative to his diversion of VA
confinement and 5 years' supervised probation, and           benefits payable to a deceased veteran whom he
ordered to pay a special assessment of $2,600. A             claimed was his uncle. The VA benefits were
jury convicted the individual on all 26 counts of an         electronically deposited in one state and withdrawn
indictment that had charged him with bank and                by the individual through automated teller machines
mail fraud, theft of Government property, and                in another state.
forgery. This case was initiated after 13 U.S.
                                                             l A former VA employee was sentenced after
Treasury checks were reported missing by VA
beneficiaries. A joint investigation with VA OIG             pleading guilty to multiple counts of theft, mail and
and U.S. Secret Service disclosed the stolen                 wire fraud, and conspiracy. The individual was
checks totaling over $48,000 had been deposited in           sentenced to serve 2 years' incarceration and
the individual's bank account. Subsequent                    3 years' probation, and ordered to pay $229,786 in
handwriting analysis identified the individual as the        restitution. The sentencing was the result of a VA
author of forged signatures and other entries on the         OIG investigation that determined the employee, in
checks. Prior to his arrest, the individual contacted        her capacity as a senior veteran services
                                                             representative, created a false veteran payee



                                                        29
Office of Investigations

within VA data systems. This caused VA to issue              from a VA OIG and SSA death match of Social
benefit checks in the name of a fictitious veteran to        Security decedents and VA benefits payees.
an address controlled by her associate. It
continued for 3 years. The employee then                     l An individual pleaded guilty to one count of
negotiated the checks. Her associate, a co-                  false representation with intent to defraud the
conspirator, was previously sentenced after                  Government. The individual was previously
pleading guilty to similar charges.                          indicted on one count of false representation with
                                                             intent to defraud and one count of producing a
l A grand jury indicted an individual on one                 counterfeit access device affecting interstate
count of bank fraud. The indictment resulted from            commerce. Investigation revealed the individual
a VA OIG investigation that determined from April            concealed the death of his grandmother, a VA and
1997 through May 2000, the individual used an                SSA beneficiary, and continued to use her benefits
automated teller machine card to withdraw his                for personal expenses. The loss to the
deceased mother's VA benefits. The loss to VA is             Government was $32,014. This is a joint VA OIG
$33,315.                                                     and SSA OIG case.

l An individual was indicted and charged with                Other Benefits Fraud
two counts of forgery of U.S. Treasury checks.
The indictment was the result of a VA OIG                    l A VA employee and two accomplices were
investigation that revealed the individual was               released on $50,000 bond after appearing on
forging and cashing VA benefit checks issued in              charges of theft of Government property and
the name of his former girlfriend without her                conspiracy. An investigation by the VA OIG, FBI,
consent. Total loss to the Government is $10,049.
                                                                         The Atlanta Constitution
l A grand jury returned an indictment charging a                              Atlanta, GA
                                                                        Wednesday, August 29, 2001
veteran with false representation of a Social
Security account number and fraudulent
acceptance of payments. Investigation revealed
the veteran presented his son's Social Security
number as his own while securing employment.
This misrepresentation enabled the veteran to
conceal his earnings and thus receive VA and
Social Security benefits to which he was not
entitled. Loss to VA exceeds $10,700.

l    An individual pleaded guilty to submitting a
false document to VA. The individual submitted an
altered death certificate to VA stating his mother-
in-law died in June 2000. The mother-in-law had
actually died in November 1991. The individual
provided the false death certificate in order to
extend his deceased mother-in-law's VA benefits
past the required termination date. An
investigation disclosed the individual received VA
benefits payments totaling $90,503 and used the
funds for his own purposes. This inquiry stemmed




                                                        30
                                                                                     Office of Investigations

and U.S. Postal Inspection Service disclosed that a          living under another identity, and convicted of other
VA employee and her two accomplices, both                    molestation charges for which he received a
former VA employees, defrauded VA out of                     sentence of 45 years' imprisonment. The veteran
approximately $11 million between 1993 and
August 2001. Further investigation revealed the                           Las Vegas Review-Journal
VA employee accessed and falsified numerous                                    Las Vegas, NV
files to generate hundreds of benefit payments to                          Thursday, April 12, 2001
veterans who had died and had no beneficiaries.
Subsequently, large retroactive benefits checks
were disbursed or electronically deposited into
accounts belonging to the accomplices and used
for their own personal use. Ten additional co-
conspirators, who are not VA employees, have also
been charged. The investigation continues.

l A veteran and his son were indicted on one
count of making false statements and one count of
making false claims. The son was also charged
with aiding and abetting his father in these criminal
violations. An OIG investigation revealed the
veteran provided a false VA medical expense
report, claiming $33,659 in medical expenses.
Furthermore, the investigation found the veteran
provided false receipts of $26,390 to substantiate
the medical expenses claimed. The veteran's son
admitted to helping his father with the receipts. As
a result of their actions, the veteran received a VA
pension that he was not entitled, and the VA
incurred a loss of $11,289. Further judicial actions
are pending.

l   Two brothers of a deceased veteran were
each sentenced to 37 months' incarceration and
36 months' probation, and each ordered to pay
$67,189 in restitution. A joint investigation by the
VA OIG, SSA OIG, and Defense Criminal
Investigative Service disclosed the veteran's wife,
brothers, and mother conspired to fake the
veteran's death and then illegally enrich themselves
by applying for and receiving VA, SSA, and
Servicemen's Group Life Insurance benefits                   later hung himself in his jail cell to avoid the state
totaling over $300,000. The veteran was an active            murder and arson charges, Federal fraud charges,
duty U.S. Marine who faced court martial for child           and military court martial. In June, the former wife
molestation. To avoid those charges, he faked his            was sentenced to 36 months' probation and
death by killing another individual and burning the          ordered to pay $101,874 in restitution. The mother
body in a trailer fire. The body was never                   is scheduled for sentencing at a later date.
identified. The veteran was subsequently found



                                                        31
Office of Investigations

l A woman and her three daughters pled guilty               individual was fraudulently obtaining credit cards
to mail fraud and false statement charges. A joint          using the names and personal information of VA
investigation by the VA OIG; SSA OIG; Bureau of             employees. He would generally use convenience
Alcohol, Tobacco and Firearms; U.S. Postal                  checks to withdraw funds from these accounts and
Inspection Service; and a state department of               deposit them into his bank accounts.
insurance fraud division disclosed the women                Approximately $43,000 in fraudulent charges were
engaged in a scheme to commit fraud, make false             made on the credit card accounts opened by the
claims, and embezzle funds belonging to VA and              individual.
SSA benefits recipients deemed incompetent. The
investigation also disclosed the woman misused the
identity of a 100 percent service-connected                 OIG Forensic Document
disabled veteran and purchased luxury vehicles and
jewelry and obtained credit accounts in the
                                                            Laboratory
veteran's name. This veteran's name was also
used in connection with fraudulent claims related to        The OIG operates a nationwide forensic document
bogus automobile accidents. Sentencing is                   laboratory service for fraud detection that can be
                                                            used by all elements of VA. The types of requests
scheduled for October.
                                                            routinely submitted to the laboratory include
                                                            handwriting analysis, typewriting analysis, ink and
l An individual was arrested on state charges for
                                                            paper analysis, analysis of photocopied documents,
first-degree forgery. The individual forged and
                                                            and suspected alterations of official documents.
cashed VA benefit checks issued to his mother
subsequent to her death in December 1994. This
                                                            There were a total of 34 reports issued during this
case was a joint investigation by the VA OIG, U.S.
                                                            semiannual period.
Secret Service, and a local police department.
Total amount of forged checks is $21,060.
                                                                     Laboratory Cases for the Period
l    A veteran was arrested based on a complaint
charging him with forgery and money laundering.                                                   C a se s
                                                                        Requester
A joint investigation with VA OIG and the U.S.                                                   Completed
Postal Inspection Service revealed the veteran               OIG Office of Investigations             12
stole checks totaling $26,943 along with the
victims' identification. The veteran then assumed            VA Regional Offices                      19
the identity of two different persons, including
                                                             Office of Security and Law
another veteran, in furtherance of this scheme.                                                        1
                                                             Enforcement
One stolen check was deposited into his own
account. The second check was used to open an                Other                                     2
account using the victim's stolen identification.
                                                                         TOTAL                        34
Credit Card Fraud
                                                            The following are examples of completed
A former student trainee pleaded guilty to one              laboratory work:
count of credit card fraud. The individual had been
previously indicted for conspiracy to commit credit         l A joint task force has been formed between
card fraud. The indictment followed a joint                 the VA OIG and the U.S. Secret Service to
investigation by the VA OIG and U.S. Postal                 conduct a review of potential VA benefits fraud at
Inspection Service regarding allegations that the           a VARO. The laboratory provided assistance in




                                                       32
                                                                                   Office of Investigations

the review of 231 individual claims folders for             Resources
indications of fraud. The review identified 66 files
requiring further investigation.                            The Administrative Investigations Division has nine
                                                            FTE allocated. The following chart shows the
l A veteran submitted a clinical record and                 percentage of resources utilized in reviewing
physical examination that would have provided a             allegations by program area.
basis for additional VA benefits. Laboratory
examinations determined the medical records were
fraudulent and prevented $63,210 in VA benefits
losses.
                                                                                               VBA
l A veteran's widow provided a medical record                   VHA                             5%
containing information that would have been                     90%
required to obtain additional VA benefits. The
                                                                                                VACO
laboratory determined the document was
                                                                                                 5%
fraudulent and prevented a $27,330 loss in VA
benefits.

l The VA OIG investigated a VAMC employee
who stole checks from a deceased veteran to
obtain money. The laboratory determined the                 Overall Performance
employee forged checks on the veteran's bank
account.                                                    During the reporting period, the Division closed 26
                                                            cases.
l The VA OIG investigated an individual who
obtained $58,479 in death pension benefits by not           Output
reporting her true income. Laboratory                       l During the reporting period, nine reports and
examinations identified her as the author of                four advisory memoranda were issued, including
signatures on critical fraudulent documents.                one case with both a report and an advisory
                                                            memorandum issued. Fourteen cases resulted in
                                                            administrative closures.
II. ADMINISTRATIVE
                                                            Outcome
INVESTIGATIONS                                              l VA managers agreed to take 24 administrative
                                                            actions against high-ranking officials and 17
DIVISION                                                    corrective actions to improve operations and
                                                            activities as a result of these investigations. The
Mission Statement                                           corrective actions included directing officials to
                                                            repay money due the Government and others, and
    Independently review allegations and                    reviewing or properly approving personnel-related
    conduct administrative investigations                   matters.
    generally concerning high ranking senior
    officials and other high profile matters of             Cost Effectiveness
    interest to the Congress and the                        l Administrative investigations closed during the
    Department.                                             reporting period were completed in an average of
                                                            25 staff days.



                                                       33
Office of Investigations

Timeliness                                                       thwarted the purpose of the charge card program.
l The average time from receipt of an allegation                 The personal credit card earned frequent flyer
to initiation of an investigative case, for all cases            miles that were deposited in his spouse's frequent
initiated during the reporting period, was 20 days.              flyer account. Finally, the investigation
The average time from initiation of an investigative             substantiated that the Director's spouse benefited
case to case closure (or issuance of a draft report),            from the use of some of these miles by using them
for all cases closed (or with draft reports issued)              for personal travel.
during the reporting period, was 54 days.
                                                                 VHA concurred with recommendations to take
                                                                 appropriate administrative action against the
Customer Satisfaction
                                                                 Director; to come to a mutual agreement with him
l The average rating on customer satisfaction
                                                                 as to how many miles currently in his account
surveys returned during the reporting period was
                                                                 belong to the Government and how many belong to
4.4 out of a possible 5.0 (5.0 represents the
                                                                 him, and ensure that he maintains an accurate
greatest satisfaction and 1.0 represents the least
                                                                 accounting of such miles in the future; and to direct
satisfaction).
                                                                 him to redeem his miles for all future Government
                                                                 travel he and his staff take until his miles have
The Administrative Investigations Division reports               been depleted. The investigation also substantiated
discussed below address serious issues of                        that the director wasted Government travel funds
misconduct against high-ranking officials and other              by not always using the contract air carrier,
high profile matters of interest.                                improperly claiming reimbursement for lodging
                                                                 costs above the maximum allowance, renting
                                                                 automobiles unnecessarily, renting full-size
Veterans Health                                                  automobiles without justification, and not obtaining
                                                                 hotel tax exemptions. In addition, the investigation
Administration                                                   substantiated that the Director improperly used a
                                                                 specific airline and rental car company to earn
Frequent Flyer and Other Travel                                  frequent flyer miles, and did not review or sign his
                                                                 travel vouchers.
Issues
                                                                 VHA concurred with recommendations to take
An administrative investigation substantiated that a             appropriate administrative action against the
VISN Director did not properly account for                       Director; issue him a bill of collection for the
frequent flyer miles he maintained in accounts                   additional amount the Government spent for him to
containing both miles earned from official travel                travel on another airline when a Government
and miles earned from personal travel. The                       contract carrier was available; and require him to
Director did not redeem any of these miles for free              justify the excessive lodging costs he incurred, or
airline tickets in conjunction with official travel until        issue a bill of collection for the amount improperly
he became aware of our investigation. The                        paid to him. VHA also planned to arrange for a
investigation also substantiated that the Director               full audit of the Director's travel vouchers for the
improperly acquired frequent flyer miles for his                 past 5 years. (Misuse of Frequent Flyer Miles
personal use by using a personal credit card to pay              and Other Travel Issues, VISN 7, Atlanta, GA,
for reimbursable expenses while on official travel.              99-01434-103, 7/12/01)
By not using his Government charge card, he




                                                            34
                                                                                     Office of Investigations

Employee Relocation and Office of                            workers' compensation program entitlements, and
Workers' Compensation Programs                               that the director denied three employees
                                                             continuation of pay benefits. VHA concurred with
Issues
                                                             recommendations to take appropriate
                                                             administrative action against the officials, and
An administrative investigation substantiated that a         ensure that employees who were injured at the
VAMC Director, Human Resources Management                    medical center since the Director arrived received
Service Chief, and Business Office Chief                     all the benefits to which they were entitled.
intentionally violated Federal regulations and VA            (Irregularities in Employee Relocation
policy regarding reimbursement of relocation                 Reimbursements and the Workers'
expenses for employees transferring to the medical           Compensation Program, VAMC West Palm
center's blind rehabilitation center. These officials        Beach, FL, 00-01632-117, 7/20/01)
authorized the transferring employees'
reimbursement of some, but not all, of the
expenses to which they were entitled. VHA
                                                             Misuse of Position and Other Issues
concurred with recommendations to take
appropriate administrative action against these              An administrative investigation substantiated that a
officials, and to review the records of all                  VAMC Director improperly used his title and
employees who relocated to the facility since the            position to recommend a construction contractor
director arrived, and pay all properly reimbursable          seeking additional VA business to other VA facility
relocation expenses incurred. VHA also planned               directors. The investigation also substantiated that
to present this issue as a "lesson learned" for all          the Director did not ensure that an employee's
VISN and medical center directors in the event the           vehicle accident claim was properly investigated
practice was in place at other locations.                    before it was forwarded to regional counsel. VHA
                                                             officials agreed to ensure the Director was aware
The investigation further substantiated that the             of his responsibilities in these matters.
Human Resources Management Service Chief and
Business Office Chief violated Federal regulations           We also determined that approval of the vehicle
and VA policy by not reporting job-related injuries,         accident claim may not have been appropriate. As
or billing the associated costs, to the Office of            a result of the investigation, the regional counsel
Workers' Compensation Programs. The                          reversed his earlier decision awarding the claim.
investigation could not conclusively determine the           Finally, the investigation substantiated a pattern of
Director's role in this matter, but he was                   improper procurements of computer training
responsible for knowing what the medical center's            services since November 1995. VHA agreed to
practices were and taking steps to correct them,             take appropriate administrative action against the
but did not. As a result of these violations, the            responsible employees. (Misuse of Position and
medical center was not reimbursed for the cost of            Other Issues, Jerry L. Pettis Memorial Veterans
treating job-injured employees. VHA concurred                Medical Center, Loma Linda, CA, 00-01900-77,
with recommendations to take appropriate                     5/22/01)
administrative action against the officials, and
ensure that job-related injuries were appropriately          Research Foundation and Employee
reported and billed.                                         Award Issues
Finally, the investigation substantiated that the
                                                             An administrative investigation substantiated that a
VAMC Director and Human Resources
                                                             VAMC Director improperly used over $3,300 in
Management Service chief did not ensure that
                                                             funds from a VA-approved research foundation to
employees were adequately informed about their



                                                        35
Office of Investigations

host two dinners for senior medical center staff,           related to his official duties. VHA officials
and misused his VA position to obtain benefits for          reassigned the Chief to a clinical pharmacist
himself and a relative. The research foundation             position, at a lower grade level, and told us the
had policies specifically prohibiting the use of its        individual had repaid the compensation.
funds to pay for entertainment expenses at
functions held exclusively for VA and foundation            The investigation also substantiated that health
staff. VHA agreed to take appropriate                       care employees at the facility improperly accepted
administrative action against the Director, and to          free meals from pharmaceutical companies at the
pursue options for the Director to reimburse the            facility and at local restaurants, with the knowledge
foundation for the cost of the dinners.                     of the Chief of Staff. VHA officials agreed to stop
The investigation also substantiated that the               their practice of allowing pharmaceutical
Director and two other senior medical center                companies to provide free meals at the facility, and
officials improperly processed or approved cash             to provide ethics training to affected employees.
awards for four senior managers in excess of the            They also planned to determine appropriate action
Director's delegated approval authority. VHA                to be taken against the Chief of Staff, and took
agreed to take appropriate administrative action            action against another management official who
and to review the four awards. (Research                    solicited a pharmaceutical company to provide a
Foundation and Employee Award Issues, VAMC                  meal for himself and other health care providers.
Kansas City, MO, 01-00365-71, 5/4/01)                       (Acceptance of Compensation and Gift Issues,
                                                            VA Southern Nevada Healthcare System, Las
Misconduct and Resource Misuse                              Vegas, NV, 01-01008-131, 8/27/01)
Issues
                                                            Misuse of Government Resources and
An administrative investigation substantiated that a        Other Issues
VAMC Chief Operating Officer used disrespectful
language having racial overtones when speaking to           An administrative investigation substantiated that a
subordinates. The investigation also substantiated          VHA Central Office senior official misused a
that the Chief Operating Officer possessed and              Government laptop computer to access
served alcohol at the medical center during duty            pornographic websites. VHA agreed to take
hours, and arranged to have several personal wall           appropriate administrative action against the
decorations framed at Government expense.                   official. The investigation also substantiated the
VHA agreed to take appropriate administrative               official did not appoint an information security
action against the Chief Operating Officer, and             officer in accordance with VA policy. We
informed us that she agreed to reimburse VA for             recommended that the appointee's responsibilities
her personal framing expenses. (Misconduct and              be transferred to another appropriate individual.
Resource Misuse Issues, Ralph H. Johnson                    VHA concurred with the recommendation and
VAMC Charleston, SC, 01-00865-90, 6/18/01)                  was taking steps to fully implement the transfer of
                                                            responsibilities. (Misuse of Government
Acceptance of Compensation and                              Resources and Other Issues, VHA Office of
Gifts Issues                                                Information, Washington, DC, 01-01062-115,
                                                            7/18/01)
An administrative investigation substantiated that a
Chief of Pharmacy improperly accepted
remuneration from pharmaceutical company
representatives for discussing with them subjects




                                                       36
                                                                                     Office of Investigations

Various Issues                                               initiated a comprehensive review of names of
                                                             individuals buried in the county cemetery over the
Advisory memoranda were issued to management                 past 2 years, and identified two additional veterans.
officials, advising them of administrative                   Regional office officials also initiated and signed an
investigation findings not warranting formal                 agreement with the county to ensure that the
recommendations. For example, we informed the                names of all age-appropriate persons, whose
Under Secretary for Health that, several years               remains are unclaimed, are referred to the regional
earlier, a VISN made nearly $400,000 in furniture            office to determine their veteran status. (Burial of
purchases, yet we found no documentation                     Indigent Veterans Issue, VA Regional Office,
indicating the purchases were properly approved,             VBA, Chicago, IL, 01-02075-116, 7/24/01)
or that the former Deputy Secretary was apprised
of the cost, as he had requested. We also
informed a VA Central Office official that a senior-
level position within his organization had not been
                                                             Office of Human
properly reviewed and approved, and informed a               Resources Management
VISN director that his acquisition staff did not
appropriately implement changes to the terms of a            Employee Drug Testing Program
contract. Finally, we advised a medical center
director that an open dialogue between
                                                             Issue
management and physicians at the facility could
alleviate concerns some physicians had about                 An administrative investigation disclosed that
others regarding duties performed at the affiliated          Office of Human Resources Management officials
university. (various unnumbered memoranda)                   in VA Central Office have not implemented
                                                             random employee testing for illegal drug use, as
                                                             required by an executive order and VA policy. The
                                                             Assistant Secretary for Human Resources and
Veterans Benefits                                            Administration acknowledged more could have
                                                             been done to expedite implementation of the
Administration                                               program, which he said has been delayed due to
                                                             unresolved union issues. In response to our
Burial of Indigent Veterans Issue                            recommendation to initiate such testing, the
                                                             Assistant Secretary outlined a plan to expedite
An administrative investigation, conducted at the            resolution of union concerns and, regardless of the
request of the Ranking Democratic Member of the              outcome, at least partially implement the program.
House Committee on Veterans' Affairs, concluded              (Employee Drug Testing Program Issue, VA
that a VARO did not provide inaccurate veteran               Central Office, Washington, DC, 01-01893-
status information to the local county medical               127, 8/7/01)
examiner. Local news reports indicated that the
regional office did not identify three individuals as
veterans, resulting in these individuals being buried
in pauper's graves rather than a VA national
cemetery. The investigation disclosed that local
authorities did not contact the regional office to
verify the decedents' veteran status until after they
were buried, and that one of the three could not be
identified as a veteran. Regional office officials




                                                        37
Office of Investigations




                           38
                                                                                                Office of Audit

OFFICE OF AUDIT
Mission Statement                                            This Division conducts preaward and postaward
                                                             reviews of certain categories of VA contracts.
    Improve the management of VA programs
    and activities by providing our customers                Overall Performance
    with timely, balanced, credible, and
    independent financial and performance                    Output
    audits and evaluations that address the                  l We issued 34 audits, evaluations, and reviews
    economy, efficiency, and effectiveness of VA             for an output efficiency of 1 report per 2.3 FTE
    operations, and that identify constructive               during this 6-month period. We also issued an
    solutions and opportunities for                          additional 20 contract review reports (7 preaward
    improvement, and to conduct preaward and                 contract reviews and 13 postaward reviews), for
    postaward reviews to assist contracting                  an output efficiency of about 1 report per FTE for
    officers in price negotiations and to ensure             the 6-month period.
    reasonableness of contract prices.
                                                             Outcome
Resources                                                    l Recommendations to enhance operations and
                                                             correct operating deficiencies have associated
The Office of Audit has 166 FTE allocated for its            monetary benefits totaling $1.65 billion. In addition,
headquarters and 8 operating divisions located               contract reviews identified monetary benefits of
throughout the country. The following chart shows            $11.7 million associated with the performance of
the allocation of resources utilized in auditing each        preaward and postaward contract reviews.
of VA's major program areas.
                                                             Cost Effectiveness
                                                             l We achieved a return of $150 in monetary
                             A&MM
                                                             benefits for every dollar spent on audits,
                              15%                            evaluations, and reviews during this 6-month
                                                             period. We also achieved a return of $10 in
                                Management                   monetary benefits for every dollar spent on
         VHA                       13%
         43%                                                 contract reviews. Additionally, contracting officers
                                                             sustained 72 percent of our recommended better
                               Information
                               Technology                    use of funds during negotiations.
                                   10%
                       VBA
                       19%                                   Customer Satisfaction
                                                             l Customer satisfaction with performance and
                                                             financial audits and evaluations during this reporting
                                                             period was 4.0 on a scale of 5.0. The average
                                                             customer satisfaction rating achieved for contract
In addition, the Office of Audit's Contract Review           reviews was 4.6 out of a possible 5.0.
and Evaluation Division had 24 FTE authorized for
reimbursement under an agreement with the VA
Office of Acquisition and Materiel Management.




                                                        39
Office of Audit

Audits completed during the period identified                 reduce overcrowding require the modification of
opportunities to improve services to veterans, and            the VHA resource allocation strategy to include
identified savings that could be used to increase             priority group 7 veterans in the Veterans Equitable
services. The following summarizes some of the                Resource Allocation (VERA) funding distributions.
audits completed during the reporting period                  This change would allow funding distributions for
organized by VA component: VHA, Office of                     all networks to be based on the total number of
Management, and Office of the Secretary.                      veterans who receive care, and would be more
                                                              closely aligned with the patient enrollment system.

                                                              We found that the budgetary impact of the
Veterans Health                                               increased priority group 7 enrollments to VISN 8
Administration                                                and VHA is significant. Improved network
                                                              monitoring of clinical resource utilization and equity
                                                              of resource distributions among its facilities would
Resource Utilization                                          help reduce clinic overcrowding and excessive
                                                              patient waiting times due to increasing workload.
Issue: Availability of health care services                   Including priority group 7 veterans in the VERA
   in the Florida/Puerto Rico Veterans                        resource allocation formula could result in more
   Integrated Service Network.                                effective funding distributions for care of these
Conclusion: Inadequate capacity in some                       veterans to all of the 22 VISNs. This funding
   of the network's clinical services has                     distribution is estimated to total $1.48 billion in FY
   restricted the availability of care to                     2001.
   veterans.
Impact: Better use of $1.48 billion.                          The VISN 8 Director concurred with the
                                                              recommendations to address network clinic
The audit examined the provision of health care               overcapacity issues and provided acceptable
services to veterans enrolled for medical care in             implementation plans. The Under Secretary for
VISN 8 in accordance with the VA medical                      Health deferred responding to the recommendation
benefits package. We found that the inventory of              to include priority group 7 veterans in the VERA
network clinical services provides enrolled                   system until other options are considered. The
veterans most of the services described in the                Under Secretary has requested that the Office of
medical benefits package. However, the network                Policy and Planning establish a work group to fully
is unable to provide veterans with timely access to           study the issues of geographic means test/price
some of its clinical services because of clinic               adjustments and the impact on health care delivery
overcrowding. The network and its facilities are              to all veteran priority groups. We consider the
actively seeking solutions to the overcrowding of             recommendation unresolved until the results of the
its clinics and the associated long waiting times that        study are completed and specific implementation
some patients experience.                                     actions are provided that meet the intent of our
                                                              recommendation. (Audit of Availability of
The significant increases in patient enrollments              Healthcare Services in the Florida/Puerto Rico
experienced over the past several years, as well as           Veterans Integrated Service Network (VISN) 8,
the projected increases in future veteran                     01-00057-55, 8/13/01)
enrollments without increased resources, will
obstruct network and facility efforts to treat
veterans more promptly. In the long-term, the
network's efforts to improve clinic timeliness and




                                                         40
                                                                                             Office of Audit

Issue: VAMC management of engineering                      that VHA encourage VAMCs to: (i) avoid
   supply inventories.                                     unnecessarily large quantity purchases and, when
Conclusion: VAMCs could reduce large                       feasible, make more use of small quantity
   excess inventories by using                             purchases from local suppliers; and (ii) minimize
   automation, purchasing smaller                          the number of engineering supply storage locations.
   quantities, and consolidating storage                   We estimated that better management could
   locations.                                              reduce VHA-wide engineering supply inventories
Impact: Better use of $168 million.                        by $168 million. The Under Secretary for Health
                                                           concurred with the recommendations and provided
We performed an audit to evaluate how effectively          acceptable implementation plans. (Audit of VA
VAMCs managed their engineering supply                     Medical Center Management of Engineering
inventories. This was the fourth in a series of            Supply Inventories, 99-00192-65, 4/4/01)
audits to assess VHA inventory management
practices for various categories of supplies. In FY        Issue: Treatment of non-veterans at
2000, VAMC engineering supply purchases totaled               VAMC San Juan, Puerto Rico.
$99 million. At any given time during FY 2000, the         Conclusion: The VAMC provided health
value of VAMC inventories was $230 million.                   care services to non-veterans that
VAMC engineering supply inventories substantially             were not in accordance with VA
exceeded current operating needs. Our audit at                policies.
five VAMCs with combined engineering supply                Impact: Better use of $137,000.
inventories valued at $5.4 million found that $3.6
million (67 percent) was excess.                           We conducted a review of health care services
                                                           provided to non-veterans at the request of the
The excess inventories occurred because VAMCs              Director, Florida/Puerto Rico VISN 8. The
relied on informal inventory methods and cushions          Network Director was concerned that care was
of excess stock as a substitute for more structured        being provided to non-veterans under the auspices
inventory management. Inventory managers had               of humanitarian and employee care, and that the
not consistently or systematically determined their        facility had not established appropriate sharing
current inventory requirements based on item               agreements. The review also focused on two
demand, safety requirements, and replenishment             other areas of concern involving VA physicians
cycles. The recently issued VHA inventory                  who were alleged to be using VA resources to
management handbook requires VAMCs to use                  further their private practices, and the
automated inventory systems to manage all                  appropriateness of payments made to a private
categories of supplies. VAMC compliance with               health care provider; however, our review did not
the new handbook should address most of the                substantiate these two issues.
problems identified during the audit. However, we
identified two inventory problems that were                We confirmed VAMC San Juan did not follow
particular to engineering supplies: (i) VAMCs              VHA directives when it provided humanitarian and
made unnecessarily large purchases of engineering          medical services to non-veterans. Services were
supplies, which increased the risk the supplies            inappropriately provided to non-veterans under
might never be used; and (ii) VAMCs stored                 health care agreements negotiated directly with
supplies in too many locations, which made it              third party insurers and reported by the facility as
impossible to effectively manage inventories.              either humanitarian or reimbursable care. The
                                                           review also found the VAMC inappropriately
To further improve VAMC management of                      provided non-emergency, non-job related medical
engineering supply inventories, we recommended




                                                      41
Office of Audit

services to employees. Controls over employee                 reported the highest sharing agreement revenues
health care services at the facility have historically        during FY 1999. We found that VHA needed to
been weak.                                                    strengthen management controls and oversight to
                                                              ensure that VA reimbursements were reasonable
We also found the VAMC needed to strengthen                   and interests were protected.
controls over billings for Department of Defense
(DoD) health care services. Our review of billings            We concluded that strengthened management
for health care services provided under sharing               controls in the sharing agreement program will
agreements with DoD disclosed 175 instances                   ensure the program maximizes revenue generation
where the facility's clinics provided treatment, but          while also benefiting veterans and protecting VA's
did not refer the cases to the finance office for             interests. During our evaluation, VHA issued
billing. We estimate these services, if billed, would         VHA Directive 1660.1 and the Office of Financial
total approximately $137,000. The VISN 8                      Policy issued Bulletin 01GC2.03 to address
Director agreed with the report recommendations               weaknesses in the sharing agreement program's
and provided appropriate implementation actions.              management and oversight. Therefore, we are
(Review of Treatment of Non-Veterans at VAMC                  making no recommendations at this time.
San Juan, PR, 01-00759-69, 5/18/01)                           However, we may revisit this subject after policy
                                                              changes have been in operation long enough to
                                                              fully assess their effectiveness. (Memorandum
Program Management                                            Report, Evaluation of Enhanced Health Care
                                                              Resources Sharing Authority, 00-02772-105,
Issue: Enhanced health care resources                         8/30/01)
   sharing authority.
Conclusion: Strengthened controls in the
                                                              Issue: VA Enhanced-Use Lease (EUL)
   sharing agreement program will
                                                                 program.
   ensure maximum revenue generation
                                                              Conclusion: EULs provide a cost-
   while protecting VA's interests.
                                                                 effective way to use undeveloped or
Impact: Improved management and
                                                                 underutilized property to generate
   operations.
                                                                 revenues, defray costs, and benefit
                                                                 veterans.
We evaluated VHA enhanced health care                         Impact: Enhanced revenues.
resources sharing authority (sharing agreements)
used to sell health care resources and services.
                                                              Public Law 102-86 enacted August 14, 1991,
Public Law 104-262, October 9, 1996, greatly
                                                              authorized VA to lease undeveloped or
expanded the scope of VA's sharing agreement
                                                              underutilized property for compensation in the form
authority. The legislation allowed VA to use its
                                                              of cash and/or in-kind considerations. The law
sharing agreement authority to sell VHA health
                                                              required EULs to contribute to VA's mission,
care and administrative resources to public and
                                                              enhance the use of VA property, and provide VA
private non-DoD sharing partners. During FY
                                                              with fair compensation.
1999, VHA reported selling over $35 million in
services and resources to non-DoD sharing
partners.                                                     We reviewed 5 of the 17 EULs in effect as of
                                                              December 1, 2000. The five EULs were
We conducted a detailed telephone survey of the               implemented between August 1993 and December
sharing agreement process and reviewed 1 sharing              1999, and included leases to construct housing for
agreement from each of the 10 VHA facilities that             the homeless, a child development center, a




                                                         42
                                                                                              Office of Audit

colocated VARO, and an energy cogeneration                 CY 2000 database sample were supported by
plant; there was also one agreement to lease out a         signed means tests. In our opinion, the degree of
VAMC golf course.                                          accuracy found provides reasonable assurance that
                                                           the HEC has signed means tests for the cases they
We determined the program operated effectively             plan to match for CYs 1999 and 2000. However,
with adequate management oversight. In addition,           two CY 1999 means tests were not signed; four
VA is currently drafting policy changes that will          were signed by someone other than the veteran,
streamline the process. Based on our evaluation,           but the HEC had no evidence that the person
we concluded that EULs provided VA with a cost-            reporting the veteran's income was the veteran's
effective way to use undeveloped or underutilized          legal representative. We also found that 10 CY
property to generate revenues, defray operating            1999 means tests and 5 CY 2000 means tests were
costs, and benefit veterans. However, we may               not dated.
revisit this subject after VA's policy changes
designed to streamline the process are                     We recommended that the HEC improve controls
implemented and in operation long enough to fully          to ensure that means tests are signed and dated by
assess their effectiveness. (Memorandum Report,            the veterans or their legal representatives, and that
Evaluation of the VA Enhanced-Use Lease                    the HEC maintains documentation supporting the
Program, 00-02773-106, 7/13/01)                            authority of representatives to sign on behalf of the
                                                           veterans. The Under Secretary for Health
Issue: VA centralized means test pilot                     concurred with the findings and recommendations
   program evaluation.                                     and stated that VHA is in the process of
Conclusion: Health Eligibility Center                      determining from legal counsel who may legally
   (HEC) needs to improve internal                         sign a means test on behalf of veterans. When the
   controls.                                               legal opinion is received, the recommendations will
                                                           be implemented through appropriate policy and
Impact: Assuring program integrity.
                                                           software modifications. However, clarification as
                                                           to who may legally sign a means test on behalf of
The HEC requested the OIG conduct an
                                                           veterans is also a matter of negotiation between
evaluation of the income verification pilot program
                                                           the IRS and VHA. The Under Secretary should
to ensure internal controls provide adequate
                                                           ensure the IRS accepts the opinion before making
assurance that VA has appropriately signed means
                                                           any final changes to the process. (Evaluation of
tests of record for income verification matching
                                                           the Department of Veterans Affairs Health
with the IRS and SSA. The HEC proposes to
                                                           Eligibility Centralized Means Test Pilot
match calendar years (CYs) 1999 and 2000 means
                                                           Program, 00-02165-119, 8/1/01)
tests records for veterans receiving care at
VAMCs located in VISN 1 and in North Carolina.
The CY 2000 records the HEC plans to match also
include means tests imaged to the HEC by VAMC
Memphis.

We reviewed records randomly selected from the
HEC CY 1999 and 2000 pilot program databases
to verify that all records were supported by signed
means tests on file at the HEC. We determined
that 98 percent of the records in the CY 1999
database sample and 100 percent of the records in




                                                      43
Office of Audit

Office of Management                                       2000, 00-01702-91, 6/26/01;
                                                           (ii) Management Letter: Audit of VA's FY 2000
                                                           Consolidated Financial Statements General
VA's Consolidated Financial                                Computer Controls Review at VAMC Bay Pines,
Statements                                                 FL, 00-01702-96, 6/26/01;
                                                           (iii) Management Letter: Audit of VA's FY 2000
Issue: Financial management.                               Consolidated Financial Statements General
Conclusion: Management letters were                        Computer Controls Review at Austin Automation
   issued to assist the Department in                      Center, 00-01702-97, 6/22/01;
   improving financial management.                         (iv) Management Letter: Audit of VA's FY 2000
Impact: Improved financial reporting and                   Consolidated Financial Statements General
                                                           Computer Controls Review at Philadelphia
   control.
                                                           Benefits Delivery Center, 00-01702-98, 6/26/
                                                           01;
The independent public accounting firm Deloitte &
                                                           (v) Management Letter: Audit of VA's FY 2000
Touche LLP performed VA's Consolidated
                                                           Consolidated Financial Statements General
Financial Statements (CFS) audit for the OIG. As
                                                           Computer Controls Review at Hines Benefits
part of the audit, we issued six management letters
                                                           Delivery Center, 00-01702-99, 6/26/01; and
addressing financial reporting and control issues.
                                                           (vi) Management Letter: Audit of VA's FY 2000
The management letters provided VA managers
                                                           Consolidated Financial Statements General
additional observations and advice that will enable        Computer Controls Review at VAMC
the Department to improve accounting operations
                                                           Martinsburg, WV, 00-01702-100, 6/26/01]
and controls.
                                                           Issue: Public Law 104-208, Federal
One management letter: (i) reiterates the five                Financial Management Improvement
reportable conditions, including two material                 Act of 1996.
weaknesses, identified in our previously issued            Conclusion: Correction of noncompliance
CFS audit report No. 00-01702-50 (Audit of the                items is in-process.
Department of Veterans Affairs Consolidated                Impact: Improved stewardship of VA
Financial Statements for FYs 2000 and 1999,                   assets and resources, and better
February 28, 2001); (ii) discusses three other                management information.
matters also included in the report; and (iii)
provides eight additional observations and
                                                           Correction is in-process for items shown in our
recommendations from the audit to further assist
                                                           report on VA's consolidated financial statements as
the department in improving internal controls and
                                                           being noncompliant with Public Law 102-208
financial reporting. The management letter also
                                                           requirements. VA has taken a number of steps to
shows the results of the follow up of prior year
                                                           establish a comprehensive information system
CFS audit findings.
                                                           security program. The Department's target
                                                           completion date is FY 2003. Corrective action
The other five management letters discuss
                                                           was substantially completed on housing credit
automated data processing control and security at
                                                           assistance program financial system
VA data processing centers. The contractor and
                                                           noncompliance items reported in our report on
OIG staff continue to work with VA staff on these
                                                           VA's FY 1999 consolidated financial statements.
issues as we proceed on the audit of VA's FY
2001 CFS. [(i) Management Letter: Audit of
                                                           In our report on VA's FY 2000 consolidated
VA's CFS for the Year Ended September 30,
                                                           financial statements, we added one new item -
                                                           noncompliance with OMB financial management



                                                      44
                                                                                              Office of Audit

system requirements. VA is in the process of                Postaward Contract Reviews
developing and testing a replacement core financial
management and logistics system. Roll-out of the            Issue: Contractor overcharges for
new system is scheduled to begin April 2003.                   pharmaceuticals and medical supplies.
                                                            Conclusion: Postaward reviews and
Regarding previously reported noncompliance with                  surveys disclosed overcharges.
managerial cost accounting requirements, VA's               Impact: Recovery of $4.2 million
National Cemetery Administration completed
testing and converting system data during FY 2000
                                                            l   We completed four reviews of pharmaceutical
and will be fully implemented in FY 2003. VHA's
                                                            manufacturers' contractual compliance with
target implementation is expected to be in FY
                                                            specific provisions of their FSS contracts.
2002, permitting the cost system to be modified to
                                                            Recoveries amounted to $4.1 million.
include allocated costs such as accrued annual
leave and judgment fund costs.
                                                            l We completed one review of a medical supply
                                                            manufacturers' contractual compliance with
Preaward Contract Reviews                                   specific provisions of their FSS contract.
                                                            Recovery amounted to $105,000.
Issue: Federal Supply Schedule (FSS)
   vendors' best prices.                                    l   We completed four Public Law 102-585
Conclusion: Vendors can offer better                        compliance reviews at pharmaceutical companies,
   prices to VA.                                            with recoveries amounting to $40,000.
Impact: Potential better use of
   $5.9 million.

l   Preaward reviews of a diagnostic test kit and
                                                            Office of the Secretary
reagent manufacturer's offer resulted in potential
savings of $4.9 million.                                    Issue: Management of VA acquisition
                                                               process.
l Preaward reviews of two medical equipment                 Conclusion: VA needs to improve buying
and supply companies' offers resulted in potential             practices.
savings of $1 million.                                      Impact: Better use of funds.

Issue: Health care resource contracts.                      Preparation of this report followed a discussion
Conclusion: VA can negotiate reduced                        between the Secretary and the IG regarding the
   contract costs.                                          management of VA's acquisition process. The
Impact: Potential better use of                             OIG performed an analysis of data obtained during
   $1.6 million.                                            various OIG reviews relating to: (i) vendors selling
                                                            medical/surgical supplies and equipment, (ii)
We completed reviews of four proposals involving            vendors selling pharmaceuticals to VAMCs, and
scarce medical specialists' services. We                    (iii) the purchasing practices employed by VAMCs.
concluded that the contracting officer should               Our analysis of VA's open-market buying and
negotiate reductions of $1.6 million to the proposed        contracting practices, and our review of
contract costs.                                             commercial buying and selling practices, has led us
                                                            to the conclusion that VA is not leveraging its
                                                            purchasing power through prudent acquisition




                                                       45
Office of Audit

practices to obtain best prices considering the                  authorized by the Department's Procurement
volume of items purchased.                                       Executive or designee; (iii) that VA implement a
                                                                 program to monitor local purchasing and hold local
As a result of making FSS contracts non-                         officials accountable for not complying with
mandatory sources of supply, there has been an                   provisions in the Veterans Administration
increase in open-market purchases by VAMCs,                      Acquisition Regulations and Federal Acquisition
often without attempts by the centers to either                  Regulations; and (iv) that policy be made limiting
negotiate prices or determine price reasonableness.              contracts with distributors to distribution services
The term "open-market" describes the purchase of                 only, unless the distributor can show that it is
goods and services that are not on contract. In                  responsible for negotiating and establishing prices
increasing numbers, vendors have: (i) withdrawn                  for items it distributes to the manufacturers'
high-volume medical supply items from FSS                        commercial customers. (Evaluation of the
contracts, (ii) refused to negotiate in good faith, (iii)        Department of Veterans Affairs Purchasing
cancelled contracts, or (iv) not submitted proposals             Practices, 01-01855-75, 5/15/01)
for FSS contracts. Notwithstanding the fact that
these vendors no longer have contracts, they have
not lost their VA market share because they
continue to sell in large volumes to individual
VAMCs. In addition, they can sell products made
in non-designated countries directly to VA facilities
that they cannot sell on FSS or other contracts
because of the Trade Agreements Act
requirements. Also, our review of purchase card
records, invoices, purchase orders, procurement
history files, and other related records, lead us to
believe that VHA is purchasing open-market
health care items in amounts greater than the 20-
percent maximum allowed under Title 38 U.S.C.
§8125(b)(3)(A). These conditions are a result of
the widespread and essentially unmonitored, use of
purchase cards in conjunction with the
decentralization of purchasing authority to VA
medical centers.

To alleviate these conditions and improve VA's
buying practices, we believe VA management
should consider the following: (i) that VA facilities
be required to purchase items that are on national
contracts, such as FSS, and that the FSS and other
national contracts be mandatory sources of
medical/surgical supplies and equipment and
pharmaceuticals unless otherwise determined by
the Department's Procurement Executive; (ii) that
local contracts be specifically prohibited unless




                                                            46
                                                                       Office of Healthcare Inspections

OFFICE OF HEALTHCARE INSPECTIONS
Mission Statement                                          l We completed 15 Hotline cases, reviewed 38
                                                           issues, and developed 74 recommendations to
    Promote the principles of continuous quality           correct conditions identified and improve the care
    improvement to provide effective                       and services provided to patients.
    inspections, oversight, and consultation to
    enhance and strengthen the quality of VA's             l   We monitored the completion of another 162
    health care programs.                                  Hotline cases by VHA, reviewed 475 issues, and
                                                           assessed, based on the evidence VHA presented,
                                                           their plans to implement 126 recommendations
Resources                                                  intended to improve the quality of care and
                                                           services provided patients. Of these 162 cases,
The Office of Healthcare Inspections (OHI) has             we requested additional information on 45 VHA
34 FTE allocated to staff headquarters and field           responses (28 percent) because not all of the
operations. The following chart shows the                  issues were addressed or satisfactorily resolved.
allocation of resources utilized in inspecting each
of VA's major health care areas.                           l   We provided clinical consultative support to
                                                           investigators on six criminal cases.

                                                           l   We followed-up on recommendations made at
                                   Technical               four medical centers to ensure managers acted on
                                    Reviews                their implementation plans to improve care and
                                      5%
                                                           services.
     CAPs
      70%                            Oversights
                                       10%                 l We completed 37 technical reviews on
                                                           recommended legislation, new and revised policies,
                                                           new VA program initiatives, and external draft
                                  Hotline                  reports.
                                Inspections
                                    15%
                                                           l   We oversaw the work of the Office of the
                                                           Medical Inspector on one project and consulted
                                                           with the Office of Research Compliance and
                                                           Assurance on one project.
Overall Performance
                                                           Outcome
Output                                                     l Overall, we made or monitored the
Inspectors completed 242 initiatives this reporting        implementation of 292 recommendations to
period.                                                    improve the quality of care and services provided
                                                           to patients and their families. VHA implementation
l   We participated in 16 CAP reviews, evaluated           plans will improve clinical care delivery,
115 health care related issues, and developed 92           management efficiency, patient safety, and
recommendations to improve operations and                  employees' accountability for their actions.
activities, and the care and services provided to
patients.




                                                      47
Office of Healthcare Inspections

Veterans Health                                              Issue: Appropriateness of care provided
                                                                to a VA patient in a medical emergency.
Administration                                               Conclusion: Standard of care was not
                                                                 met.
                                                             Impact: System improvements taken to
Healthcare Inspections (Hotline
                                                                respond to medical emergencies.
Cases)
                                                             A complainant alleged that an inpatient died as a
Issue: End-of-life care in the nursing                       result of a clinician's refusal to appropriately care
   home care unit (NHCU).                                    for the patient before or during his collapse and
Conclusion: VHA policies were not                            unsuccessful resuscitation. We found that the
   followed and standards of care were                       standards of care were not met in this case and
   not met.                                                  recommended corrective actions.
Impact: Improved procedures, clinician
   training, and standards.                                  The Director concurred and had already begun
                                                             taking administrative action and making several
We reviewed the adequacy of end-of-life care                 systems improvements. Administrative actions
provided to a patient in the VA facility NHCU.               were initiated, pulse oximeters were placed on all
We substantiated the allegation that clinicians'             wards, and employees received training on using
actions in this case were not consistent with VHA            aerosol bronchodilators and how to respond to and
regulations and the standards of care were not               document medical emergencies. Managers also
met. Caregivers did not provide oral food and                revamped procedures to improve response times
fluids to a patient who was capable of consuming             and use of the overhead paging system.
food and fluids when fed. Although VHA policy                (Healthcare Inspection - Quality of Care
allows for withdrawal of "life sustaining treatment,"        Provided to a Patient, VA Gulf Coast Veterans
it does not permit withholding oral food and fluids          Health Care System, Biloxi, MS, 00-02729-94,
from a patient.                                              7/3/01)

As a result of the inspection, the facility Director:
(i) strengthened health care system policies for
end-of-life care, including the withholding of oral
foods and fluids; (ii) examined and strengthened
the facility's bio-ethics advisory committee's
function in advising clinicians and administrative
employees; (iii) assessed the responsible clinicians'
conduct and took administrative actions; and (iv)
strengthened procedures for overseeing the
competencies of sitters hired by families to work
with patients. (End-of-Life Care Issue, VA Palo
Alto California Healthcare System, Palo Alto,                   VA Gulf Coast Veterans Health Care System
                                                                                Biloxi, MS
CA, 00-01293-42, 4/26/01)




                                                        48
                                                                        Office of Healthcare Inspections

Issue: Contract nursing home placement                      Issue: Patient abuse.
   and follow up coordination.                              Conclusion: Managers' inaction
Conclusion: Standard of care was not met                       contributed to the loss of medical
   and a patient was lost to VA clinical                       evidence needed to determine
   oversight.                                                  whether the patient was abused.
Impact: Pending legal actions and                           Impact: Strengthened procedures and
   enhanced coordination between VA                            controls to improve patient safety.
   facilities.
                                                            The Chairman of the Senate Committee on
Senator Christopher Bond's staff asked us to                Veterans' Affairs and the VHA Office of Medical
review an allegation that a patient discharged from         Inspector asked that we review an allegation that a
the VAMC and placed in a contract nursing home              patient was abused while he was hospitalized at a
did not receive adequate care at the contract               VA facility in 1998. The patient asserted that an
facility. At the time of discharge to the contract          employee hit him in the eye resulting in permanent
nursing home, the patient was clinically stable and         lost of sight in his left eye. We found that: (i) the
agreeable to the placement. However, VA clinical            patient sustained an injury to his left eye after his
managers concluded that the standard of care was            admission to the VA facility, leading to the inability
not met at the contract nursing home because of             to see out of his eye; (ii) the Director should have,
lapses in documentation about the patient's                 but did not conduct an administrative investigation
condition, and the excessive time it took to provide        of the issue at the time of the injury; and (iii) the
the patient with urgent medical care. We agreed             patient and family were not informed of available
with the VA facility's findings. The family                 options for possible compensatory damages as
subsequently chose to pursue legal action against           required by VHA policy. Managers' inaction
the contract nursing home. In addition, the VA              contributed to the loss of medical evidence needed
voided the community nursing home national                  to investigate the case adequately.
contract.

We also noted that because of the distance
between the originating VA facility and the
contract nursing home, the patient's follow up
should have become the responsibility of a VA
facility nearer to the site. However, requisite
communication between social work service
employees at the VA facility out-placing the patient
and VA facility nearer to the contract nursing
home never occurred, and the patient was lost to
VA clinical oversight. The originating medical
center's Director acted to improve discharge                                 VA Medical Center
planning and placement procedures at the VA                                     Danville, IL
facility, and coordination and follow up efforts
                                                            We made three recommendations to strengthen
among area medical centers. (Allegation of
                                                            procedures and controls for improving patient
Wrongful Death in a VA Community Contract
                                                            safety, and informing the family of their options in
Nursing Home, 01-00787-81, 6/1/01)
                                                            this case. The Director concurred with the
                                                            recommendations and provided responsive action
                                                            plans. (Alleged Patient Abuse, Veterans Affairs
                                                            Medical Center Danville, IL, 01-00119-110,
                                                            7/30/01)


                                                       49
Office of Healthcare Inspections

Issue: Quality of care and services,                          and provide the VA facility additional staffing
   management issues, and timely access                       support to reduce long waiting times in primary
   to care.                                                   care and specialty clinics identified during this
Conclusion: Managers needed to focus                          review. (Patient Care and Management Issues
   on improving the quality of care and                       at the West Texas VA Health Care System, Big
   services, management oversight, and                        Spring, TX, 00-00986-80, 5/21/01)
   reducing waiting times in clinics.
Impact: Strengthened transfer policies,                       Issue: NHCU environment.
   improved quality and prosthetic                            Conclusion: Physical plant, sanitation, and
   services, and timely access to                                safety deficiencies need attention.
   outpatient care.                                           Impact: Improved quality and safety for
                                                                 patient residing in the NHCU.
Senator Phil Gramm's office asked us to review
allegations of complaints alleging clinical                   We substantiated allegations concerning the
deficiencies and mismanagement. There was                     NHCU patient care environment including that:
some evidence to show that VA clinicians might                (i) the air conditioning system was not operating
have had a patient transferred from a non-VA                  effectively; (ii) several areas of the NHCU and
hospital burn center back to the VA facility                  various equipment items were badly soiled, and
prematurely. We did not feel it was prudent to                refrigerators contained outdated food and were
transfer the patient, therefore we asked VHA                  dirty; (iii) an exit door alarm to protect wandering
senior officials to intervene, and they provided us           patients was malfunctioning; and (iv) the patients
assurances that the patient received adequate                 and the rooms they occupied were not adequately
care. We also found that employees did not                    identified. In addition, not all patients had adequate
consistently issue medical items to eligible patients,        supplies of drinking water at their bedsides. The
and VISN managers ensured the Director acted to               Director acted to improve the quality of care,
address this issue and clarify related policies and           sanitation, and patient safety issues. (Treatment of
procedures. We found that the VA facility did not             Patients in Nursing Home Care Unit (NHCU) at
                                                              the Department of Veteran Affairs Medical
                                                              Center Philadelphia, PA, 00-02759-128,
                                                              8/14/01)

                                                              Issue: Thirty allegations received.
                                                              Conclusion: Managers needed to resolve
                                                                 numerous issues.
                                                              Impact: Improved access to care, quality
                                                                 of care and services, safety, and
                                                                 tracking bed use.
        West Texas VA Health Care System
                 Big Spring, TX                               We received more than 30 allegations from
                                                              numerous complainants. We concluded that
have a prescribed process for providing clinical              managers needed to confront and resolve
support to Hoptel guests needing medical                      numerous issues at the VA facility. As the result of
assistance, and VHA improved controls, processes              the inspection, the Director: (i) completed a peer
and procedures to address this issue. VHA also                review of the quality of care provided to a patient;
acted to review the appropriateness of privileges             (ii) implemented procedures to identify and track
provided to a clinician, and responded to realign             "near misses"; (iii) reexamined sharing agreement




                                                         50
                                                                            Office of Healthcare Inspections

partner obligations; (iv) followed-up on long                   were denied care or received inadequate care.
outstanding pain clinic consultations; (v) educated             However, we found that patients were diverted to
applicable employees about the availability of and              other VA and non-VA facilities when the VA
protocol for the new pain clinic; (vi) ensured                  hospital was at inpatient capacity and did not have
contracts delineated the process for reporting                  available beds, and that current procedures most
abnormal test results; (vii) ensured Radiology                  likely caused some inconveniences to patients.
Service employees developed a pre-screening
process to improve timeliness of magnetic                       The Director agreed to strengthen the facility's bed
resonance imaging appointments; (viii) developed a              utilization program, work with area managers to
system to reduce delays in providing verified test              establish a proactive VISN-wide bed resource
results to treating physicians; (ix) ensured that               system, develop procedures to more effectively
radiology service managers developed and                        monitor and track patients who are diverted or
implemented a system to monitor quality and                     transferred to other facilities, and develop
timeliness of service; (x) ensured the VA facility's            definitive policies and procedures that address bed
satellite outpatient clinic contract stipulated that all        availability and how bypass status is determined
security guards are physically capable of                       and implemented. (Healthcare Inspection -
intervening in emergency situations; and (xi)                   Alleged Denial of Medical Care to Patients,
improved the tracking and monitoring of bed                     Edward Hines Jr. VA Hospital, Hines, IL, 00-
utilization. (Patient Management at VA Gulf                     01383-82, 7/16/01)
Coast Veterans Health Care System, Biloxi/
Gulfport, MS, 00-01535-43, 4/9/01)                              Issue: Research improprieties.
                                                                Conclusion: Original consent forms were
                                                                   not in patients' medical records.
"The OIG has been consistently helpful                          Impact: Strengthened research consent
and responsive. We have improved                                   policy and improved quality.
patient care significantly as a result of
their findings and recommendations."                            Complainants alleged that the Chief, Research
                                                                Section: (i) conducted research on patients
                                        Director                without appropriately notifying the health care
                          VA Gulf Coast Veterans                team of the protocol and did not place informed
                             Health Care System                 consents in the medical records; (ii) did not use
                                                                sound clinical judgment in the treatment of six
                                                                patients; and (iii) discontinued grand rounds and
Issue: Access to care.                                          omitted home care staff from discharge planning
Conclusion: Patients were not denied                            rounds. We did not confirm that the chief failed to
   care, but better bed use among area                          use sound clinical judgment in treating the six
   facilities was needed.                                       patients. However, we substantiated that the chief
Impact: Improve procedures for                                  had discontinued rounds and omitted home care
   controlling patient admissions and                           employees from discharge planning rounds. We
   transfers.                                                   also noted that original consent forms were not
                                                                always in the patients' medical records. The
A complainant alleged that managers                             Director concurred with our recommendations and
inappropriately denied medical care to a number of              provided acceptable implementation plans.
patients and transferred them to private Chicago                (Alleged Research Improprieties and Quality of
area health care facilities where they received                 Care Issues, Department of Veterans Affairs
inadequate care. We did not confirm that patients               Medical Center Miami, FL, 01-00519-118,
                                                                7/26/01)


                                                           51
Office of Healthcare Inspections

Issue: Adequacy of surgical and inpatient                   controls that required corrective actions. We made
   care.                                                    eight recommendations to improve or enhance
Conclusion: Care was consistent with the                    programs and operations. The Director concurred
   standards at the time.                                   with our recommendations and submitted
Impact: Improvements in documentation,                      responsive action plans. The purpose of this follow
   procedures, and communication.                           up review was to determine the status of action
                                                            plan implementation and effectiveness of
We reviewed the adequacy of two episodes of                 completed corrective actions in selected areas.
care provided to a patient at the facility. We
assessed the adequacy of a cataract excision and            We concluded that medical center managers had
intra-ocular lens placement procedure and the               made significant improvements in programs and
adequacy of the care provided 3 months before the           operations. The medical records review
patient's death in July 1995. We concluded that for         workgroup was actively evaluating medical record
both treatment episodes, the physicians provided            deficiencies. The domiciliary wards were
care that was consistent with the standards at the          generally clean and reasonably maintained. We
time. Managers acted to resolve documentation,              observed construction and maintenance activities
procedural, and communication problems identified           and accepted the Director's established plan to
as the result of their own peer review in this case.        renovate additional domiciliary wards as funds
(Patient Care Issues at the VA Greater Los                  become available. The domiciliary program
Angeles Health Care System, 00-00525-30,                    structure had been redesigned to more
4/3/01)                                                     appropriately support therapeutic programs, and
                                                            performance improvement activities. The post-
Issue: Quality of care and services to                      traumatic stress disorder clinical team had been
   domiciliary patients.                                    reorganized and reflected a higher degree of
Conclusion: Managers acted to improve                       structure and continuity.
   the quality of care and services.
Impact: Improved programs, cleanliness                      Additionally, it appeared that nurse-staffing
   and safety.                                              concerns were being properly addressed, and an
                                                            innovative plan for recruitment and retention was
                                                            being pursued. As an apparent result of improved
In November 1999, we conducted a review and
                                                            communication efforts among managers and
found various deficiencies related to the post-
                                                            employees, grievances decreased in FY 2000.
traumatic stress disorder and domiciliary programs,
                                                            Medical center managers had properly responded
the domiciliary physical environment, clinical
                                                            to the recommendations and implemented the
staffing, employee satisfaction, and internal
                                                            actions outlined in their action plans, resulting in
                                                            noticeable improvements in many areas.
                                                            Managers also agreed to implement several
                                                            suggestions we made to further improve programs
                                                            and operations. (Combined Assessment Program
                                                            Review Follow Up, Carl Vinson VAMC Dublin,
                                                            GA, 00-00358-58, 5/14/01)




          Carl Vinson VA Medical Center
                    Dublin, GA




                                                       52
                                                                         Office of Healthcare Inspections

Issue: Management of intravenous                             Issue: Patients affected by unscheduled
   access sites (heplock care).                                 operating room closure.
Conclusion: Facility had no written policy                   Conclusion: Managers made appropriate
   or procedure for care and maintenance                        arrangements during temporary
   of heplock sites.                                            closure.
Impact: Better controls to ensure proper                     Impact: Enhanced communication
   management and documentation.                                between management and clinicians.

The complainant alleged that clinicians failed to            An anonymous complainant alleged that two
manage his intravenous access site (heplock), an             patients experienced abuse as a result of the
intern treated him improperly, his hospital bathroom         operating room suite closure. We did not
was unsanitary, and his medical records contained            substantiate the allegation. The operating room
false information. Medical center managers                   was closed for needed facility upgrades and
responded adequately to all but one of the issues,           repairs, but managers made appropriate
that of heplock management. The Director agreed              arrangements for the provision of surgical services
to strengthen controls and issue policies and                through other area VA facilities. We did find that
procedures on managing and caring for intravenous
access sites. (Alleged Medical Treatment Issues
at the Department of Veterans Affairs Palo Alto
Health Care System, 00-02885-92, 6/21/01)

Issue: Quality of care provided to patients
   on the extended care unit.
Conclusion: Patients needed to engage in
   daily living activities.
Impact: Better quality of life for patients.

Complainants alleged that nursing employees did
not assist a Parkinson's disease patient with his
meals, and did not adequately treat the patient after                   Edward Hines, Jr. VA Hospital
he lost control of his bladder and bowel and soiled                              Hines, IL
his clothes. Also nursing employees did not help             the emergency department director and employees
other extended care unit patients with their meals.          were not adequately informed of the closure. We
We did not substantiate any of the allegations.              recommended the Director implement measures to
However we found that employees needed to                    ensure that similar communications lapses that may
improve procedures to: (i) ensure that extended              affect emergency patient dispositions and
care unit patients who are able, eat their meals in          treatment decisions do not recur. The Director
the dining room; (ii) the treatment plan and                 concurred with the recommendation and provided
recommended feeding method for the Parkinson's               acceptable implementation plans. (Alleged Patient
disease patient is followed; and (iii) employees             Abuse Due to the Closure of the Operating
develop a routine schedule of activities for                 Room, Edward Hines, Jr. Veterans Hospital,
extended care patients. The Director concurred               Hines, IL, 00-01383-126, 8/7/01)
with the recommendations and provided acceptable
action plans. (Quality of Care Provided to
Patients in the Extended Care Unit, Department
of Veterans Affairs Medical Center Dayton,
OH, 00-02987-109, 7/16/01)


                                                        53
Office of Healthcare Inspections

Issue: Unauthorized treatment for gender                    162 cases reviewed, 45 cases (28 percent)
   identity disorder (GID) patients.                        required further review by VHA managers to
Conclusion: Patients received                               satisfactorily respond to all issues. In these 45
   unauthorized gender-altering                             cases, we contacted VA facilities quality managers
   services.                                                and worked with them until all issues were
Impact: Better understanding of policies                    resolved, or we returned the cases to VHA senior
   on the provision of GID services.                        managers for higher-level review.

Employees alleged that managers inappropriately
approved: (i) treatments for GID patients, (ii)
prosthetics equipment for GID patients, and (iii) a
GID-related research study. We confirmed that
patients received gender-altering services, and
substantiated the allegation that GID patients
received prosthetic equipment in a manner that
was not consistent with VA policy. We did not
substantiate the allegation that managers
inappropriately approved a GID research study.
The Director took action to educate clinicians and
participants of VHA's policy restrictions on
providing GID-related health care, and
strengthened prosthetic service controls for
monitoring and following-up on equipment that is
issued on a temporary basis. (Healthcare
Inspection - Gender Identity Disorder (GID)
Services for Patients at the James H. Quillen
Veterans Affairs Medical Center, Mountain
Home, TN, 01-00223-111, 8/30/01)

Healthcare Inspections (Oversight
Inquiries)

During the reporting period, OHI oversaw the
completion of 162 Hotline cases referred to VHA
for action. Of these cases, 475 allegations were
addressed of which 361 were not substantiated (76
percent) based on the evidence presented by
VHA. The remaining 114 allegations had merit
based on the information available, and VA
managers acted to create new or strengthen
existing procedures, take administrative actions,
offer more education and training, improve quality
of services, strengthen patient safety, enhance the
physical plant environment, and realign resources.
In addition, our oversight efforts found that of the




                                                       54
                                                               Office of Management & Administration

OFFICE OF MANAGEMENT &
ADMINISTRATION
Mission Statement                                           (MCI) system, the OIG's primary information
                                                            system for case management and decision-making.
    Promote OIG organizational effectiveness                The Data Analysis section, located in Austin, TX
    and efficiency by providing reliable and                provides data processing support, such as computer
    timely management and administrative                    matching and data extraction from VA databases.
    support, and providing products and services
    that promote the overall mission and goals of           IV. Resources Management Division - The
    the OIG. Strive to ensure that all allegations          Division is responsible for OIG financial
    communicated to the OIG are effectively                 operations, including budget formulation and
    monitored and resolved in a timely, efficient,          execution, OIG personnel management, and all
    and impartial manner.                                   other OIG administrative support services.

The Office of Management and Administration is a            Resources
diverse organization responsible for a wide range of
administrative and operational support functions.           The Office of Management and Administration has
The Office includes four Divisions:                         52 FTE allocated to the following areas.

I. Hotline Division - The Division is responsible
for determining action to be taken on allegations
                                                                                         Operational
received by the OIG Hotline. The Division receives                                        Support
thousands of contacts annually, mostly from                                                 17%
veterans, VA employees, and Congress. The work                  IT & Data
includes controlling and referring many cases to the             Analysis
Office of Investigation, Office of Audit, and Office               37%
of Healthcare Inspections or impartial VA
                                                                                               Resources
components for review.                                                                        Management
                                                                                                  29%
II. Operational Support Division - The Division                          Hotline
does follow up tracking of OIG report                                     17%
recommendations; Freedom of Information Act
releases; strategic, operational, and performance
planning; and IG reporting and policy development.

III. Information Technology (IT) and Data
Analysis Division - The Division manages
nationwide IT support, systems development and
integration; represents the OIG on numerous intra-
and inter-agency IT organizations; and does
strategic IT planning for all OIG requirements.
The Division also maintains the Master Case Index




                                                       55
Office of Management & Administration

I. HOTLINE DIVISION                                         these and the remaining 482 cases were referred to
                                                            VA program offices for review.

Mission Statement                                           Output
                                                            l    During the reporting period, Hotline staff
    Ensures that allegations of fraud, waste,               closed 630 cases, of which 181 contained
    abuse, and mismanagement are responded to               substantiated allegations (29 percent). The Hotline
    in an efficient and effective manner.                   staff generated 104 letters responding to inquiries
                                                            received from members of the Senate and House of
The Division operates a toll-free telephone service         Representatives.
5 days a week, Monday through Friday, from 8:30
AM to 4 PM Eastern Time. Phone calls, letters,              Outcome
and e-mail messages are received from employees,            l VA managers imposed 59 administrative
veterans, the general public, Congress, U.S.                sanctions against employees and took 73 corrective
General Accounting Office, and other Federal                actions to improve operations and activities as the
agencies reporting issues of fraud, waste, and              result of these reviews. The monetary impact
abuse. Due consideration is given to all complaints         resulting from these cases totaled $888,728.
and allegations received; mission-related issues are
addressed by OIG or other Departmental staff.               The Hotline Division's most significant leads are
                                                            referred to other OIG elements. The Hotline staff
Resources                                                   also retain oversight on a number of other cases
                                                            that are referred to VA program officials for
The Hotline Division has nine FTE staff positions.          resolution.
The following chart shows the estimated percentage
of resources devoted to various program areas.              The Hotline staff worked with VA program offices
                                                            on allegations concerning patient care and services,
                                                            quality of care issues, employee misconduct,
                                                            outside employment concerns, contracting
                               VBA                          activities, Government equipment and supplies,
                               15%                          time and attendance, and ethical improprieties.
                                                            Hotline staff also worked with VBA on allegations
                                     A&MM                   concerning the payment of compensation and
       VHA                            12%
       56%
                                                            pension to incarcerated veterans, and benefits
                                                            awarded to veterans and beneficiaries who were not
                                     Information
                                     Technology             entitled to receive payments.
                                          6%

                       Management
                                                            The following are some examples of Hotline-
                          11%                               prompted reviews that were closed during this
                                                            reporting period.


 Overall Performance

During the reporting period, the Hotline received
8,324 contacts. Of this number, 650 cases were
opened. The OIG reviewed 168 (26 percent) of




                                                       56
                                                                  Office of Management & Administration

Veterans Health                                               However, management has since reassessed this
                                                              position and increased efforts to recruit additional
Administration                                                staff and negotiate contracts with the affiliated
                                                              university to provide services.
Quality of Care
                                                              l A VHA review found there was a 21-minute
l In response to a Hotline inquiry, an                        delay in transporting a work therapy grounds
investigation by the VHA Office of the Medical                employee to the VAMC for treatment. The review
Inspector found that a veteran's treatment for                revealed the employee was suffering from what
bladder cancer was delayed. Although the veteran              appeared to be a seizure or a diabetic episode, and
was held responsible for this delay because he                the station bus driver who assisted the employee did
refused to be treated by residents, the Office of the         not follow established procedures for notifying the
Medical Inspector reviewers were concerned that               facility about the employee's medical emergency.
the veteran's request resulted in the delay in                Management has reissued a station memorandum
treatment of a serious condition. This matter was             on emergency medical responses on facility grounds
referred to the medical center's ethics committee for         to all division managers for review with all
consideration.                                                employees.


l    A VHA review at a VAMC substantiated an                  l    A VHA review found a lack of supervision by
allegation of employee disrespect to patients. Since          attending physicians in the intensive care unit. The
this was the second such occurrence by the                    attending physician involvement was not routinely
employee, management proposed termination.                    documented for 30 percent of the unit patients. The
Additionally, the VHA review substantiated an                 chief of staff met with each specialty director to
allegation of unnecessary pre-operative tests                 reinforce the requirement that daily involvement in
because the tests had previously been completed at            the care of critically ill patients must be
other VAMCs and the diagnostic results could have             documented without exception, and recommended
been obtained from the other facilities. As a result,         to the clinical executive board that the attending
the clinical affairs associate director will reiterate        physician must co-sign all unit progress notes.
the policy of accepting diagnostic results from
other VAMCs.                                                  l    A VHA review found the issuance of an
                                                              incorrect medication and poor communications with
l    A VHA review found excessive waiting times               a patient. The patient was issued an oral rather
                                                              than a nasal inhaler. Additionally, the pharmacy
in a VAMC's neurology clinic. In response to the
                                                              filled a partial prescription for the veteran, but
high demand for services, the facility is currently
                                                              neglected to run an extra medication label for the
recruiting for a part time neurologist. Neurological
                                                              balance of his prescription order. The VAMC has
services will also be offered at their community
                                                              taken corrective actions to reduce the chance of
based outpatient clinic. Additionally, the primary
                                                              future errors. The pharmacy supervisor corrected
care staff is being educated on the proper procedure
                                                              the error and the veteran was issued the balance of
for referrals to specialty clinics.
                                                              his prescription refill.
l A VHA review found that an outpatient clinic
                                                              l A VHA review found a work incentive program
was experiencing staff shortages because of
                                                              that had been promised to participants of a
significant physician turnover. The VAMC initially
                                                              methadone clinic by the end of 2000 had not been
anticipated being able to absorb the workload into
                                                              established. The review also found some consult
the schedules of physicians who remained.




                                                         57
Office of Management & Administration

referrals to primary care or specialty clinics had            when emergency social work services can not be
not resulted in appointments. As a result,                    provided during off tours.
implementation of the work incentive program has
been assigned to the new mental health service line           l A VHA review found that erroneous entries
director and new appointments have been                       were made in a veteran's computerized account for
scheduled.                                                    medication that he received. A review of the
                                                              process identified a computer malfunction in VA's
l A VHA review found a veteran was abusing her                computerized patient record system. As a result,
fee-basis eligibility and obtaining excessive                 the VAMC notified the national online information
quantities of narcotic drugs from a VAMC. As a                system and medical staff have been trained to
result, the veteran's fee-basis care eligibility was          identify these computer malfunctions as they occur.
terminated and she is no longer receiving medical
care at the VAMC.                                             l A VHA review found an outpatient clinic was
                                                              delinquent in providing a veteran his x-ray results.
l   A VHA review found a facility failed to inform            The x-ray was taken at a community based
a veteran that he had not been placed on the liver            outpatient clinic and should have been sent to the
transplant waiting list due to serious medical                VAMC for interpretation, however the x-rays were
complications. Since the medical complications                never received. A second set of x-rays was taken,
have been resolved, the patient was accepted at               interpreted, and the results were provided to the
VA's national transplant center.                              veteran. As a result, the facility has implemented a
                                                              weekly accountability process for diagnostic tests
l A VHA review found there was a delay in the                 completed off station.
nursing service's response to a call for assistance
and that a nurse made inappropriate comments to a             l A VHA review found a veteran's diagnosis and
patient's son. As a result, the chief nurse met with          treatment were delayed. The clinicians' failure to
each individual staff member involved in the                  perform an examination and follow up on important
incident to review staff coverage, communication,             laboratory test results resulted in a delay in the
and customer service. Management is conducting                veteran's diagnosis of colon cancer. As a result, the
additional training for diffusing potentially volatile        clinicians involved were counseled on the correct
situations. Management is also developing policies            procedures for diagnostic follow up and screening.
and procedures governing lunch coverage,
appropriate lines of communication concerning                 l    A VHA review found a VAMC failed to provide
change in patient's condition, and the correct                food and medication to a patient, failed to provide
procedure for summoning help.                                 instructions to the patient for a new prescription,
                                                              and allowed an unauthorized individual access to a
l A VHA review found a patient improperly                     patient's room. As a result, the facility instituted
received a referral to an outside facility for a              corrective actions to preclude future occurrences
magnetic resonance imaging after he was found to              and the VA police arrested the unauthorized
be too large for the imaging equipment at the                 intruder.
facility. The patient should have been admitted to
an observation status bed while a neurologic                  l A VHA review found that a veteran was
consult was obtained. As a result, a physician                admitted to a VAMC center with an obstructed
advisor has been made available during off tour               small intestine and was near death from dehydration
admissions to assist the medical officer on duty.             because medical personnel had removed fluid from
Management also stated that a patient will be                 his body, but failed to replace a commensurate
admitted to a ward or kept in the observation unit            amount. Management has initiated review
                                                              mechanisms to identify potentially adverse patient
                                                              outcomes.


                                                         58
                                                                  Office of Management & Administration

l A VHA review found that a certified registered              veteran's needs as they should have been and some
nurse anesthetist left a patient in the operating room        lapses in courtesy were acknowledged. As a result,
during surgery in the care of an anesthesia                   a notice was posted in the orthopedics clinic
assistant. As a result, the certified registered nurse        directing patients to request wheelchair assistance
anesthetist was counseled as to the expected level            if necessary, and staff were reminded how to handle
of care for patients.                                         late-day patients.

l   A VHA review found that after being                       l   A VHA review found that a patient was not
discharged from a VAMC, a wheelchair-bound                    properly dressed and the environment around him
veteran waited approximately 10 hours before                  was not maintained in a sanitary manner. As a
being transported home by a VAMC-contracted                   result, a protocol for hourly assessments of
ambulance service. As a result, additional                    patients' level of comfort has been developed and a
transport companies are being considered to                   permanent housekeeper has been assigned to the
prevent future recurrences.                                   area.

l A VHA review found a VA surgeon                             l A VHA review substantiated allegations of
inadvertently performed a biopsy of the patient's             poor medical records documentation on the part of
liver while attempting to perform a kidney biopsy.            a care provider, and poor patient education and
As a result, the veteran was been advised of his              communication regarding changes in psychiatric
rights under the Federal Tort Claims Act and the              program structures. The facility has addressed the
benefits claims process under 38 U.S.C. § 1151.               quality of documentation with the appropriate
                                                              provider, and implemented a more comprehensive
l A VHA review found a VAMC physician failed                  patient education program on the types of
to properly educate a patient as to the diagnosis and         psychiatric services provided by the facility.
treatment, and the physician was perceived to have
been discourteous to the patient as a result of busy          Employee Misconduct
schedule. Management instructed the physician to
provide ongoing patient education. Additionally,              l   As a result of a Hotline inquiry, a VHA review
the physician was counseled about being courteous             found a VA employee attempted to sell insurance
and tactful with veterans, even in stressful                  policies to co-workers while on official time. A
situations.                                                   subsequent investigation also found evidence of
                                                              unprofessional and improper behavior by the
l A VHA review determined that a veteran was                  employee during a union meeting. As a result,
denied care at a VA outpatient clinic. Prior to the           disciplinary action was taken against the employee,
veteran's application for care, the clinic had                who also received training in ethical and
reached an established patient limit. As a result of          professional conduct standards.
the Hotline inquiry, and acknowledging that the
veteran's spinal cord injury makes traveling                  l A VHA board of investigation found that a
difficult, the parent VAMC authorized the clinic to           VAMC police sergeant inappropriately ran a
accept the veteran for medical care.                          National Crime Information Center computer check
                                                              to obtain the driving record of a union official.
l    A VHA review found that during the latter part           Management is taking administrative action against
of the workday, a veteran, with a possible broken             the officer. Additionally, a policy letter outlining
ankle, was made to walk throughout the VAMC                   requirements for the use of the computer database
seeking medical attention. The review also found              has been published, and the VAMC is conducting
that VA employees were not as attentive to the                refresher training for all users of the database.




                                                         59
Office of Management & Administration

l A VHA review found that an employee                        of workplace violence. Following the investigation,
improperly used Government property, resources,              the physician manager resigned his position and
and time to make flight arrangements and distribute          mandatory training was given to all operating room
airline tickets in pursuit of her personal business          and anesthesiology staff to address time and
venture. As a result, the employee was given a               attendance, ethical conduct, workplace violence,
written counseling. Additionally, all employees              and sexual harassment.
were reminded of the VAMC's policy on
organizational ethics.                                       l A VHA review found time and attendance
                                                             abuse at a radiology department. The review
l A VHA review found that a VA employee stole                focused on the employee's time sheets from August
a co-worker's purse and attempted to cash one of             2000 to May 2001 and found that an employee
her personal checks. As a result, the VA employee            frequently came to work late, as much as an hour,
was terminated.                                              but was charged only for a portion of the tardiness
                                                             or not charged leave at all. The employee received
l An investigation by the Deputy Assistant
                                                             written counseling and will be charged leave for
Secretary for Security and Law Enforcement found             tardiness and absences not reflected on the
that VAMC police officers improperly certified               employee's time sheets. Additionally, management
firearms qualifications tests and firearms range             has scheduled the timekeeper and the employee's
dimensions. The review found a firearms                      supervisors for refresher training on the
qualification range did not meet standards                   maintenance of time cards and will closely monitor
established by the VA law enforcement training               the employee's tardiness. Management will also
center. The VAMC police chief and two training
                                                             take action against the employee's supervisors.
officers were given proposed suspensions for
falsifying documentation and placed on
administrative leave. The police chief retired and           Fiscal Controls
all police officers were re-qualified by firearms
instructors from a nearby VAMC.                              l As a result of a Hotline inquiry, a VHA and
                                                             employees' union review substantiated an allegation
                                                             of mismanagement concerning a VAMC employee's
l A VHA review found that an employee reported
                                                             enrollment and disenrollment in the union's dental
to work under the influence of drugs, failed to
                                                             plan through a dental trust company. As a result,
report to duty as scheduled, and failed to follow
                                                             union headquarters will work closely with the
appropriate leave request procedures. The
                                                             dental company to ensure enrollments and
employee was also observed sleeping at the
                                                             disenrollments are processed in a timely manner.
computer and unsuccessfully drawing a blood
                                                             The employee was reimbursed by the union for
sample from a patient. As a result, management
                                                             erroneous payroll deductions.
proposed removing the employee.
                                                             l A VHA review found someone used an
Time and Attendance                                          employee's name and Social Security number to
                                                             make a $400 payroll deduction purchase at the
l    A VHA investigation into allegations of time            VAMC canteen. As a result, management has
and attendance abuse found that a VAMC                       instructed employees of the veterans canteen
anesthesiology department was being mismanaged.              service to check the identification badge of
This resulted in confusion among employees about             individuals participating in the voluntary allotment
staff schedules and responsibilities, low morale,            program.
and a pattern of petty jealousies that led to threats




                                                        60
                                                                Office of Management & Administration

l A VHA review found that VAMC patients were                 patient was inappropriately placed in the facility
being reimbursed for beneficiary travel expenses to          domiciliary for care, rather than in a community
which they are not entitled. The review conceded             psychiatric acute care facility. The VAMC
that patients could be receiving reimbursement for           transferred the patient to an appropriate community
round trip airline tickets and taking less expensive         facility for care.
boat transportation for the return trip home. As a
result, management implemented a new procedure               l A VHA review found that patients' meals were
that will deter any instance of fraud and veterans           improperly being stored in the dialysis unit
will be provided with vouchers that can be                   refrigerator which also contained medications and
exchanged for airline tickets.                               patient specimens. The review also found that
                                                             employees were improperly selling Avon products
l    A VHA review found a delay of approximately             in the dialysis unit. Management implemented a
1 year in the payment of an authorized fee basis             policy whereby patients will be given their meals
provider. A fee basis clerk and the accounting staff         prior to visiting the dialysis unit and counseled
attempted to solve the problem without notifying             employees on the selling of Avon products in the
upper level supervisory staff. Once management               VAMC.
had been informed, it was determined that VA had
neglected to enter an electronic funds enrollment            Privacy Issues
file for the fee-based provider. The provider has
since been paid. Management has implemented a                A VHA review found a veteran, who is not
procedure to notify appropriate supervisory staff in         currently receiving care at the medical facility,
the event of payment delays.                                 routinely received medication and appointment
                                                             notices for another veteran who shared his last
Patient Safety                                               name and last six digits of his Social Security
                                                             number. As a result, the chief information officer
l Prompted by a Hotline inquiry, a VHA review                has adjusted the veteran's identifying information
substantiated allegations related to environmental           within the computer system to prevent future
safety, inappropriate treatment, and insufficient            occurrences.
social services at a VA contracted community
residential care home. VAMC management put a                 Government Equipment and Supplies
temporary hold on placements of veterans at the
facility until the areas of concern are remedied and
                                                             l Prompted by a Hotline inquiry, a VHA review
a re-inspection occurs.
                                                             found that a VA employee misused her official time
                                                             when she placed numerous telephone calls to non-
l   A VHA review found that VAMC medical
                                                             VA individuals on non-VA issues during the
personnel inappropriately taped a patient's wrists to
                                                             workday. Management took disciplinary action
the arms of his chair and taped his ankles together.
                                                             against the employee.
As a result, disciplinary action was taken against
the employee who committed the abuse and the four
                                                             l A VHA review found that an employee was
employees who witnessed or heard about the
                                                             playing "fantasy" sports games with other
incident and failed to intervene or report the abuse.
                                                             employees using his Government computer.
                                                             Another employee was found to have improperly
l A VHA review substantiated an allegation of
                                                             kept irregular duty hours. As a result, management
patient safety violations. During a temporary
                                                             has blocked "fantasy" games from all computers,
shutdown of the facility's acute psychiatric unit, a
                                                             and a new tour of duty was approved for the
                                                             employee who kept irregular duty hours.



                                                        61
Office of Management & Administration

l A VHA review found that a VA employee                      Personnel Issues
misused VA letterhead in order to solicit donations
for a private organization. As a result, management          l   A VHA review at a VAMC substantiated the
counseled the employee.                                      allegation of prohibited personnel practices. A
                                                             nurse whose professional license was suspended
Contracting Activity                                         had been placed on a leave without pay status by
                                                             the VAMC. This employee continued to accept her
l  Prompted by a Hotline inquiry, a VISN review              VA paychecks for a period of 78 days.
found irregularities in the initial decision-making          Additionally, her nursing supervisor continued to
process and subsequent award of a contract for the           authorize the suspended employee's timecards in
construction of an approved $48 million                      direct violation of the acting director's instructions.
ambulatory care addition at a VAMC. The review               The VAMC has proposed removal of both
substantiated allegations concerning a potential             employees.
unnecessary award of $800,000 to retrofit the
operating room at the ambulatory care addition, and          l A review conducted by a VAMC determined
additional cost savings in the initial construction          that a nurse manager failed to follow VA, state, and
phase had the original contract included isolated            Federal regulations by ordering a subordinate nurse
power systems in the operating room.                         to take annual leave pending renewal of the nurse's
                                                             nursing license. To correct the situation, the nurse's
l A VAMC review of contract files found that                 annual leave used was reinstated and the nurse was
even though the facility awarded a contract to a             granted administrative leave for those days.
local home health care provider, VAMC personnel              Additionally, the VAMC instituted a review of this
continued to make referrals to non-contract                  policy to ensure familiarity and strict compliance
providers. As a result, the VAMC will ensure                 with applicable regulations.
patients are being divided equally among contract
providers and that non-contract providers are not            Ethical Improprieties
used.
                                                             Prompted by a Hotline inquiry, a VHA
l    A VHA review found a recent renovation failed           investigation found three VA employees frequently
to include grab bars and automatic opening                   accepted gifts from a biomedical equipment
bathroom doors for easy accessibility for the                contractor in the form of food items such as
wheelchair dependent veterans. Management will               doughnuts, pizza, and sandwiches, valued at $30-
use station level funds to install the doors, as well        50 per occurrence. This matter was forwarded to
as grab bars, which have been on back order since            the General Counsel for appropriate action. In
March 2001.                                                  response to this referral, the General Counsel's
                                                             office provided training on the issue of receipt of
l A VHA review found that a VAMC did not have                refreshments from vendors in nationwide broadcast.
a clear procedure pertaining to the laundry/linen            General Counsel provided this training pursuant to
services provided to non-Government contracted               regulations governing ethics training. In addition,
facilities nor did it have procedures in place to            the review determined that neither the biomedical
control the use of VA-marked linen being exchanged           shop nor budget employees were verifying the
between other medical facilities. As a result, the           contractor's invoices. As a result, procedures were
VAMC is reviewing its contract parameters and                revised to require that all invoices be verified by the
services being provided to private facilities and is         budget clerk.
instituting local policies to define resources for
monitoring these services.




                                                        62
                                                                Office of Management & Administration

Abuse of Authority                                           l A VBA review found a veteran's benefits were
                                                             not reduced during incarceration. As a result, the
Prompted by a Hotline inquiry, a VISN review                 veteran's benefits were reduced to 10 percent
found that a VA employee improperly received                 causing an overpayment of $3,403.
health care services from VA. Although the facility
had properly billed the employee (a member of                l A VBA review substantiated the allegation of
upper management at the medical center) for                  problems with administrative services. The review
services totaling $3,810, it was determined this             found that a veteran was improperly billed for a
employee was not eligible for this care. As a result,        debt resulting from non-payment of a home loan.
the VISN's chief executive officer issued a                  As a result, the VARO granted the veteran a pre-
reprimand to the chief of staff, who ordered the             foreclosure waiver, relieving him of the outstanding
services, and to the employee who received the               debt of $11,952, and will refund monies already
services.                                                    paid against the debt.

                                                             Privacy Issues

Veterans Benefits                                            Prompted by a Hotline inquiry, a VBA investigation
Administration                                               found that a violation of the Privacy Act occurred
                                                             when a veteran's VA certificate of eligibility for a
                                                             home loan and the DoD Certificate of Release or
Receipt of VA Benefits                                       Discharge from Active Duty were erroneously
                                                             given to another veteran. The employee involved in
l As the result of a Hotline inquiry, a VBA                  the incident was counseled and provided refresher
review of a widow's records revealed that she                training. The entire staff is now receiving periodic
continued to receive DIC benefits during a 4-year            training to reinforce the importance of preventing a
period when she was remarried. The VARO                      recurrence. Additionally, a system of checks and
created an overpayment of $60,284.                           balances has been integrated to minimize the
                                                             likelihood of a resulting grant of fraudulent
l A VBA review found that a relative of a                    benefits.
deceased veteran improperly cashed a
compensation check of $20,843. However, the
VARO determined this is now a civil issue among
heirs and no further VA action was possible.                 Office of Information and
l A VBA review of a veteran's claims file
                                                             Technology
determined that, although the veteran notified the
VA that he had divorced his first wife and                   As the result of a Hotline inquiry, a VA Central
remarried, the divorced wife continued to receive an         Office review found the receipt of inappropriate
apportionment and to enjoy Civilian Health and               and unsolicited Internet electronic mail by a VA
Medical Program of the Department of Veterans                employee. Consideration will be given to adding
Affairs privileges. The review found the former              general guidance to VA employees on how to
spouse's benefits should have been discontinued in           mitigate this problem within the existing framework
January 1988. The VARO notified program                      of VA Directive 6103, "VA Electronic Mail
managers and proposed a $30,558 overpayment                  System."
against the former spouse.




                                                        63
Office of Management & Administration

Outside Organization                                     Overall Performance

Prompted by a Hotline inquiry, an Office of              Follow Up on OIG Reports
General Counsel review substantiated the
unauthorized use of the Department of Veterans           The Division is responsible for obtaining
Affairs' seal in a mortgage company's literature.        implementation actions on previously issued audits,
The Office of General Counsel contacted the              inspections, and reviews with over $4.1 billion of
company and they agreed to remove the seal from          actual or potential monetary benefits as of
future correspondence.                                   September 30, 2001. Of this amount $2.6 billion is
                                                         resolved, but not yet realized as VA officials have
                                                         agreed to implement the recommendations, but have
                                                         not yet done so. The remaining $1.5 billion
II. OPERATIONAL                                          primarily relates to one audit report; the Under
SUPPORT DIVISION                                         Secretary for Health has deferred concurring or
                                                         non-concurring with the recommendation to include
                                                         priority group 7 veterans in the Veterans Equitable
Mission Statement                                        Resource Allocation system until other options are
                                                         considered.
    Promote OIG organizational effectiveness
    and efficiency by providing reliable and             The Division is also responsible for maintaining the
    timely follow up reporting and tracking on           centralized follow up system that provides for
    OIG recommendations; responding to                   oversight, monitoring, and tracking of all OIG
    Freedom of Information Act (FOIA)/Privacy            recommendations through both resolution and
    Act (PA) requests; conducting policy review          implementation. Resolution and implementation
    and development; strategic, operational, and         actions are monitored to ensure that disagreements
    performance planning; and overseeing                 between OIG and VA management are resolved as
    Inspector General reporting requirements.            promptly as possible and that corrective actions are
                                                         implemented as agreed upon by VA management
Resources                                                officials. VA's Deputy Secretary, as the
                                                         Department's audit resolution official, resolves any
                                                         disagreements about recommendations.
This Division has nine FTE assigned with the
following allocation:                                    As of September 30, 2001, VA had 64 open internal
                                                         OIG reports with 207 unimplemented
                                                         recommendations. After obtaining information that
                                                         showed management officials had fully
            FOIA/PA
                                                         implemented corrective actions, the Division took
              45%                                        action to close 70 reports and 376
                                                         recommendations with a monetary benefit of
                                   Leg. Reviews
                                                         $451 million.
                                        8%


     Follow Up
                                                         Freedom of Information Act, Privacy Act,
        30%                   Planning &                 and Other Disclosure Activities
                               Reports
                                 17%
                                                         The Division processes all OIG FOIA and Privacy
                                                         Act requests from Congress (on behalf of
                                                         constituents), veterans, veterans service


                                                    64
                                                              Office of Management & Administration

organizations, VA employees, news media, law
firms, contractors, complainants, general public,
                                                           Status of OIG Reports
and subjects/witnesses of inquiries and                    Unimplemented for Over
investigations. In addition, the Division processes
official requests for information and documents            3 Years
from other Federal Departments and agencies, such
as the Office of Special Counsel, Department of            We require management officials to provide us with
Justice, and FBI. These requests require the review        documentation showing the completion of
and possible redacting of OIG hotline, healthcare          corrective actions on OIG reports, including
inspection, criminal and administrative                    reporting of collection actions until the amounts
investigation, contract audit, and internal audit          due VA are either collected or written off. In turn,
reports and files. We also process OIG reports and         we conduct desk reviews of status reports
documents to assist VA management in establishing          submitted by management officials to assess both
evidence files used to support administrative or           the adequacy and timeliness of agreed upon
disciplinary actions against VA employees.                 implementation actions. When a status report
                                                           adequately documents corrective actions, the follow
During this reporting period, we processed 176             up staff closes the recommendation after
requests under the Freedom of Information and              coordination with the OIG office that wrote the
Privacy Acts and released 232 audit, investigative,        report. If the actions do not implement the
and other OIG reports. Information was totally             recommendation, we request a status update.
denied in 8 requests and partially withheld in 100
requests because release would have constituted an
                                                                              Unimple me nte d OIG
unwarranted invasion of personal privacy,
                                                                         Re ports and Re comme ndations
interfered with enforcement proceedings, disclosed
the identity of confidential sources, disclosed                                             FY 1998 and
internal Department matters, or was specifically               VA              Total
                                                                                            Earlie r (note )
exempted from disclosure by statute.                          Office
                                                                        Re pts Re coms Re pts Re coms
During this period, all FOIA cases received a
                                                               VHA        37       132       3          4
written response within 20 work days, as required.
There are no cases pending over 6 months.                      VBA         8           44     1         1

Review and Impact of Legislation and                         A&MM         16           28    0          0
Regulations
                                                                GC         1           1     0          0
The Division coordinated concurrences on                       HRA         1           1     0          0
legislative and regulatory proposals from the
Congress, OMB, and the Department that relate to               I&T         1           1     0          0
VA programs and operations. The OIG commented
and made recommendations concerning the impact                 Total      64       207       4          5
of the legislation and regulations on economy and
efficiency in the administration of programs and           Office of Acquisition & Materiel Mgmt (A&MM)
operations or the prevention and detection of fraud        Office of General Counsel (GC)
and abuse. During this period, we reviewed 63              Office of Human Resources and Administration (HRA)
legislative, 55 regulatory, and 37 administrative          Office of Information and Technology (I&T)
proposals.




                                                      65
Office of Management & Administration

The chart above lists the total number of                    Concern: The OIG is concerned because in the
unimplemented OIG reports and recommendations.               past 7 years we have received numerous prior draft
It also provides the total number of unimplemented           directives, however none has been finalized. The
reports and recommendations issued in FY 1998                final report showed that inspection procedures
and earlier.                                                 varied between VAMCs, appropriateness of
                                                             community nursing homes inspection team makeup
There are two additional 1998 reports not listed in          could be improved, and annual reinspections should
the above "FY 1998 and earlier" columns and not              be conducted more timely. These are still issues
listed in the below summaries because they are               which need to be addressed to improve care of
contractor related reports. One is an A&MM                   veterans.
acquisition center report and one is a VHA facilities
management report. Both reports are listed in                Report: Evaluation of VHA's Policies and
Appendix B on contractor reviews.                            Practices for Managing Violent and Potentially
                                                             Violent Psychiatric Patients, 6HI-A28-038,
We are particularly concerned about the FY 1998              3/28/96
and earlier reports that have not been implemented           Recommendation: VHA managers should
3 years after being issued. The status and OIG               explore network flagging systems that would
concerns on these FY 1998 and earlier reports are            ensure employees at all VAMCs are alerted
summarized as follows.                                       when patients with histories of violence present
                                                             for treatment to their medical centers.
                                                             Status: In August 2001, VHA stated the major
                                                             obstacle to the implementation of this
Veterans Health                                              recommendation has been the inability of VA's
Administration                                               computer systems to develop a method for sharing
                                                             the necessary information in a manner that is
                                                             timely, ensures accuracy of data, and protects the
Unimplemented Recommendations and
                                                             confidentiality of patient records. A plan to support
Status (FY 1998 and Earlier Reports)
                                                             system-wide computerized advisories was presented
                                                             to the VA information technology advisory council
Report: VHA Activities for Assuring Quality Care             in August 2001, however it was given a low
for Veterans in Community Nursing Homes, 4R3-                priority. VHA intends to again contact the council,
A28-016, 1/11/94                                             pursue a model developed by VISN 20, and focus
Recommendation: VHA develop standardized                     on VISN and facility based alerts. No planned
community nursing homes inspection procedures                completion date has been provided.
and criteria for approving homes for                         Concern: The OIG report included
participation in the program.                                recommendations that were meant to strengthen
Status: In July 2001, the U.S. General Accounting            areas that may reduce the incidence of injury
Office issued a report (GAO-01-768, VA LONG-                 associated with violence in inpatient psychiatric
TERM CARE, Oversight of Community Nursing                    units. The original planned completion date was
Homes Needs Strengthening) that had similar                  October 1996. A directive provided in 1998 did not
recommendations as this 1994 VA OIG report. In               address the issue. The OIG is concerned because
September 2001, VHA put into their concurrence               the latest VHA status shows that after 5 years there
process a draft directive on community nursing               still is not a plan developed to implement the
home evaluation and follow up services that would            recommendation.
address both reports. No planned completion date
has been provided.




                                                        66
                                                                 Office of Management & Administration

Report: Internal Controls Over the Fee-Basis                  Status: VBA received correspondence from the
Program, 7R3-A05-099, 6/20/97                                 Defense Manpower Data Center informing them
Recommendations: VHA improve the cost                         that the Defense Finance Accounting Service -
effectiveness of home health services by: (1)                 Denver discovered an error in their reporting of
establishing guidelines for contracting for such              drill information to the Center, affecting U.S.
services, and (2) providing contracting officers              Army, Navy, and Air Force pay data. The Service
with benchmark rates for determining the                      subsequently made corrections to these programs
reasonableness of charges.                                    and sent a corrected April 2001 extract to the
Status: VHA provided a draft directive to the OIG             Center. However, the Service is unable to provide
in January 2001 and the backup data to support the            corrected submissions for reserve drill data prior to
directive in May 2001. However, the OIG has                   April 2001. VBA is currently examining ways to
determined this backup data was unacceptable. No              obtain prior year data so they can implement this
planned completion date is available from the                 recommendation. No planned completion date has
program office.                                               been provided.
Concern: The June 1997 final report showed that               Concern: The audit's purpose was to determine if
contracting for home health services could save at            VBA's procedures ensured that disability
least $1.8 million annually, however the                      compensation benefits of active military reservists
recommendations remain unimplemented. The                     were properly offset from their training and drill
May 1997, comments to the draft report referred to            pay. It found that 90 percent of the potential dual
a pilot project that would implement the                      compensation cases reviewed did not have offsets
recommendations. However, 1½ years later, the                 from their military reserve pay. We are concerned
December 1998 status update reported that the                 that an estimated $8 million in annual dual
pilot did not address these recommendations. As a             compensation payments continue to be made each
result, over $7.2 million has been spent on these             year because this recommendation has not been
contracts which could have been avoided. We are               implemented.
also concerned that until this condition is corrected,
at least $1.8 million annually is not saved.



Veterans Benefits
Administration
Unimplemented Recommendations and
Status (FY 1998 and Earlier Reports)

Report: Review of VBA's Procedures to Prevent
Dual Compensation, 7R1-B01-089, 5/15/97
Recommendation: VBA follow up on FYs 1993
through 1996 dual compensation cases to ensure
either VBA disability payments are offset or the
Department of Defense is informed of the need
to offset reservist pay.




                                                         67
Office of Management & Administration

III. INFORMATION                                            Federal agencies, requesting information contained
                                                            in VA automated systems. Finally, a member of
TECHNOLOGY AND DATA                                         this division serves as the OIG statistician.
ANALYSIS DIVISION                                           Resources
Mission Statement                                           The Division has 17 FTE currently allocated in
                                                            Washington, Austin, Chicago, and Atlanta. These
    Promote OIG organizational effectiveness                FTE are devoted to the following areas:
    and efficiency by ensuring the accessibility,
    usability, and security of OIG information
    assets; developing, maintaining, and
    enhancing the enterprise database
                                                                              Programmers
    application; facilitating reliable, secure,                                                   PC Comp.
                                                                                  13%
    responsive, and cost-effective access to this                                                   Spec.
    database, VA databases, and electronic mail                                                      6%
                                                                               CIO
    by all authorized OIG employees; providing                Sup. Comp.
                                                                               6%                   Program
    Internet document management and control;                   Spec.
                                                                                                    Assistant
    and providing statistical consultation and                   13%
                                                                                                       6%
    support to all OIG components. Provides
                                                                   Statistician
    automated data processing technical support
                                                                       6%                          Mainframe
    to all elements of the OIG and other Federal
                                                                                                   Computer
    Government agencies needing information
                                                                          Webmaster/                 Spec.
    from VA files.                                                                                    44%
                                                                           Security
                                                                             6%
The Information Technology (IT) and Data
Analysis Division provides IT and statistical
support services to all components of the OIG. It
has responsibility for the continued development
and operation of the management information                 Overall Performance
system known as the Master Case Index (MCI), as
well as the OIG's Internet resources. The Division          Master Case Index (MCI)
interfaces with VA IT units nationwide to establish
and support local and wide area networks,                   During this reporting period, we provided our field
guarantee uninterrupted access to electronic mail,          personnel with more than 80 enhancements of the
service personal computers, detect and defeat               MCI, the OIG's enterprise database. We refined
computer threats, and provide support in protecting         features offered on our new Hotline form that
all electronic communications. The Division,                tracks all phone calls received by that Division.
which is managed by the OIG's Chief Information             We also successfully installed Oracle 8i database
Officer, represents the OIG on numerous intra- and          on our test server and "web-enabled" several MCI
inter-agency IT organizations and is responsible for        forms and reports. When testing and conversion
strategic IT planning for all OIG requirements.             are complete, we will no longer be in a client-server
The Data Analysis section in Austin, TX provides            environment. Consequently, our users will be able
data gathering and analysis support to those                to take advantage of enhancements immediately
employees of the OIG, as well as VA and other               instead of waiting for periodic updates distributed
                                                            on compact disks.



                                                       68
                                                                 Office of Management & Administration

Internet and Electronic Freedom of                           information security, IT accessibility, and Internet
Information Act                                              resources and utilization. We presented a training
                                                             session on the impact of the computer crime
The Division is responsible for processing and               statutes on VA information security officers at the
controlling electronic publication of OIG reports,           Department's 2001 Information Security
including maintaining the OIG websites and posting           conference. We addressed the legal elements
OIG reports on the Internet. Data files on the OIG           required in computer logon banners and user
websites were accessed over 570,000 times by                 agreements that affect an information security
more than 123,000 visitors. Our most popular                 officer's and a system administrator's ability to
reports were downloaded over 52,000 times,                   monitor their networks and computer systems,
providing both timely access to OIG customers and            especially when unauthorized use is suspected.
cost avoidance in the reduced number of reports
that must be printed and mailed. Our vacancy                 We worked directly with VBA to help ensure that
announcements accounted for an additional 40,000             their logon banners and user agreements meet the
downloads.                                                   legal elements of the computer crime statutes. This
                                                             effort should remove any legal impediments to the
We posted an electronically-redacted administrative          OIG reviewing, investigating, and prosecuting
investigation report in our electronic reading room          computer crimes within VBA. We are undertaking
in compliance with the Electronic Freedom of                 a similar effort with VHA and later with the VA
Information Act. Additionally, we published 22               Office of Cyber Security in the form of VA-wide
other reports, over 50 Office of Investigations press        policy and guidance. Our proposed warning
releases, and other OIG publications, including this         banners guidance was incorporated into the VA's
semiannual report to Congress, on our website.               Internet/intranet policy.

Information Management, Security, and                        Statistical Support
Departmental Coordination
                                                             The OIG statistician is part of the technical support
We continually increase security of sensitive OIG            team under the direction of the OIG's Chief
data and systems through OIG employee                        Information Officer. The OIG statistician is the
information security education and awareness,                subject matter expert providing statistical
timely computer security incident response, and              consultation and support to the VA OIG. The
additional internal network monitoring. We                   statistician provides assistance in planning,
provided focused security training during the last           designing, and sampling for relevant IG projects.
new OIG employee training session and during the             In addition, the statistician provides support in the
OIG Office of Management and Administration                  implementation of appropriate methods to ensure
offsite conference. Our proactive internal reviews           that data collection, preparation, analysis, and
have helped us avoid most of the virus outbreaks             reporting are accurate and valid.
within the VA. We are working with the various
VA system administrators to improve identification           During this reporting period, the OIG statistician
of OIG accounts that should be closed or disabled.           provided statistical consultation and support on
                                                             eight sampling plans for proposed audit projects
We actively participate in the development of                and OHI proactive program evaluations.
Departmental policies and programs to improve VA             Additionally, the OIG statistician and a computer
                                                             specialist provided statistical support for all CAP
                                                             reviews. This support involved preparing and




                                                        69
Office of Management & Administration

processing the random samples of full-time VAMC              The support work provided by the Data Analysis
employees who were part of the employee                      Section staff is reported in many of the OIG audits,
satisfaction survey. They also provided data                 inspections, and investigative cases described in
concerning purchase card use at each facility.               other sections of this report.
Finally, these individuals provided support to
process the CAP data collected while on-site.                Data Mining - Collaborations with VA Office
                                                             of Financial Policy, Financial and Systems
Information Technology Training Initiative                   Quality Assurance Service

We have contracted with four vendors to provide              During this reporting period, the DAS staff worked
instructor-led training in a variety of Microsoft            closely with auditors from the Service to test fraud
applications in our newly constructed classroom in           detection computer profiles. The DAS staff
our Washington, DC headquarters office and one               provided the results of five computer profiles to
vendor with training facilities in each city in which        determine if any fraud was evident.
the OIG is located to provide training for our field
employees. To date, 103 employees have received              l Quality Assurance Service auditors reviewed
268 days of instructor-led training in Washington,           507 claim folders of veterans meeting the criteria
DC, while 64 field employees have received 82                contained in these profiles at 6 VAROs and referred
days of training locally. A recent survey of                 42 cases as potential fraud to OIG investigators.
attendees confirmed an expected level of improved            Of the 42 cases referred, 20 were identified as
competency in the use of the Microsoft Office suite          having potential monetary recoveries totaling more
of applications.                                             than $1.8 million.

DATA ANALYSIS                                                Collaborations with VBA

SECTION                                                      The DAS staff worked with VBA to form a
                                                             collaborative effort to help identify internal and
The Data Analysis Section (DAS) analyzes data in             external fraud within VBA computerized systems.
VA computer files and systems. They develop                  The effort is currently limited to computer profiles
proactive computer profiles that search VA                   developed for the compensation and pension area,
computer data for patterns of inconsistent or                but long-range plans include developing additional
irregular records with a high potential for fraud and        profiles that include the VA life insurance and loan
they refer these leads to OIG auditors and                   guaranty programs. Examples of this collaboration
investigators for further review.                            include:

They conduct reviews that identify invalid or                l DAS staff provided VBA with the results of
erroneous information in VA computer files that can          one-time payment reviews and a list of beneficiaries
lead to bad results or erroneous conclusions. They           with no Social Security number or date of birth on
provide automated data processing technical                  the VBA computer record. VBA reviewed the
assessments and support to all elements of the OIG           results at five VAROs. No cases of potential fraud
and other governmental agencies needing                      were referred to OIG investigators. As a result of
information from VA computer files. They also                their reviews, VBA is considering a mailing to
provide ADP technical support to preaward and                beneficiaries to obtain a valid Social Security
postaward OIG audit reviews that assist VA                   number and date of birth to repair each record.
contracting officers in price negotiations and to            Such records are highly susceptible to internal
ensure reasonableness of contract prices.



                                                        70
                                                               Office of Management & Administration

fraud because they cannot be easily tracked by             Postaward and Preaward Contract
VBA (no Social Security number) or determined to           Reviews
be likely deceased by matching to other Federal and
local databases (no date of birth). Obtaining this         DAS staff assisted OIG auditors by providing
vital information directly from veterans and their         automated data processing support in obtaining and
spouses will do much to prevent their use in               analyzing the sales data provided by independent
employee fraud in the future.                              vendors seeking or under contract with the VA.
                                                           During the course of providing this assistance,
l DAS staff raised the issue of the fraud                  DAS staff coordinated with company IT personnel
vulnerability of returned benefit checks with VBA          and management, attorneys, and OIG auditors to
officials in joint meetings during this reporting          ensure the needs of the audit were met and that
period. DAS staff discovered several instances in          prices the VA pays for items were equitable and in
which a veteran had died and his monthly benefit           accord with the terms of the contract. Examples of
check was returned only to have the check re-issued        this support include:
with the new month's totals added to the sum. As a
result of the DAS team's referral to VBA, the VBA          l    DAS received 18 compact disks containing 194
Philadelphia Insurance Staff was tasked to                 files of sales information from a corporation under
complete a study of returned mail in cooperation           preaward and postaward contract review. The
with the Compensation and Pension Service. The             sales were from five different companies under the
report, when issued, will identify the best methods        corporate umbrella and the data covered nine
for locating missing veterans who have direct              different contracts with VA. DAS staff worked
deposit bank accounts. Applying internal controls          with corporate attorneys and company IT staffs and
to this procedure will help protect VBA from               identified a common preferred customer (i.e., those
employee fraud.                                            customers purchasing large quantities of whatever
                                                           product or service is being sold). Sales made by
l DAS staff met with VBA representatives on                companies to preferred customers and the unit
several occasions to discuss data mining and how           prices these companies are charged are the basis
VBA could utilize it to detect fraud in their              VA contracting officers use to determine what price
computer systems. DAS provided copies of certain           the VA should be charged on like items purchased
VBA files to the Data Management Office for                from the same corporation. As a result of the DAS
testing. At their request, DAS visited the                 staff's efforts, OIG auditors will be able to
Philadelphia Insurance Center to discuss methods           determine the amount of overpayment the VA has
they could use to detect internal fraud in VA's            been charged and recover the funds.
insurance systems.
                                                           l A company under postaward review provided
l    VBA Compensation and Pension Service                  DAS staff members with 64 computer tapes
representatives visited the DAS staff following the        containing 34 million sales transactions the
Secretary's announcement of the VARO Atlanta               company made to all of their customers during the
employee fraud case. Their purpose was to                  last 9-year period. There were several problems
support the DAS staff's efforts to detect fraud in         with the data. The company computer records do
the Atlanta case and assist the OIG national fraud         not specifically identify sales made to the Federal
review at all VAROs. VBA staff exchanged ideas             Government and company sales made to the VA do
with DAS staff, made suggestions to enforce the            not agree with the company's Government sales
criteria used to detect fraud, and interpreted some        reports. DAS staff worked with company
of the VBA policies, processes, and program                representatives and IT staff to determine a method
functions that are vital to data mining efforts.           for identifying sales to VA. The work was difficult




                                                      71
Office of Management & Administration

because no easy identifier exists in the individual          have been mailed to recipients of VA benefits in the
sales transactions. The solution therefore had to            VARO area asking them to verify the payee's
rely on data other than that when viewed                     existence and their entitlement to the VA benefits
independently and collectively resulted in a fair            they are receiving. DAS staff created an electronic
determination that the customer for the sale was             interview process to assist OIG investigators with
indeed the VA. As a result of their efforts, the             this benefits review.
figures VA audit staff arrived at and the figures the
company reported in their sales reports are closer           l   When fraud was first suspected at a VARO,
to agreement.                                                DAS staff quickly discovered approximately
                                                             $6 million in suspected fraud and three primary
Special Projects - Fraud                                     suspects, who were indicted shortly thereafter.
                                                             Subsequently, DAS staff was able to identify an
Fraud and other illegal activities committed against         additional 10 co-conspirators and approximately
VA's programs can amount to millions of dollars.             $5 million in suspicious benefits payments
Contracts, procurements, and veterans benefits               associated with this case.
programs are inherently vulnerable to fraud due to
the large expenditures of funds associated with              OIG National Review for Fraud
purchasing the items necessary for an agency as
large and diverse as VA and for compensating                 To support the national review of VBA offices to
millions of veterans for their service to their              detect potential fraud, the DAS staff developed
country. The DAS staff took an aggressive                    seven computer profiles in order to detect similar
approach to finding and reporting fraud by                   patterns of fraud discovered in VAROs during the
developing computer profiles that reflect the results        last 3 years. The profiles were run against
of actions taken by fraudulent employees to defraud          nationwide data for as many as 5 years and the
VA. By mimicking the fraudulent actions and                  information was provided to audit teams visiting
searching VA files for similar action patterns, the          each VARO. DAS staff continue to support
DAS staff continues to provide OIG investigators             auditors uncovering new fraud cases that need to be
and auditors with leads to potential fraud. Among            researched.
them, the computerized death match and the bogus
veteran profile have produced numerous                       Other Workload
convictions and millions of dollars in recovered
monies. Similar efforts currently in progress
                                                             During this reporting period, DAS staff completed
include:
                                                             187 ad hoc requests for information and data
                                                             submitted from all OIG operational elements. They
l    DAS staff provided OIG investigators with
                                                             supported 12 OIG CAP reviews for VAMCs and 6
data that indicated there could be fraudulent
                                                             CAP reviews for VAROs. They provided 67
activity within the area serviced by a VARO.
                                                             proactive reports using data mining to detect
Several patterns in the VARO data indicated
                                                             potential fraud in VA systems and programs and
abnormalities in empirical data such as life
                                                             they completed 72 requests for auditors performing
expectancy, etc. DAS staff coordinated with
                                                             VA postaward and preaward contract reviews of
analysts from the U.S. Secret Service and VBA
                                                             private vendors under contract with the VA.
Philadelphia Insurance Center in an effort to notify
and interview payees associated with altered
checks. DAS staff also coordinated with VBA and
the VARO to identify and interview payees relating
to internal issues of concern by the VARO. Letters




                                                        72
                                                              Office of Management & Administration

IV. RESOURCES                                              Human Resources Management

MANAGEMENT DIVISION                                        During this period, the staff brought 27 new
                                                           employees on board. In addition, the staff
Mission Statement                                          processed 86 personnel actions and 258 awards.


    Promote OIG organizational effectiveness               Travel
    and efficiency by providing reliable and
    timely management and administrative                   By the nature of our work, OIG personnel travel
    support services.                                      almost continuously. As a result, we processed
                                                           1,927 travel and 44 permanent change of station
The Division provides support services for the             vouchers.
entire OIG. Our services include personnel services
and liaison; budget formulation, presentation, and         Administrative Support
execution; travel processing; procurement; space
and facilities management; and general                     The administrative staff performed numerous
administrative support.                                    administrative functions, office renovation plans,
                                                           telephone installations, and the procurement
                                                           actions.
Resources

The Division has 14 FTE which are allocated as
follows:


                            Travel
                             16%


      HRM                        Admin.
      46%                        Support
                                   22%


                        Budget
                         16%




Overall Performance

Budget

The staff executed 99.95 percent of the OIG's FY
2001 budget authority.




                                                      73
Office of Management & Administration




                                        74
                                                                          Other Significant OIG Activities

OTHER SIGNIFICANT OIG ACTIVITIES
President's Council on Integrity                             develop recommendations to greatly improve VA's
and Efficiency                                               ability to process veterans' claims for disability
                                                             compensation and pension.
= OIG Financial Audit Division staff participate
in the audit executive committee financial                   VA Procurement Reform Task Force
statements audit workgroup. The workgroup
facilitates communication of financial statement             The Deputy Assistant Inspector General for
audit issues throughout the Federal community.               Auditing served as a member of the Secretary's task
                                                             force. The task force is charged with reviewing all
= OIG Audit Planning staff participate in the                facets of VA's acquisition system and to make
Government Performance and Results Act (GPRA)                specific recommendations to enhance the
coordinator's interest group, a sub-group of the             effectiveness of VA procurement, contracting, and
audit committee. The GPRA interest group was                 materials management practices. The task force is
formed in 1997 to help address how to best                   expected to issue a report on its findings in Fall
implement the GPRA internally and how to                     2001.
integrate the requirements of the GPRA into the
audit, inspection, and investigation functions of the        VHA's Compliance Days Conference
OIG.
                                                             The Deputy Assistant Inspector General for
OIG Management Presentations                                 Healthcare Inspections served as a panel member in
                                                             discussions at the conference held in Minneapolis,
9th Annual Leadership VA Alumni                              MN. Senior VHA leaders, conference officers from
                                                             all VA facilities in the nation, and interested
Association Forum
                                                             financial and billing managers attended the 3-day
                                                             conference on billing compliance issues.
The Inspector General participated in a panel
discussion of VA leaders at this forum, responding
to questions from the VA executives and managers             Secretary's Preparedness Review Working
attending.                                                   Group

VBA Leadership Conference                                    The Deputy Assistant Inspector General for
                                                             Management and Administration represented the
                                                             OIG on the working group which was charged to
The Inspector General made a presentation on
                                                             conduct a comprehensive review of VA's
internal controls and recent cases of employee
                                                             preparedness to respond to different types of
fraud.
                                                             terrorist attacks anywhere in the United States.
                                                             The working group briefed the Secretary on its
VA Claims Processing Task Force                              recommendations and provided a final report.

The Assistant Inspector General for Auditing
                                                             VA Health Care Contracting Training
served as a member of the Secretary's task force.
The task force assessed and critiqued VBA's
                                                             OIG audit managers from the Contract Review and
organization, management, and process in order to
                                                             Evaluation Division provided a presentation on



                                                        75
Other Significant OIG Activities

contracting for scarce medical specialists' services        Presentation at the VA Information
to VHA contracting officers in Little Rock, AR.             Technology Conference
The presentation covered the history of contracting
with affiliates for scarce medical resources, the           The Central Office Audit Operations Division
preaward review process, and common problems                Director and security audit project managers
the OIG has encountered over the last year                  teamed with the VISN 22 information security
performing these reviews. The presentation will be          officer on a presentation on the posture of
used to develop an on-line course for contracting           information security in VA at the Information
officers.                                                   Technology Conference in Austin, TX. The
                                                            conference offered information and training on the
Presentation to VA Procurement Reform                       latest IT to over 3,000 attendees.
Task Group
                                                            Awards
OIG representatives from the Contract Review and
Evaluation Division made a presentation to task             Secretary's Award
group members. The presentation covered OIG
reviews of Federal Supply Schedule contracts and            Secretary of Veterans Affairs, Anthony J. Principi,
our observations concerning commercial                      presented the Secretary's Award to the OIG
acquisition and marketing practices.                        Northeast field office for their efforts following the
                                                            terrorist attack. The award, presented personally
Office of Acquisition and Materiel                          by the Secretary to Bruce T. Sackman, Special
Management Seminar                                          Agent in Charge of the Northeast field office,
                                                            recognized "…The compassionate assistance
In April, the Financial Audit Division Director             rendered…to veterans and indeed all who needed
provided a presentation on nonexpendable                    aid…" and that their assistance "…was of
equipment and excess property accounting and                incalculable value and reflects great credit on
controls at an Office of Acquisition and Materiel           yourselves and your team, the Department and the
Management seminar.                                         United States Government."

VA Information Security 2001 Conference

The OIG information security officer presented a
training session on the impact of the computer
crime statutes on computer logon banners, user
agreements, and system monitoring/oversight. Also
the Central Office Audit Operations Division
Director and security audit project managers made
a presentation on our vulnerability assessments and
penetration testing at the conference in Orlando,
FL. The conference was attended by over 500 VA
information technology and security staff.


                                                                       Secretary (r) presents award




                                                       76
                                                                           Other Significant OIG Activities

Greater Boston Federal Executive                             documentary evidence. In one such task force,
Board's 2001 Excellence in Government                        which led to the prosecution of over 20 individuals,
Awards                                                       some of which were defrauding VBA, the OIG
                                                             received a complementary letter from the
The Board established the Excellence in                      prosecutor in the case for our assistance to the task
Government Awards in 1974 as a means of                      force.
celebrating local Federal employee successes. Held
each year during Public Service Recognition Week,
this prestigious event recognizes and rewards the            "…we would express our sincere
"best and the brightest" in Federal service.                 appreciation for the support provided to
Nominees represent outstanding Federal employees             the Pine Ridge Task Force by your agents
who have distinguished themselves with exceptional           and auditors. As you are aware, this
performance, integrity, and dedication to public             significant law enforcement effort has
service among the thousands of Federal employees             resulted in numerous indictments of
in the Greater Boston community. The program                 individuals at all levels of tribal
consists of 14 distinguished categories that are             government. … As the audit participation
designed to encompass a broad spectrum of                    in this endeavor draws near it's
achievement among Federal employees. A blue                  completion, we would like to commend
ribbon panel comprised of local leaders in business,         Dennis Capps, Jim Pruitt, and Robin
academia, and community efforts reviewed each                Frazier of your Kansas City Audit staff,…
nomination and came to a consensus to determine              and Patty Weyburn and Kevin Gibbons of
this year's winners:                                         your Chicago Audit staff …"

= Special Agent Steven J. Plante, VA OIG Boston                                        Deputy U.S. Attorney
resident agency, won the Professional Employee of                                   District of South Dakota
the Year as a result of his successful efforts on the
prosecution of a VA nurse on a multiple homicide
and bomb threat case, now known as the Kristen               OIG Congressional Testimony
Gilbert investigation.
                                                             =   In April 2001, the Inspector General testified
=   Special Agent in Charge Bruce T. Sackman,
                                                             before the Subcommittee on Oversight and
VA OIG Northeast field office, was a finalist for
                                                             Investigations, House Committee on Veterans'
the Distinguished Federal Manager award for his
                                                             Affairs. The testimony provided OIG's assessment
numerous achievements in the fields of
                                                             of the VA Automated Information System security
investigation and management.
                                                             program.
Commendation from the Deputy U.S.
                                                             =    In July 2001, the Inspector General testified
Attorney, District of South Dakota
                                                             before the Senate Committee on Veterans' Affairs.
                                                             The testimony addressed VHA restrictions on
The OIG often works closely with other law                   filling privately written prescriptions that was
enforcement organizations in task forces designed            address in the OIG audit report, Audit of VHA
to identify and ensure prosecution of individuals            Primacy Co-Payment Levels and Restrictions on
whose crimes cross agency boundaries. On                     Filling Privately Written Prescriptions for Priority
occasion, in addition to investigative participation,        Group 7 Veterans, issued in December 2000.
the OIG provides these task forces with audit
assistance to help analyze and evaluate




                                                        77
Other Significant OIG Activities

= In September 2001, the Inspector General
testified before the Subcommittee on Oversight and
Investigations, House Committee on Veterans'
Affairs. The testimony addressed the OIG work
concerning the VA Medical Care Collection Fund
and indicated the OIG has reviewed selected fund
issues during the past several years and has
identified opportunities to enhance recoveries.

= In September 2001, the Inspector General and
Assistant Inspector General for Healthcare
Inspections testified before the Subcommittee on
Oversight and Investigations, House Committee on
Veterans' Affairs, at field hearings held in
Indianapolis, IN. The testimony covered patient
care issues at VAMC Indianapolis and the Northern
Indiana Healthcare System (Marion and Ft.
Wayne).

Obtaining Required Information or
Assistance

= Sections 5(a)(5) and 6(b)(2) of the Inspector
General Act of 1978 require the Inspector General
to report instances where access to records or
assistance requested was unreasonably refused,
thus hindering the ability to conduct audits or
investigations. During this 6-month period, there
were no reportable instances under these sections of
the Act.

=   Under Public Law 95-452, the IG has authority
"… to require by subpoena the production of all
information, documents, reports, answers, records,
accounts, papers, and other data and documentary
evidence necessary . . . ." The use of IG subpoena
authority has proven valuable in our efforts,
especially in cases dealing with third parties.
During this reporting period, the OIG issued 30
subpoenas in conjunction with OIG investigations
and audits.




                                                       78
  Report                                                        Funds Recommended
 Number/                                  APPENDIX A               for Better Use   Questioned
Issue Date                     Report Title                      OIG     Management   Costs

                            DEPARTMENT OF VETERANS AFFAIRS
                              OFFICE OF INSPECTOR GENERAL
                                  REVIEWS BY OIG STAFF


  Report                                                        Funds Recommended
 Number/                                                           for Better Use   Questioned
Issue Date                     Report Title                      OIG     Management   Costs

COMBINED ASSESSMENT PROGRAM REVIEWS

00-02860-67   Combined Assessment Program Review, VA              $9,486      $9,486
4/11/01       Medical Center, Manchester, NH

00-00709-88   Combined Assessment Program Review, Richard L.
 5/31/01      Roudebush VA Medical Center Indianapolis, IN

00-01229-102 Combined Assessment Program Review, VA Central
6/13/01      Iowa Health Care System Des Moines and
             Knoxville, Iowa

01-00272-84   Combined Assessment Program Review VA              $76,800     $76,800
6/25/01       Regional Office Phoenix, Arizona

01-00507-79   Combined Assessment Program Review, Ralph H.      $130,000    $130,000
6/27/01       Johnson VA Medical Center Charleston, SC

00-02811-89   Combined Assessment Program Review of the South    $63,241     $63,241
6/29/01       Texas Veterans Health Care System

01-01074-101 Combined Assessment Program Review of the
6/29/01      Southern Arizona VA Health Care System

01-00413-85   Combined Assessment Program Review of the VA      $231,000    $231,000
7/2/01        Northern California Health Care System

01-00079-104 Combined Assessment Program Review of the
7/2/01       Oklahoma City Veterans Affairs Medical Center

00-02066-51   Combined Assessment Program Review of Harry S
7/10/01       Truman Memorial Veterans’ Hospital Columbia, MO

01-00685-120 Combined Assessment Program Review VA New           $70,000     $70,000
7/24/01      Jersey Health Care System

00-02096-125 Combined Assessment Program Review, Royal C.       $423,424    $423,424
7/24/01      Johnson Memorial VA Medical and Regional Office
             Center Sioux Falls, SD




                                                    79
  Report                                                                 Funds Recommended
 Number/                                                                    for Better Use   Questioned
Issue Date                         Report Title                           OIG     Management   Costs

COMBINED ASSESSMENT PROGRAM REVIEWS (Cont’d)
01-00788-108 Combined Assessment Program Review, VA                       $103,000       $103,000
8/8/01       Tennessee Valley Healthcare System

00-02681-121 Combined Assessment Program Review of the New                $321,230       $321,230
8/13/01      Mexico VA Health Care System

00-02010-113    Combined Assessment Program Review, VA                    $225,321       $225,321
8/15/01         Medical Center Cincinnati, OH

00-01199-129    Report of Follow-up to the Combined Assessment
8/15/01         Program Review of the VA Northern Indiana Health
                Care System, Fort Wayne and Marion, Indiana


INTERNAL AUDITS
99-00192-65    Audit of VA Medical Center Management of               $168,400,000    $168,400,000
4/4/01         Engineering Supply Inventories

99-00057-55    Audit of the Availability of Healthcare Services      $1,480,000,000           $0*
8/13/01        in the Florida/Puerto Rico Veterans Integrated
               Service Network (VISN) 8


OTHER OFFICE OF AUDIT REVIEWS

01-00750-56    Attestation of the Department of Veterans Affairs
4/30/01        “Detailed Accounting Submission” for Fiscal Year
               2001

01-01855-75    Evaluation of the Department of Veterans Affairs
5/15/01        Purchasing Practices

01-00759-69    Review of Treatment of Non-Veterans at Veterans            $137,214       $137,214
5/18/01        Affairs Medical Center San Juan, PR

00-02797-78    Management Letter: Review of Department of
5/21/01        Veterans Affairs Activities to Collect, Review, and
               Use Information that Identifies Individuals Who
               Access the Department’s Internet Sites

00-01141-83    Advisory - Management of High Risk Disbursements
6/13/01


* VHA deferred on concurrence or non-concurrence with the recommendation to include priority group 7
veterans in the Veterans Equitable Resource Allocation system until other options are considered.




                                                          80
  Report                                                            Funds Recommended
 Number/                                                               for Better Use   Questioned
Issue Date                       Report Title                        OIG     Management   Costs

OTHER OFFICE OF AUDIT REVIEWS (Cont’d)

00-01702-91    Management Letter - Audit of Department of
6/26/01        Veterans Affairs Consolidated Financial Statements
               (CFS) for the Year Ended September 30, 2000

00-01702-96    Management Letter - Audit of VA’s Fiscal Year 2000
6/26/01        Consolidated Financial Statements, General
               Computer Controls Review at VA Medical Center
               Bay Pines, FL

00-01702-97    Management Letter - Audit of VA’s Fiscal Year 2000
6/26/01        Consolidated Financial Statements, General
               Computer Controls Review at the Austin Automation
               Center

00-01702-98    Management Letter - Audit of VA’s Fiscal Year 2000
6/26/01        Consolidated Financial Statements, General
               Computer Controls Review at the Philadelphia
               Benefits Delivery Center

00-01702-99    Management Letter - Audit of VA’s Fiscal Year 2000
6/26/01        Consolidated Financial Statements, General
               Computer Controls Review at the Hines Benefits
               Delivery Center

00-01702-100 Management Letter - Audit of VA’s Fiscal Year 2000
6/26/01      Consolidated Financial Statements, General
             Computer Controls Review at the VA Medical
             Center Martinsburg, WV

00-02773-106 Memorandum Report, Evaluation of the VA
7/13/01      Enhanced-Use Lease Program

00-02165-119 Evaluation of the Department of Veterans Affairs
8/1/01       Health Eligibility Center Centralized Means Test
             Pilot Program

00-02772-105 Memorandum Report, Evaluation of Enhanced
8/30/01      Health Care Resources Sharing Authority

99-00175-134 Review of Allegations of Mismanagement Relating
9/4/01       to Closure, Consolidation, and Contracting for
             Certain Specialized Medical Services in Veterans
             Integrated Service Network 12

00-01199-135 Review of Allegations Involving Operations of the
9/4/01       VA Community-Based Outpatient Clinic South
             Bend, IN




                                                        81
  Report                                                              Funds Recommended
 Number/                                                                 for Better Use   Questioned
Issue Date                      Report Title                           OIG     Management   Costs

CONTRACT REVIEWS *
01-01052-68   Review of Federal Ceiling Price Overcharges Under                                    $2,017
4/11/01       Federal Supply Schedule Contract Number V797P-
              5439x Awarded to Baxter Healthcare Corporation,
              Deerfield, IL

01-01196-70   Review of Proposal Submitted by University of            $101,989
4/11/01       Minnesota Physicians for Chief, Department of
              Radiology, at VA Medical Center Minneapolis, MN

99-00093-72   Nycomed Amersham’s Implementation of Section 603,
5/2/01        Drug Pricing Provisions of Public Law 102-585 Under
              Federal Supply Schedule Contract Numbers
              V797P-5982n and V797P-5317x

00-02452-73   Review of Purdue Frederick Company’s and Purdue                                      $6,944
5/2/01        Pharma L.P.’s Implementation of Section 603 Drug
              Pricing Provisions of Public Law 102-585 Under
              Federal Supply Schedule Contract Numbers
              V797P-5259X and V797P-5965N

01-01023-74   Review of Voluntary Disclosure and Refund Offer                                        $921
5/2/01        Under Federal Supply Schedule Contract Number
              V797P-5354x, Awarded to Novartis Pharmaceuticals
              Corporation, East Hanover, NJ

00-02763-86   Review of Federal Supply Schedule Proposal              $4,905,550
6/5/01        Submitted by Fisher Healthcare Under Solicitation
              Number M5-Q52B-99

98-00093-87   Postaward Review of Federal Supply Schedule                                        $105,288
6/5/01        Contract Number V797P-3523j Awarded to Western
              Medical, LTD, Tenefly, NJ

01-01130-93   Review of Proposal Submitted by Department of            $335,160
6/20/01       Radiology, University of Arkansas for Medical
              Sciences Under Solicitation Number RFP V598P-1092
              for Nuclear Medicine Services at the Central Arkansas
              Veterans Healthcare System Little Rock, AR

01-00706-95   Review of Proposal Submitted by Department of            $760,347
6/21/01       Radiology University of Arkansas for Medical Sciences
              Under Solicitation Number RFP V598P-1093 for
              Radiologic Professional Services at the Central
              Arkansas Healthcare System Little Rock, AR

* Management estimates are not applicable to contract reviews. Cost avoidances resulting from these reviews
are determined when the OIG receives the contracting officer’s decision on the recommendations.




                                                      82
  Report                                                               Funds Recommended
 Number/                                                                  for Better Use   Questioned
Issue Date                      Report Title                            OIG     Management   Costs
CONTRACT REVIEWS (Cont’d)

01-00751-107 Review of Proposal Submitted by Acuson Corporation,       $588,500
7/10/01      Under Solicitation Number M6-Q9-00, for Ultrasound
             Imaging Systems

01-01759-114   Audit of Termination for Convenience Settlement          $12,140
7/31/01        Proposal Submitted by Booz Allen & Hamilton, Inc.,
               Under Contract Number V101(93)P-1445, Task
               Order 39

01-01343-122 Post-Award Review of Electric Mobility Corporation’s
8/1/01       Federal Supply Schedule Contract Number
             V797P-3158k

01-02096-123 Review of Organon Inc.’s Voluntary Disclosure of                                 $17,731
8/1/01       Pricing Violations Under Federal Supply Schedule
             Contract Number V797P-5381x

00-01933-124 Review of Zenith Goldline Pharmaceutical Inc.’s                                 $347,968
8/1/01       Voluntary Disclosure of Price Reductions Under
             Federal Supply Schedule Contract Number
             V797P-5305x

00-02782-130 Review of Ethicon Inc.’s Analysis of Contract
8/20/01      Compliance for Federal Supply Schedule Contract
             Numbers V797P-5663m and V797P-5385x

01-02074-132 Review of Proposal Submitted by University of Miami,      $395,040
8/23/01      Department of Anesthesiology, Under Solicitation
             Number RFP 546-44-01, for Anesthesiology Services at
             the Department of Veterans Affairs Medical Center
             Miami, FL

00-00396-133 Review of Bracco Diagnostics, Inc.’s Implementation of                           $16,021
9/4/01       Section 603, Drug Pricing Provisions of Public Law
             102-585, Under Federal Supply Schedule Contract
             Number V797P-5261X

01-01584-136 Review of Proposal Submitted by Spacelabs Medical,        $336,520
9/14/01      Under Solicitation Number RFP-797-FSS-99-0025, for
             Medical Equipment and Supplies

00-01130-142   Settlement Agreement, Review of Johnson & Johnson                           $3,783,000
9/24/01        Medical, Inc.’s Voluntary Disclosure and Refund Offer
               Under Federal Supply Schedule Contract V797P-5731M

00-02783-143 Review of Ernst & Young LLP’s Analysis of Depuy
9/26/01      Orthopaedic Technology’s Federal Supply Schedule
             Contract V797P-3416j



                                                      83
  Report                                                              Funds Recommended
 Number/                                                                 for Better Use   Questioned
Issue Date                       Report Title                          OIG     Management   Costs

ADMINISTRATIVE INVESTIGATIONS

01-00365-71    Administrative Investigation, Research Foundation
5/4/01         and Employee Award Issues, VA Medical Center
               Kansas City, MO

00-01900-77    Administrative Investigation, Misuse of Position and                            $500
5/22/01        Other Issues, Jerry L. Pettis Memorial Veterans
               Medical Center Loma Linda, CA

01-00865-90    Administrative Investigation, Misconduct and                                    $647
6/18/01        Resource Misuse Issues, Ralph H. Johnson VA
               Medical Center Charleston, SC

99-01434-103 Administrative Investigation, Misuse of Frequent                                $1,271
7/12/01      Flyer Miles and Other Travel Issues, Veterans
             Integrated Service Network 7 Atlanta, GA

01-01062-115 Administrative Investigation, Misuse of Government
7/18/01      Resources and Other Issues, VHA Office of
             Information Washington, DC

00-01632-117 Administrative Investigation, Irregularities in
7/20/01      Employee Relocation Reimbursements and the
             Workers’ Compensation Program, VA Medical
             Center West Palm Beach, FL

01-02075-116 Administrative Investigation, Burial of Indigent
7/24/01      Veterans Issue, VA Regional Office, VBA Chicago, IL

01-01893-127 Administrative Investigation, Employee Drug
8/7/01       Testing Program Issue, VA Central Office
             Washington, DC

01-01008-131 Administrative Investigation, Acceptance of
8/27/01      Compensation and Gift Issues, VA Southern Nevada
             Healthcare System Las Vegas, NV

HEALTHCARE INSPECTIONS

00-01535-43    Patient Care Management at VA Gulf Coast
4/2/01         Veterans Health Care System Biloxi/Gulfport, MS

00-00525-30    Patient Care Issues at the VA Greater Los Angeles
4/3/01         Health Care System

00-01293-42    End-of-Life Care Issue, VA Palo Alto California
4/26/01        Healthcare System Palo Alto, CA




                                                        84
  Report                                                                  Funds Recommended
 Number/                                                                     for Better Use   Questioned
Issue Date                       Report Title                              OIG     Management   Costs
HEALTHCARE INSPECTIONS (Cont’d)

00-00358-58    Combined Assessment Program Review Follow-Up,
5/14/01        Carl Vinson VA Medical Center Dublin, GA

00-00986-80    Healthcare Inspection, Patient Care and Management
5/21/01        Issues at the West Texas VA Health Care System Big
               Spring, TX

01-00787-81    Allegation of Wrongful Death in a VA Community
6/1/01         Contract Nursing Home

00-02885-92    Healthcare Inspection, Alleged Medical Treatment
6/21/01        Issues at the Department of Veterans Affairs Palo Alto
               Health Care System Palo Alto, CA

00-02629-94    Healthcare Inspection, Quality of Care Provided to a
7/3/01         Patient, VA Gulf Coast Veterans Health Care System
               Biloxi, MS

00-01383-82    Healthcare Inspection, Alleged Denial of Medical
7/16/01        Care to Patients, Edward Hines Jr. VA Hospital
               Hines, IL

00-02987-109 Quality of Care Provided to Patients in the Extended
7/16/01      Care Unit, Department of Veterans Affairs Medical
             Center Dayton, OH

01-00519-118 Healthcare Inspection, Alleged Research Improprieties
7/26/01      and Quality of Care Issues, Department of Veterans
             Affairs Medical Center Miami, FL

01-00119-110 Healthcare Inspection, Alleged Patient Abuse, Veterans
7/30/01      Affairs Medical Center Danville, IL

01-01091-126 Healthcare Inspection, Alleged Patient Abuse Due to
8/7/01       the Closure of the Operating Room, Edward Hines, Jr.
             Veterans Hospital Hines, IL

00-02759-128 Healthcare Inspection, Treatment of Patients in
8/14/01      Nursing Home Care Units at the Department of
             Veterans Affairs Medical Center Philadelphia, PA

01-00223-111 Healthcare Inspection, Gender Identity Disorder
8/30/01      Services for Patients at the James H. Quillen
             Veterans Affairs Medical Center Mountain Home, TN

TOTAL:         78 Reports                                             $1,657,625,962   $170,190,716   $4,282,308




                                                         85
  Report                         Funds Recommended
 Number/                            for Better Use   Questioned
Issue Date   Report Title         OIG     Management   Costs




                            86
                                               APPENDIX B

                             DEPARTMENT
                           CONTRACT REVIEWOFREPORTS
                                             VETERANS AFFAIRS
                                                     FOR WHICH A
                               OFFICE OF INSPECTOR
                               CONTRACTING  OFFICERGENERAL
                                                    DECISION
                           CONTRACT
                           HAS       REVIEWS
                               NOT BEEN MADE BY
                                              FOROTHER
                                                  OVER AGENCIES
                                                       6 MONTHS

                                                              Recommended Funds Reason for Delay
                                       Questioned               Better UseRecommended
                                                                               and Planned Date
Report Title, Number, and Issue Date      Costs                  of Funds   for Better  Unsupported
                                                                                 for a Decision
         Report Title (Report Number, Issue Date)                              Use          Costs
OFFICE OF ACQUISITION AND MATERIEL MANAGEMENT

Audit of Claims and Requests for Equitable                        $394,154    Claim in litigation before
Adjustments Submitted by Bay Construction                                     the VA Board of Contract
Company, Contract Number V662C-1439,                                          Appeals; no planned
8PE-E10-082, 3/25/98                                                          resolution date available.

Final Report Review of Proposal Submitted by                      $297,833    Pending receipt of
University of Pittsburgh Physicians for Anesthesiology                        contracting officer price
Physician Services at the University Drive Division,                          negotiation memorandum
VA Pittsburgh Healthcare System, Pittsburgh, PA,                              (PNM); no planned
00-01584-73, 5/31/00                                                          resolution date available.

Review of Federal Supply Schedule Proposal                      $2,986,205    Pending receipt of
Submitted by Olympus America Inc., Under                                      contracting officer PNM;
Solicitation Number RFP 797-652A-99-0001,                                     anticipated award date is
00-00239-32, 1/18/01                                                          November 1, 2001.

Review of Federal Supply Schedule Proposal                                    Pending receipt of
Submitted by Omnicell, Inc., Under Solicitation                               contracting officer PNM;
Number RFP-797-FSS-99-0025, 01-00460-39, 1/31/01                              anticipated award date is
                                                                              November 1, 2001.

Review of Federal Supply Schedule Proposal                      $1,669,920    Pending receipt of
Submitted by Roche Diagnostics Corporation Under                              contracting officer PNM; no
Solicitation Number RFP M5-Q52C-00,                                           planned resolution date
01-00194-44, 2/23/01                                                          available.

Review of Federal Supply Schedule Proposal                        $576,675    Pending receipt of
Submitted by Abbott Laboratories, Diagnostic                                  contracting officer PNM; no
Division, Under Solicitation Number                                           planned resolution date
M5-Q52C-00, 01-00201-62, 3/28/01                                              available.



OFFICE OF FACILITIES MANAGEMENT (VHA)

Review of Structural Design Problems at the New VA                            Negotiations are continuing;
Regional Office, Bay Pines, FL, 8PE-E02-053, 3/16/98                          no planned resolution date
                                                                              available.




                                                         87
88
                                               APPENDIX C

                   FOLLOW     UP/RESOLUTION
                          CONTRACT                  OF OIG RECOMMENDATIONS
                                       REVIEW REPORTS             FOR WHICH A
                               CONTRACTING OFFICER DECISION
The Inspector General Act Amendments
                          HAD NOT of  1988 require
                                     BEEN   MADE   identification
                                                      FOR OVER    of all6significant
                                                                           MONTHS    management decisions with
which the Inspector General is in disagreement and all significant and other recommendations unresolved for over 6
months (management decisions not made). We had no Inspector General        disagreements onReason
                                                                   Recommended                significant
                                                                                                        formanagement
                                                                                                            Delay
decisions and there were no internal audit recommendations    unresolved
                                                 Questioned Better Use    for over 6 months   as of the end of
                                                                                             and Planned Date  this
reporting period. Contract report recommendations
Report Title, Number, and Issue Date                unresolved
                                                       Costs     for over 6 months
                                                                       of Funds      are included
                                                                                               for a DecisionB.
                                                                                                   in Appendix

Following
Contractare   tables which
            Reviews      byprovide
                              OIG a summary of the number of OIG reports with potential monetary benefits that
were unresolved at the beginning of the period, the number of reports issued and resolved during the period with
potential monetary benefits, and the number of reports that remained unresolved at the end of the period.
OFFICE OF ACQUISITION AND MATERIEL MANAGEMENT
As required by the IG Act Amendments, Tables 1 - 3 provide statistical summaries of unresolved and resolved
reports for this reporting period. The dollar figures used throughout this report are based on the definitions
included in the IG Act Amendments of 1988. The figures may reflect changes from the data in the individual
reports due to OIG validation to ensure compliance with the IG Act Amendments definitions.


TABLE 1 - SUMMARY OF UNRESOLVED AUDIT REPORTS

Table 1 provides a summary of all unresolved reports and the length of time they have been unresolved.

                 MONTHS              TYPE AUDIT                NUMBER                 TOTAL

                   Over              Internal Audit                0
                                                                                          7
                 6 Months          Contract Review                 7

                Less Than           Internal Review                1
                                                                                          6
                 6 Months          Contract Review                 5
                                                  TOTAL                                  13

Tables 2 and 3 show a total of 11 reports that were unresolved as of September 30, 2001. This number differs
from the 13 reports shown above because tables 2 and 3 include only reports with monetary benefits as
required by the IG Act Amendments. Tables 2 and 3 also provide the reports resolved during the period with
the OIG estimates of disallowed costs and funds to be put to better use, including those in which management
agreed to implement OIG recommendations and those in which management did not agree to implement OIG
recommendations. The Assistant Secretary for Management maintains data on the agreed upon reports and
Management estimates of disallowed costs and funds to be put to better use in order to comply with the
reporting requirements for the Secretary’s Management Report to Congress, required by the IG Act
Amendments.




                                                          89
TABLE 2 - RESOLUTION STATUS OF REPORTS WITH QUESTIONED COSTS

Table 2 summarizes reports, the dollar value of questioned costs, and the costs disallowed and allowed.
Contract Reviews by Other Agencies
                                                                    N U MB ER           QU ESTION ED
            R ESOLUMANAGEMENT
OFFICE OF FACILITIES TION STATU S (VHA)                                 OF                  C OSTS
                                                                    R EPOR TS            (In Millions)
  No management deci si on by 3/31/01                                       0                  $0
  Issued duri ng reporti ng peri od                                       11                   $4.3
               Total Inventory This Period                                11                   $4.3
  Management deci si on duri ng reporti ng peri od

    D i sallowed costs (agreed to by management)                          11                   $4.3
    Allowed costs (not agreed to by management)                             0                  $0
       Total Management D ecisions This Period                            11                   $4.3
       Total C arried Over to N ext Period                                  0                  $0


Definitions:

 Questioned Costs
         For audit reports, it is the amounts paid by VA and unbilled amounts for which the OIG recommends
VA pursue collection, including Government property, services or benefits provided to ineligible recipients;
recommended collections of money inadvertently or erroneously paid out; and recommended collections or
offsets for overcharges or ineligible costs claimed.
         For contract review reports, it is contractor or grantee costs OIG recommends be disallowed by the
contracting officer, grant official, or other management official. Costs normally result from a finding that
expenditures were not made in accordance with applicable laws, regulations, contracts, grants, or other
agreements; or a finding that the expenditure of funds for the intended purpose was unnecessary or
unreasonable.

 Disallowed Costs are costs that contracting officers, grant officials, or management officials have
determined should not be charged to the Government and which will be pursued for recovery; or on which
management has agreed that VA should bill for property, services, benefits provided, monies erroneously paid
out, overcharges, etc. Disallowed costs do not necessarily represent the actual amount of money that will be
recovered by the Government due to unsuccessful collection actions, appeal decisions, or other similar actions.

 Allowed Costs are amounts on which contracting officers, grant officials, or management officials have
determined that VA will not pursue recovery of funds.




                                                        90
TABLE 3 - RESOLUTION STATUS OF REPORTS WITH RECOMMENDED
          FUNDS TO BE PUT TO BETTER USE BY MANAGEMENT

Table 3 summarizes reports with Recommended Funds to be Put to Better Use by management, and the dollar
value of recommendations that were agreed to and not agreed to by management.


                                                                                  R EC OMMEN D ED
                                                                 N U MB ER         FU N D S TO B E
                    R ESOLU TION STATU S                             OF                P U T TO
                                                                 R EPOR TS          B E TTE R U S E
                                                                                     (In Millions)

     No management deci si on by 3/31/01                              34               $1,675.4

     Issued duri ng reporti ng peri od                                21               $1,657.6

          Total Inventory This Period                                 55               $3,333.0

     Management deci si ons duri ng reporti ng peri od

       Agreed to by management                                        22               $1,619.5

       Not agreed to by management                                    22                 $220.8

          Total Management D ecisions This Period                     44               $1,840.3

          Total C arried Over to N ext Period                         11               $1,492.7




Definitions:

 Recommended Better Use of Funds
         For audit reports, it represents a quantification of funds that could be used more efficiently if
management took actions to complete recommendations pertaining to deobligation of funds, costs not incurred
by implementing recommended improvements, and other savings identified in audit reports.
         For contract review reports, it is the sum of the questioned and unsupported costs identified in
preaward contract reviews which the OIG recommends be disallowed in negotiations unless additional evidence
supporting the costs is provided. Questioned costs normally result from findings such as a failure to comply
with regulations or contract requirements, mathematical errors, duplication of costs, proposal of excessive
rates, or differences in accounting methodology. Unsupported costs result from a finding that inadequate
documentation exists to enable the auditor to make a determination concerning allowability of costs proposed.

 Dollar Value of Recommendations Agreed to by Management provides the OIG estimate of
funds that will be used more efficiently based on management’s agreement to implement actions, or the amount
contracting officers disallowed in negotiations, including the amount associated with contracts that were not
awarded as a result of audits.

 Dollar Value of Recommendations Not Agreed to by Management is the amount associated with
recommendations that management decided will not be implemented, or the amount of questioned and/or
unsupported costs that contracting officers decided to allow.




                                                     91
92
                                             APPENDIX D

               REPORTING REQUIREMENTS OF THE INSPECTOR GENERAL

The table below cross-references the reporting requirements to the specific pages where they are prescribed by
the Inspector General Act of 1978 (Public Law 95-452), as amended by the Inspector General Act
Amendments of 1988 (Public Law 100-504), and the Omnibus Consolidated Appropriations Act of 1997
(Public Law 104-208).

 IG Act
References                             Reporting Reqirements                                         Page

Section 4 (a) (2)    Review of legislation and regulations                                              65

Section 5 (a) (1)    Significant problems, abuses, and deficiencies                                   1-73

Section 5 (a) (2)    Recommendations with respect to significant problems, abuses, and                1-73
                     deficiencies

Section 5 (a) (3)    Prior significant recommendations on which corrective action has not been          89
                     completed

Section 5 (a) (4)    Matters referred to prosecutive authorities and resulting prosecutions and           i
                     convictions

Section 5 (a) (5)    Summary of instances where information was refused                                 78

Section 5 (a) (6)    List of audit reports by subject matter, showing dollar value of              79 to 85
                     questioned costs and recommendations that funds be put to better use         (App. A)

Section 5 (a) (7)    Summary of each particularly significant report                                 i to v

Section 5 (a) (8)    Statistical tables showing number of reports and dollar value of                   90
                     questioned costs for unresolved, issued, and resolved reports                (Table 2)

Section 5 (a) (9)    Statistical tables showing number of reports and dollar value of                   91
                     recommendations that funds be put to better use for unresolved,              (Table 3)
                     issued, and resolved reports

Section 5 (a) (10)   Summary of each audit report issued before this reporting period for               87
                     which no management decision was made by end of reporting period             (App. B)

Section 5 (a) (11)   Significant revised management decisions                                        None

Section 5 (a) (12)   Significant management decisions with which the Inspector General               None
                     is in disagreement

Section 5 (a) (13)   Information described under section 05(b) of the Federal Financial                 44
                     Management Improvement Act of 1996 (Public Law 104-208)

                                                       93
94
                                                APPENDIX E


                                     OIG OPERATIONS PHONE LIST

Investigations


Central Office Investigations Washington, DC .................................................... (202) 565-7702
Northeast Field Office (51NY) New York, NY ...................................................... (212) 807-3444
      Boston Resident Agency (51BN) Bedford, MA .............................................. (781) 687-3138
      Newark Resident Agency (51NJ) Newark, NJ ................................................. (973) 645-3590
      Pittsburgh Resident Agency (51PB) Pittsburgh, PA ......................................... (412) 784-3818
      Washington Resident Agency (51WA) Washington, DC .................................. (202) 691-3338
Southeast Field Office (51SP) Bay Pines, FL ....................................................... (727) 398-9559
      Atlanta Resident Agency (51AT) Atlanta, GA ................................................. (404) 929-5950
      Columbia Resident Agency (51CS) Columbia, SC .......................................... (803) 695-6707
      Nashville Resident Agency (51NV) Nashville, TN .......................................... (615) 736-7200
      New Orleans Resident Agency (51NO) New Orleans, LA .............................. (504) 619-4340
      West Palm Beach Resident Agency (51WP) West Palm Beach, FL ................. (561) 882-7720
Central Field Office (51CH) Chicago, IL ............................................................. (708) 202-2676
      Dallas Resident Agency (51DA) Dallas, TX .................................................... (214) 655-6022
      Denver Resident Agency (51DV) Denver, CO ................................................ (303) 331-7673
      Houston Resident Agency (51HU) Houston, TX ............................................ (713) 794-3652
      Kansas City Resident Agency (51KC) Kansas City, KS ................................... (913) 551-1439
Western Field Office (51LA) Los Angeles, CA ..................................................... (310) 268-4268
      Phoenix Resident Agency (51PX) Phoenix, AZ ............................................... (602) 640-4684
      San Francisco Resident Agency (51SF) Oakland, CA ................................................ (510) 637-1074
      Seattle Resident Agency (51SE) Seattle, WA ...................................... (206) 220-6654, ext 31


Healthcare Inspections


Central Office Operations Washington, DC ......................................................... (202) 565-8305
Healthcare Regional Office Atlanta (54AT) Atlanta, GA .................................... (404) 929-5961
Healthcare Regional Office Chicago (54CH) Chicago, IL .................................. (708) 202-2672
Healthcare Regional Office Los Angeles (54LA) Los Angeles, CA ..................... (310) 268-3005


                                                           95
                              OIG OPERATIONS PHONE LIST (CONT’D)


Audit


Central Office Operations Washington, DC ......................................................... (202) 565-4625
Central Office Operations Division (52CO) Washington, DC ............................ (202) 565-4434
Contract Review and Evaluation Division (52C) Washington, DC ................... (202) 565-4818
Financial Audit Division (52CF) Washington, DC .............................................. (202) 565-7913
Operations Division Atlanta (52AT) Atlanta, GA ................................................ (404) 929-5921
Operations Division Bedford (52BN) Bedford, MA ............................................ (781) 687-3120
      Philadelphia Residence (52PH) Philadelphia, PA ............................................. (215) 381-3052
Operations Division Chicago (52CH) Chicago, IL .............................................. (708) 202-2667
Operations Division Dallas (52DA) Dallas, TX .................................................... (214) 655-6000
      Austin Residence (52AU) Austin, TX .............................................................. (512) 326-6216
Operations Division Kansas City (52KC) Kansas City, MO .............................. (816) 426-7100
Operations Division Los Angeles (52LA) Los Angeles, CA ................................. (310) 268-4335
Operations Division Seattle (52SE) Seattle, WA .................................................. (206) 220-6654




                                                           96
                                APPENDIX F

                                    GLOSSARY

CAP       Combined Assessment Program
CFS       Consolidated Financial Statements
CHAMPVA   Civilian Health and Medical Program of the Department of Veterans Affairs
CY        Calendar Year
DAS       Data Analysis Section
DIC       Dependency and Indemnity Compensation
DoD       Department of Defense
EUL       Enhanced-Use-Lease
FBI       Federal Bureau of Investigation
FDA       Food and Drug Administration
FSS       Federal Supply Schedule
FOIA/PA   Freedom of Information Act/Privacy Act
FTE       Full Time Equivalent
FY        Fiscal Year
GID       Gender Identity Disorder
GPRA      Government Performance and Results Act
HEC       Health Eligibility Center
IG        Inspector General
IRS       Internal Revenue Service
IT        Information Technology
MCI       Master Case Index
NCA       National Cemetery Administration
NHCU      Nursing Home Care Unit
OHI       Office of Healthcare Inspections
OIG       Office of Inspector General
OMB       Office of Management and Budget
PNM       Price Negotiation Memorandum
SSA       Social Security Administration
U.S.      United States
VA        Department of Veterans Affairs
VAMC      Veterans Affairs Medical Center
VARO      VA Regional Office
VBA       Veterans Benefits Administration
VERA      Veterans Equitable Resource Allocation
VHA       Veterans Health Administration
VISN      Veterans Integrated Service Network
VRE       Vocational Rehabilitation and Employment




                                          97
Copies of this report are available to the public. Written requests should be sent to:


                   Office of the Inspector General (53B)
                   Department of Veterans Affairs
                   810 Vermont Avenue, NW
                   Washington, DC 20420


The report is also available on our Web Site:

                   http://www.va.gov/oig/53/semiann/reports.htm

For further information regarding VA’s OIG, you may call 202-565-8620




    Cover photo of
    “The Hiker”
    Spanish American War Memorial
    Arlington, VA by
    Joseph M. Vallowe, Esq.
    VA OIG, Washington, DC




                                        98
Help VA’s Secretary ensure the integrity of depar tmental
operations by reporting suspected fraud, waste, or abuse in
VA programs or operations to the Inspector General Hotline.


            (CALLER CAN REMAIN ANONYMOUS)




To Telephone:          (800) 488 - 8244
                       (800) 488 - VAIG
FAX:                   (202) 565 - 7936

To Send
Correspondence:        Department of Veterans Affairs
                       Inspector General Hotline (53E)
                       P.O. Box 50410
                       Washington, DC 20091-0410

Internet Homepage:     http://www.va.gov/oig/hotline/hotline.htm

E-mail Address:        VAOIG.HOTLINE@forum.va.gov




                  Department of Veterans Affairs
                    Office of Inspector General
                        Semiannual Report

                  April 1, 2001 - September 30, 2001
